<html>
<title> - GLOBAL OVERFISHING AND INTERNATIONAL FISHERIES MANAGEMENT</title>
<body><pre>[Senate Hearing 108-971]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-971

 
       GLOBAL OVERFISHING AND INTERNATIONAL FISHERIES MANAGEMENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
85-979                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b02">[email&#160;protected]</a>p.com.  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 12, 2003....................................     1
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................    27
    Prepared statement...........................................    28
Statement of Senator Stevens.....................................     3
Statement of Senator Sununu......................................    64

                               Witnesses

Collins, Admiral Thomas H., Commandant, U.S. Coast Guard.........     4
    Prepared statement...........................................     5
Lent, Ph.D., Rebecca, Deputy Assistant Administrator for 
  Regulatory Programs. National Marine Fisheries Service, 
  National Oceanic and Atmospheric Administration, United States 
  Department of Commerce.........................................     7
    Prepared statement...........................................     9
Turner, Hon. John F., Assistant Secretary, Bureau of Oceans and 
  International Environmental and Scientific Affairs, Department 
  of State.......................................................    15
    Prepared statement...........................................    17
Myers, Dr. Ransom A., Killam Chair of Ocean Studies, Dalhousie 
  University.....................................................    31
    Prepared statement...........................................    33
Ruais, Richard P., Executive Director, East Coast Tuna 
  Association....................................................    36
    Prepared statement...........................................    39
Speer, Lisa, Senior Policy Analyst, National Resources Defense 
  Council........................................................    47
    Prepared statement...........................................    49
Sullivan, Ph.D., Patrick J., Department of Natural Resources, 
  Cornell University.............................................    51
    Prepared statement...........................................    54

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    71
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    72
Letter dated June 11, 2003 from Justin LeBlanc, Executive 
  Secretariat, International Coalition of Fisheries Association 
  to the Members of the Committee on Commerce, Science, and 
  Transportation.................................................    73
Letter dated May 29, 2003 to the Editor of Nature, from Mark 
  Maunder, Senior Scientist, Inter-American Tropical Tuna 
  Commission; John Sibert, Manager, Pelagic Fisheries Research 
  Program, University of Hawaii at Manoa, Alain Fonteneau, 
  Scientist, French Institut de Recherches pour le Development; 
  John Hampton, Manager, Oceanic Fisheries Program, Secretariat 
  of the Pacific Community; Pierre Kleiber, Fishery Biologist, 
  NOAA Fisheries--Honolulu Laboratory; and Shelton Harley, Senior 
  Scientist, Inter-American Tropical Tuna Commission.............    75
Response to written question submitted by Hon. John McCain to 
  Hon. John F. Turner............................................    76
Response to written questions submitted by Hon. Ernest F. 
  Hollings to:
    Rebecca Lent, Ph.D...........................................    76
    Hon. John F. Turner..........................................    79
    Patrick J. Sullivan, Ph.D....................................    82
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Rebecca Lent, Ph.D...........................................    82
    Admiral Thomas H. Collins....................................    86
    Hon. John F. Turner..........................................    86
Wyden, Hon. Ron, U.S. Senator from Oregon, prepared statement....    72


       GLOBAL OVERFISHING AND INTERNATIONAL FISHERIES MANAGEMENT

                              ----------                              


                        THURSDAY, JUNE 12, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
hear testimony on the issue of global overfishing and explore 
the United States' role in international fisheries management 
and ways to improve it.
    Over the past month, there has been significant media 
coverage on global overfishing, which has helped raise the 
Nation's overall awareness of the condition of global 
fisheries. The message is, our oceans are in danger and we need 
to take action to protect them.
    The Food and Agriculture Organization of the United Nations 
estimates that approximately 47 percent of the world's major 
marine fish stocks or groups of stocks are fully exploited, 
therefore producing catches that have reached or are very close 
to their maximum sustainable limits. While another 18 percent 
are overexploited, another 10 percent of such stocks have been 
depleted or are recovering from depletion. An additional study 
conducted by Ransom Myers, who is here to testify, concludes 
that large pelagic fish worldwide are at 10 percent of their 
historic levels.
    Meanwhile, the FAO predicts the world demand for fisheries 
products will only continue to grow over the next three 
decades. According to its economic modeling, the FAO believes 
global annual consumption of fish per person will increase from 
about 16 kilograms today to between 19 and 21 kilograms in 
2030. Fish consumption per person is projected to increase by 
more than 84 percent in China, almost 60 percent in South Asia, 
and by almost 50 percent in Latin America and in the Caribbean. 
The United States needs to think about where we're going to get 
the fish necessary to meet this growing demand.
    As we'll hear this morning, worldwide stocks of 
commercially valuable fish have generally decreased, but at the 
same time the size and catching capacity of the world's fishing 
fleet have continued to increase. These excessive efforts are 
fueled in large part by huge Government subsidies which a 1999 
World Bank report estimated account for 20 to 25 percent of the 
world's annual fishing revenues, or $15 to $20 billion.
    Efforts to manage international fisheries are complicated 
by disparate support from fishing nations and outright 
noncompliance. On the high seas, illegal, unreported, 
unregulated fishing is common. There are few incentives to 
adhere to international agreements. The consensus view on 
international fisheries is that there are many problems. 
Unfortunately, what much of the media attention over the past 
month has missed is the progress the United States has made in 
better managing its own domestic fisheries. Through the 
Sustainable Fisheries Act of 1996, Congress mandated an end to 
overfishing and provided our regional fisheries management 
councils with many new management tools. Since then, many 
important domestic stocks have been rebuilt or are in the 
process of recovering.
    The United States has an obligation to lead by example in 
international fisheries management and help other nations make 
the difficult decisions necessary to protect and preserve our 
common oceans. I look forward to hearing from our witnesses and 
learning their recommendations on how we can more effectively 
manage international fisheries. I freely acknowledge that this 
is a very large and very difficult and very challenging issue, 
and one that's going to require a lot of examination, and 
perhaps we should somehow see if we can't get some of the 
programs that have worked within the United States of America 
adopted internationally and, of course, enforcement is a major 
aspect and a major challenge.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona

    Good morning. The Committee meets today to consider the issue of 
global overfishing and to explore the United States' role in 
international fisheries management and ways to improve it.
    Over the past month, there has been significant media coverage on 
global overfishing, which has helped to raise the Nation's overall 
awareness of the condition of global fisheries. The message is our 
oceans are in danger and we need to take immediate action to protect 
them.
    The Food and Agriculture Organization (FAO) of the United Nations 
estimates that approximately 47 percent of the world's major marine 
fish stocks or groups of stocks are fully exploited and are therefore 
producing catches that have reached, or are very close to, their 
maximum sustainable limits, while another 18 percent are over-
exploited. Another 10 percent of such stocks have been depleted or are 
recovering from depletion. An additional study conducted by Ransom 
Myers (who is here to testify) concludes that large pelagic fish 
worldwide are at 10 percent of their historic levels.
    Meanwhile, the FAO predicts the worldwide demand for fisheries 
products will only continue to grow over the next three decades. 
According to its economic modeling, the FAO believes global annual 
consumption of fish per person will increase from about 16 kilograms 
today to between 19 and 21 kilograms in 2030. Fish consumption per 
person is projected to increase by more than 84 percent in China, 
almost 60 percent in South Asia, and by almost 50 percent in Latin 
America and the Caribbean. The United States needs to think about where 
we are going to get the fish necessary to meet this growing demand.
    As we will hear this morning, worldwide stocks of commercially 
valuable fish have generally decreased, but at the same time, the size 
and catching capacity of the world's fishing fleet have continued to 
increase. These excessive efforts are fueled in large part by huge 
government subsidies, which a 1999 World Bank report estimated account 
for 20 to 25 percent of the world's annual fishing revenues, or $15 to 
$20 billion.
    Efforts to manage international fisheries are complicated by 
disparate support from fishing nations and outright non-compliance. On 
the high seas, illegal, unreported, unregulated fishing is common; 
there are few incentives to adhere to international agreements.
    The consensus view on international fisheries is that there are 
many problems. Unfortunately, what much of the media attention over the 
past month has missed is the progress the U.S. has made in better 
managing its own domestic fisheries. Through the Sustainable Fisheries 
Act of 1996, Congress mandated an end to overfishing and provided our 
regional fisheries management councils with many new management tools. 
Since then, many important domestic stocks have been rebuilt or are in 
the process of recovering.
    The U.S. has an obligation to lead by example in international 
fisheries management and help other nations make the difficult 
decisions necessary to protect and preserve our common oceans. I look 
forward to hearing from our witnesses and learning their 
recommendations on how we can more effectively manage international 
fisheries.

    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, I welcome your interest in 
this subject, and I do believe these recent reports are 
alarming.
    We have at times been able to carry to the world community 
some of our concepts of protection of basic species of the 
oceans. I mention, for instance, the driftnet issue that we 
took to the U.N. and secured the approval of the world through 
the U.N. of a ban on the use of driftnets. They are a scourge 
of all creatures of the sea.
    But beyond that, as you have mentioned, we have not been 
too successful in convincing the world to listen to our 
scientists and listen to those who have given us some of the 
answers as to how to protect species and how to even improve 
their status as far as the quantity of fish available from any 
particular species.
    You will recall we've worked on the American Fisheries Act, 
which is dealing with pollack. Since the time we declared 
protection of our 200-mile limit, pollack has increased four to 
five times in the total size of its biomass, and the way it's 
being harvested it should continue to increase, increase until 
it really gets to the point where its total food chain will not 
support any further expansion.
    Mankind is not destroying pollack as it increases its 
harvest of pollack, but clearly, in the areas particularly of 
the chase for these enormous fish I think these reports are 
just startling in terms of the numbers that are surviving, and 
I do believe that we should find ways to take to the world 
community our urgent plea that we act now to try and not only 
protect those species, but restore their vitality and help them 
recover.
    We have the means to do that. It's not very expensive. 
That's the reason we've been pursuing the concept of 
rationalization in our North Pacific, to try and prevent the 
overgrowth of harvesting capacity, really the growth of it to 
the point where it threatens survival of the species, so I 
think you'll find that all of us here on this committee are 
really very interested in helping you pursue this course, and 
again, I thank you for holding the hearing.
    The Chairman. Thank you, Senator Stevens. I want to welcome 
the witnesses, Admiral Collins, Commandant of the United States 
Coast Guard, Dr. Rebecca Lent, Deputy Assistant Administrator 
for Regulatory Programs at the National Oceanic and Atmospheric 
Association, and Hon. John F. Turner, Assistant Secretary, 
Bureau of Oceans and International Environmental and Scientific 
Affairs at the Department of State.
    We'll begin with you, Admiral Collins. Welcome.

STATEMENT OF ADMIRAL THOMAS H. COLLINS, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Collins. Good morning, Mr. Chairman, Senator 
Stevens. It's a pleasure to join you this morning to discuss 
this incredibly important topic, and as the global demand for 
fish increases, so does our responsibility to ensure their 
sustainability of this very finite fisheries resource, and 
today, as you have alluded, we see many significant threats to 
their sustainability, including underreporting catch, using 
illegal harvesting methods, and unlawful encroachment in our 
exclusive economic zones.
    The Coast Guard's role is to enforce the laws and 
regulations that prohibit these practices in partnership with 
our other Federal agencies. Our highest priority objective is 
to prevent illegal encroachment of U.S. EEZs and to ensure 
compliance with U.S. and international laws and regulations 
regarding living marine resources. We take this role very 
seriously, and approximately 12 percent of our budget for 2004 
is planned for this mission area.
    From our perspective, there are four key ingredients to 
improving our international fisheries enforcement posture: 
first, the existence of a strong regulatory scheme that is 
enforceable; second, adequate enforcement presence in key 
living marine resource areas for compliance and deterrence 
purposes; third, the application and leverage of effective 
technology, especially in the areas of monitoring and 
surveillance; and fourth, productive, outcome-focused 
partnerships with other nations. These four aren't mutually 
exclusive. There is linkage between all four. Let me very 
quickly cover the four.
    Presence. It's clear from our experience that the more our 
vessels are out there, the less fishing vessels violate the 
law. The challenge is that we have an incredibly vast area to 
oversee, 3.36 million square miles of EEZ, and the U.N. Fish 
Stocks Agreement adds to enforcement requirements by extending 
that enforcement requirement to the high seas. Clearly, there 
is a current and projected mismatch between our current force 
structure, our resource base, and enforcement requirements, and 
of course our presence requirements can be mitigated by the 
application of technology.
    Second, strong regulatory scheme. We actively and 
aggressively support the Department of State and NOAA in 
developing and promoting international enforcement regimes in 
partnership with the National Marine Fisheries Service and the 
Department of Justice in prosecuting violations, and there has 
been much, much progress in this area. The United States was 
one of the first nations to ratify the U.N. Fish Stocks 
Agreement, whose purpose is to ensure long-term conservation 
and sustainable use of the fish stocks. It is really one of 
those, I think watershed pieces of enforcement regime.
    The remaining challenge is to increase nation-state 
participation in the Fish Stocks Agreement, and until we do so, 
the Fish Stocks Agreement's utility will be limited. Twenty 
nations harvest over 75 percent of the world's total fish 
catch. Seventy-five percent of the world's total fish catch is 
harvested by 20 nations. Only four of them have signed the Fish 
Stocks Agreement.
    The Chairman. Which are?
    Admiral Collins. Norway, Russia, United States, and the 
fourth one escapes me for the moment, Mr. Chairman.
    The Chairman. Japan?
    Admiral Collins. Maybe Japan--Canada is the likely fourth. 
We can confirm that for the record, sir.
    Technology, the third area. We are working aggressively in 
partnership with NOAA to implement a national fisheries 
monitoring system, and we expect to make continued progress in 
that over the next several years. We think VMS, the vessel 
monitoring system that provides positive identification of 
vessels transmitting data and indicates where and what the 
vessel is doing is absolutely essential to any enforcement 
regime. It's indispensable technology, and very, very 
importantly, our deep water modernization project, integrated 
deep water systems, is very, very much key to bringing new 
technology, new capability to our off-shore enforcement 
requirement.
    The fourth and critically important is partnerships with 
other nations. We are directly engaged as an organization, the 
United States Coast Guard, with the counterpart enforcement 
agencies in Canada, Mexico, Russia, Japan, South Korea, 
People's Republic of China, and many others, and our efforts 
include enforcement MOUs with them, fisheries enforcement 
workshops with them, ship rider agreements with them, joint 
operations and boarding officer training with them, and we 
currently have a fisheries enforcement agreement with Canada 
and the People's Republic of China and Taiwan, and we're in the 
process of concluding one with Russia as well, and working on 
one with Mexico.
    We collaborated with Russia on a joint operations manual 
addressing joint law enforcement operations in the Bering Sea 
in a very, very successful way, and we're also a member of many 
formal regional fisheries management organizations. These 
international mechanisms are absolutely indispensable to moving 
ahead positively in the enforcement area.
    So, summary, four items we think are the magic ingredients 
to success: presence, strong regulatory regime, technology, and 
partnerships are what is needed, are the key ingredients to 
bake this cake, so to speak, in effective international 
enforcement. Thank you very much, Mr. Chairman. I'll be glad to 
answer any questions at the appropriate time.
    [The prepared statement of Admiral Collins follows:]

     Prepared Statement of Admiral Thomas H. Collins, Commandant, 
                            U.S. Coast Guard

    Good morning Mr. Chairman and distinguished members of the 
Committee. It is a pleasure to appear before you today to discuss the 
Coast Guard's role in international fisheries management.
    As the demand for fish products increase globally, so too does the 
responsibility of all nations to ensure the sustainability of our 
fishery resources. The high seas and the resources they hold are the 
village commons of the 21st Century. Today we see many significant 
threats to their sustainability. These threats take the form of 
illegal, unreported and unregulated fishing, under-reporting catch, 
using illegal harvesting methods such as high seas drift nets, and 
unlawful encroachment into the U.S. Exclusive Economic Zone (EEZ). The 
Coast Guard's role is to enforce the laws and regulations that prohibit 
these practices. This is a mission we take seriously and into which we 
funnel significant resource capital. This year, 12 percent of the Coast 
Guard's Operating Expenses budget is dedicated to supporting the 
fisheries mission.
    Under the auspices of the Magnuson-Stevens Fisheries Conservation 
and Management Act, the Coast Guard is the only Federal agency capable 
of projecting a law enforcement presence throughout the EEZ and in key 
areas of the high seas. The Coast Guard invests significant resources 
to patrol these waters and works closely with domestic and 
international enforcement agencies to thwart illegal fishing practices 
at sea.
    The Coast Guard assists the Department of State in developing 
international enforcement regimes through various Regional Fishery 
Management Organizations such as the International Convention for 
Conservation of Atlantic Tuna, the North Pacific Anadromous Fish 
Commission, the Northwest Atlantic Fisheries Organization, and the 
Convention on the Conservation and Management of Highly Migratory Fish 
Stocks in the Western and Central Pacific to name a few. The Coast 
Guard maintains a liaison officer at the State Department's Office of 
Marine Conservation to advise U.S. delegations to these organizations 
on the enforceability of proposed management regimes. We also work 
closely with the National Oceanic and Atmospheric Administration's 
(NOAA) Fisheries Office for Enforcement and the Department of Justice 
in prosecuting foreign fishers who illegally encroach upon the U.S. 
EEZ.
    ``Fish do not recognize international boundaries'' is an oft-quoted 
phrase in the fisheries management and enforcement business, and the 
Coast Guard is directly engaged with enforcement agencies in Canada, 
Mexico, the Russian Federation, Japan, South Korea, the People's 
Republic of China and many other nations to promote sustainability 
through compliance with regulations and management regimes. Our efforts 
include enforcement Memoranda of Understanding, fisheries enforcement 
workshops, ship rider agreements, joint operations, and boarding 
officer training. In an action plan on the Marine Environment and 
Tanker Safety prepared last week at the G-8 Summit in Evian, France, G-
8 leaders, led by President Bush, pledged to work towards sustainable 
fisheries and marine conservation.
    I would like to share with you a success story in international 
cooperation and effective enforcement. In 1991, the United Nations 
declared an international moratorium on the use of large-scale (greater 
than 2.5 kilometers in length) pelagic high seas driftnets. Since that 
time, the U.S. Coast Guard, NOAA Fisheries, the Canadian Department of 
Fisheries and Oceans, the Russian Federal Border Service, the People's 
Republic of China Bureau of Fisheries, and the Fisheries Agency of 
Japan have worked together to all but eliminate high seas driftnet 
fishing in the North Pacific. Our closely coordinated efforts have 
resulted in Russian officers staffing a joint command center in Alaska, 
Chinese enforcement officers sailing on U.S. Coast Guard cutters, and 
NOAA Fisheries agents flying in Canadian Air Force surveillance planes. 
These countries are also members of the North Pacific Heads of Coast 
Guard organization that I personally participate in. The North Pacific 
Heads of Coast Guard, recognizing the importance of fisheries, recently 
implemented a Fisheries Working Group to meet regularly and discuss 
fisheries issues of regional interest.
    The Coast Guard's fisheries law enforcement strategic plan OCEAN 
GUARDIAN, stipulates that our highest priority enforcement mission is 
to prevent encroachment of the U.S. EEZ and internal waters by foreign 
fishing vessels. The Plan also emphasizes ensuring compliance with 
international agreements for the management of living marine resources 
such as the United Nations Driftnet Moratorium.
    Fisheries enforcement, particularly enforcement of international 
fisheries management schemes, is a mission largely conducted by Coast 
Guard Deepwater assets. The U.S. EEZ is the largest and most productive 
in the world. It occupies 3.36 million square miles and includes 95,000 
miles of coastline. It contains an estimated 20 percent of the world's 
fishery resources. These vast patrol areas, coupled with the long 
distance from U.S. shores--for example the non-contiguous EEZ in the 
central Pacific--provide a significant challenge to the Coast Guard's 
assets. As fish stocks throughout the world dwindle and the fleets of 
distant water fishing nations are being pushed farther from home and 
into the high seas in search of catch, the bounty of our EEZ becomes a 
more attractive quarry. The improved capabilities the Coast Guard will 
garner and the technology we will have available to leverage as a 
result of the Integrated Deepwater System project will greatly enhance 
our ability to enforce international fisheries regulations in the U.S. 
EEZ and beyond.
    The world is becoming more aware of the need to ensure the 
sustainability of our collective fish stocks. At the same time, the 
United States is becoming increasingly involved in the management of 
living marine resources on the high seas. Naturally, this means the 
Coast Guard will become even more involved in the enforcement of 
agreements to which the U.S. is a party. In the past, international 
policies governing the conservation of high seas fisheries fell well 
short of their goals because they lacked any effective enforcement 
provisions. However, in 1995, a landmark agreement, the Straddling Fish 
Stocks and Highly Migratory Fish Stocks Agreement established the 
framework for all future international fishery regimes. This agreement 
calls for strict adherence with fishery conservation measures and, more 
importantly, contains non-flag state enforcement provisions that allow 
the Coast Guard to board foreign fishing vessels flagged by any nation 
party to any mutual international fishing agreement. The Agreement 
entered into force on December 11, 2001.
    I believe emphasis in three areas is the key to improving our 
international fisheries enforcement posture. First, active 
participation in international fora such as the Regional Fishery 
Management Organizations I mentioned earlier. Second, working within 
those fora to develop a regulatory regime that not only sustains the 
resources, but is also enforceable. Finally, providing the resources 
necessary to carry out enforcement operations under that scheme. By 
resources, I am referring to people, vessels and also technology such 
as the Vessel Monitoring System, multi-lateral working groups like the 
North Pacific Heads of Coast Guard organization, and joint operations 
such as the high seas driftnet operations in the North Pacific.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    The Chairman. Thank you, Admiral. Dr. Lent, welcome.

       STATEMENT OF REBECCA LENT, Ph.D., DEPUTY ASSISTANT

        ADMINISTRATOR FOR REGULATORY PROGRAMS. NATIONAL

         MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND

    ATMOSPHERIC ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                            COMMERCE

    Dr. Lent. Thank you, Mr. Chairman and Members of the 
Committee, for this opportunity to testify on international 
fishery conservation and management. The United States has one 
of the most comprehensive systems of fisheries management in 
the world. We have extensive science-based regulations on our 
commercial and recreational vessels more robust than most of 
those around the world. We have also led efforts for 
conservation, reducing overfishing and capacity in many 
international agreements and in many bilateral agreements, and 
are working on compliance as well. We hope other countries will 
recognize the benefits of sustainable fishing practices and 
compliance.
    In May of this year, the article published in the 
scientific journal, Nature, raised the issue of worldwide 
depletion of predatory fish. This is consistent with the 
scientific view of the impacts of global fisheries on marine 
ecosystems. It's not a new finding that fishing has made fish 
stocks decline. However, there's a lot of uncertainty about 
what happened in these stocks before data were collected 
systematically.
    Some of the conclusions reached in this article are global 
in scope, and we share those views in our scientific community 
about overfishing and resource declines, but the conclusions 
about specific fisheries in ocean areas, that's where the 
uncertainty kicks in. We are increasing our focus of scientific 
research on the impacts of marine fishing, working with our 
global partners in this research.
    On the management front, the U.S. has made a lot of 
progress in international fisheries management. We're a leader 
in swordfish and billfish conservation through ICCAT, the 
Atlantic Tunas Commission. We're also a leader in bycatch 
technology development, and transfer of that bycatch, 
particularly for sea turtles and sea birds and sharks.
    We're going to continue our science-based work in 
recommending rebuilding programs for overfished stocks and in 
addressing bycatch internationally. I just want to highlight a 
few of our successes at ICCAT, the International Commission for 
the Conservation of Atlantic Tunas. We have rebuilding plans 
for Western Atlantic bluefin tuna, North Atlantic swordfish, 
and for blue and white marlin. We've already seen the payoffs 
of these rebuilding plans for swordfish. They're nearly at 
their goal.
    We've also adopted a number of measures to improve 
compliance with ICCAT in addressing IUU fishing, as you pointed 
out. We've also addressed measures for bycatch of sharks, sea 
birds, and turtles.
    We still have a ways to go at ICCAT in terms of data 
collection, making sure we stay on track with rebuilding plans, 
and get the overfished stocks under rebuilding plans as well.
    With regard to CCAMLR, that's the Convention on the 
Conservation of Antarctic Marine Living Resources, the big 
focus here is Patagonian toothfish. The important measure that 
we have there is a tracking system which should help ensure 
that consuming nations, as we are, aren't buying IUU toothfish.
    International Whaling Commission meetings start next week. 
We'll focus on our four main principles, which is, we support 
the moratorium on commercial whaling, we support aboriginal 
subsistence whaling, we oppose lethal research whaling, and we 
oppose the international trade in whale products.
    NAFO, the Northwest Atlantic Fisheries Organization, our 
big concern there is access for U.S. vessels. There has been 
some success in rebuilding, particularly yellowtail flounder, 
but we're not sharing in those successes, and we're working on 
that.
    We're taking a number of steps in our agencies to address 
international bycatch issues. We have agreements with foreign 
nations regarding long-line fishing, sea turtles, an 
international bycatch strategy, a number of workshops working 
with scientists as well as fishery managers worldwide.
    COFI, the Committee on Fisheries at the Food and 
Agriculture Organization in Rome, the focus there has been 
addressing global problems of overcapacity. There are just too 
many boats out there. One country may take care of their 
overcapacity, but the vessels end up in somebody else's 
country, so we have to work on this internationally. There is 
an international plan of action for fishing capacity, and the 
United States is working on our national plan.
    Convention on International Trade and Endangered Species, 
CITES, that is a useful adjunct to traditional fishery 
management. For marine species that are traded, it's an 
important tool for tracking the amount of fishing that's going 
on and for, in some cases, banning that trade if that's helpful 
to fishery management organizations, particularly where there 
are no regional fishery management organizations in place.
    A relatively new issue is uncontrolled deep sea fishing. As 
the global fish stocks have become overfished, vessels are 
displacing to the deep sea seamounts in mid-oceanic ridges. 
These are areas beyond any domestic authority. They are often, 
particularly in terms of species, not covered by regional 
fishery management organizations that are already in place 
because they're not the pelagics, they're fish such as 
toothfish. Unmanaged and uncontrolled fishing is a real threat 
to biodiversity.
    Another problem is subsidies, because some countries 
continue to subsidize their fishing industry. We're working 
through the World Trade Organization, WTO, to address these 
subsidies, which reach levels of $10 to $15 billion a year.
    In summary, we are making progress, not as fast as some 
would hope, but we feel that we're addressing these issues 
internationally. We are leading the fight to address 
overfishing, overcapacity, and reducing bycatch.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lent follows:]

      Prepared Statement of Rebecca Lent, Ph.D., Deputy Assistant 
   Administrator for Regulatory Programs. National Marine Fisheries 
Service, National Oceanic and Atmospheric Administration, United States 
                         Department of Commerce

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify on topics related to international fishery conservation 
and management. I am Rebecca Lent, Deputy Assistant Administrator for 
Regulatory Programs in the National Oceanic and Atmospheric 
Administration, Department of Commerce.
    Within the Bush Administration, NOAA Fisheries and our Federal 
partners at the Department of State and the Department of Homeland 
Security, working in concert with state, tribal, and other Native 
American groups, have and are continuing to accomplish an impressive 
program of international living marine resource conservation and 
management.
    The United States has one of the most comprehensive systems of 
fisheries management. The commercial fishing industry in the United 
States is required to comply with extensive science-based regulations 
that are more robust than those found in industrial fishing countries 
world-wide. Moreover, the United States has led efforts to reduce 
overfishing and fishing industry capacity under many international 
agreements. The United States continues to be a world leader in 
compliance with these international fisheries agreements. Hopefully, 
other industrial fishing countries, such as members of the European 
Union, will recognize the benefits of sustainable fishing practices and 
improve compliance with these international agreements.
    I would like to emphasize, however, that many of the challenges we 
face in international fisheries management will require broad 
international cooperation if we are to be successful in our efforts to 
mitigate the decline and collapse of major fish stocks. These 
challenges include: (1) eliminating overfishing; (2) rebuilding 
overfished stocks; (3) managing the needs of highly migratory species; 
(4) managing fisheries sustainably; (5) recovering protected species; 
(6) conserving habitats; (7) improving the science that guides 
management; (8) working toward ecosystem-based management; and (9) 
addressing problems of bycatch and harvesting capacity.
    I will provide an overview of our efforts to address these issues 
in several international fora including (1) ICCAT (International 
Commission for the Conservation of Atlantic Tunas), (2) CCAMLR 
(Convention on the Conservation of Antarctic Marine Living Resources), 
(3) IWC (International Whaling Commission), (4) NAFO (Northwest 
Atlantic Fisheries Organization), (5) FAO (Food and Agriculture 
Organization of the United Nations), (6) WTO (World Trade 
Organization), (7) CITES (Convention on International Trade in 
Endangered Species of Wild Fauna and Flora), (8) the growing focus of 
attention and concern regarding deep sea fishing on seamounts and mid-
oceanic ridges, and (9) recent press accounts about the status of the 
world's fish stocks and their management.

ICCAT (International Commission for the Conservation of Atlantic Tunas)
    ICCAT coordinates the international management of tunas and tuna-
like species. The organization currently has 35 members. Primary U.S. 
objectives over the last several years have included seeking measures 
to rebuild overfished stocks and improve adherence to ICCAT rules by 
members and non-members. The United States has also focused on measures 
to address bycatch issues.
    With regard to rebuilding, we have had a number of successes, 
including the adoption of rebuilding plans for western bluefin tuna 
(1998), North Atlantic swordfish (1999), and blue and white marlins 
(2000). The sacrifices made to rebuild North Atlantic swordfish began 
to show results last year with a significant increase in biomass, which 
subsequently led to increases in quota allocations. On the compliance 
front, ICCAT has adopted a variety of state-of-the-art measures. ICCAT 
can and has imposed penalties (e.g., quota reductions, trade sanctions) 
against members for infractions. The Commission has also adopted action 
plans that contemplate the use of trade sanctions against countries 
that diminish the effectiveness of ICCAT, with sanctions having been 
imposed in several instances. These measures have been successful in 
reducing illegal, unregulated, and unreported (IUU) fishing in the 
Convention area. Most recently in its fight against IUU fishing, ICCAT 
adopted a vessel list program that provides a basis to limit market 
access to only those products taken by authorized vessels.
    Regarding bycatch issues, ICCAT has adopted proposals to improve 
data collection and reporting on sharks and seabirds. A similar 
proposal for sea turtles will be under consideration at the 2003 ICCAT 
meeting. The ICCAT measure also encourages releasing sharks taken as 
bycatch, and minimizing shark waste and discards. A shark assessment is 
planned for 2004.
    Despite the strides made at ICCAT, particularly over the last 
decade, a number of difficult issues remain. Data collection and 
reporting continue to be a challenge for some parties, and a special 
meeting will be held in the fall 2003 to consider this matter. 
Moreover, the stock structure of Atlantic bluefin tuna, currently 
managed as two separate stocks, remains in question and ICCAT agreed to 
convene a meeting of scientists and managers in November 2003 to look 
into this issue. In addition, ensuring ICCAT rebuilding plans stay on 
course and new programs are developed for other overfished stocks (such 
as bigeye tuna) will be important in upcoming meetings. We intend to 
ensure that ICCAT continues to make needed progress in improving member 
compliance and non-member cooperation, including addressing IUU issues.
    With respect to compliance issues in ICCAT fisheries, the Secretary 
of Commerce recently (April 25, 2003) sent letters to the European 
Commission (EC). Secretary Evans noted the importance of the 
conservation of marine fisheries and expressed concern about actions 
and positions taken by the EC at ICCAT in 2002-particularly regarding 
EC support of an eastern bluefin tuna total allowable catch far in 
excess of scientifically recommended, sustainable levels. Secretary 
Evans stated that positions such as these have the potential to 
threaten the long-term future of shared resources and to lead to 
serious friction in U.S.-EC trade relations. As an example, the 
Secretary pointed to a petition filed and later withdrawn by a 
recreational fishing organization under Section 301 of the Trade Act of 
1974 that sought relief from allegedly unjustifiable acts, policies, 
and practices of the EC related to ICCAT. In his letter, the Secretary 
urged the EC to take prompt action to improve their compliance with 
existing ICCAT measures and to reconsider accepting science-based 
conservation measures in the future.
    In addition to this action, NOAA Fisheries has received a request 
to certify the EC pursuant to the Pelly Amendment to the Fishermen's 
Protective Act of 1967 for diminishing the effectiveness of ICCAT. The 
decision on certification has been left open for the time being while 
we monitor the activities of the EC and its Member States. In this 
regard, Assistant Administrator Hogarth recently sent a letter to the 
EC Director General for Fisheries explaining the request, noting its 
seriousness, and indicating that we intend to investigate it fully. He 
has also been in contact with the head of the EC delegation to ICCAT 
concerning this matter, and we continued our dialogue at the ICCAT 
intersessional meetings in Madeira in late May 2003. We have been 
stressing the importance of EC implementation of its ICCAT commitments 
and will continue to do so.

CCAMLR (Convention on the Conservation of Antarctic Marine Living 
        Resources)
    Due to the scale of IUU fishing for toothfish in and beyond waters 
subject to CCAMLR, a Catch Documentation Scheme (CDS) for toothfish was 
adopted in 1999. The CDS identifies the origin of toothfish imports, 
determines if the toothfish were harvested consistent with CCAMLR 
conservation measures, monitors international trade, and provides catch 
data for stock assessments in the Convention Area. Although NOAA 
Fisheries has fully implemented the CDS in the United States, it 
recently published final regulations streamlining administration of the 
program and enhancing efforts to prevent the import of illegally 
harvested toothfish. Effective June 16, 2003, NOAA Fisheries will 
operate a pre-approval system for toothfish imports. Pre-approval will 
allow the agency to review toothfish catch documents sufficiently in 
advance of import to facilitate enforcement and provide additional 
economic certainty to U.S. businesses in the toothfish trade.
    Information provided to CCAMLR has indicated high levels of IUU 
fishing in the Convention Area. The majority of CCAMLR Members agreed 
that catches reported as harvests from FAO Statistical Areas 51 and 57, 
high sea areas in the Indian Ocean adjoining the Convention Area, were 
not credible and were in all likelihood fish pirated from within the 
Convention Area. They also expressed concerns, shared by the United 
States, that information reported in catch documents did not match 
scientific understanding of toothfish distribution and potential 
biomass of toothfish on the high seas. Therefore, also as of June 16, 
2003, no imports of fresh or frozen toothfish represented as harvested 
within FAO Areas 51 or 57 will be allowed entry into the United States. 
Importers applying for a pre-approval certificate for fish that has 
been harvested from either of these areas will be denied pre-approval.
IWC (International Whaling Commission)
    The 55th Annual Meeting of the International Whaling Commission 
(IWC) will be held in Berlin June 16th through 19th. The Bush 
Administration reaffirms longstanding principles that will guide United 
States policy at this meeting: we will support the IWC's commercial 
whaling moratorium, support aboriginal subsistence whaling, oppose 
lethal research whaling, and oppose the international trade of whale 
products.
    Iceland recently rejoined the IWC with a reservation to the 
commercial whaling moratorium. The Bush Administration welcomes Iceland 
as a member of the Commission, but the United States recently filed a 
formal objection to Iceland's reservation. In addition, Iceland 
recently submitted to the IWC a plan to conduct lethal research on 
whales. The United States opposes lethal research and urges Iceland not 
to begin this program. Likewise, Japan continues to conduct lethal 
research with the take of up to 700 whales per year. The United States 
continues to urge Japan to cease the killing of whales under scientific 
permits. Germany will put forth a resolution on scientific whaling at 
the annual meeting that we intend to support.
    In addition, Norway and Iceland have initiated the first 
international trade of whale products in 14 years. The Bush 
Administration has urged both countries to halt this trade. Last year, 
Japan submitted a resolution for the consideration of Japanese 
community-based whaling. This resolution contained a marked change from 
previous proposals whereby the quota would be non-commercial, and based 
on the advice of the Scientific Committee. Japan is expected to present 
a proposal regarding this matter. We have not yet seen this proposal, 
but will only consider supporting it if these two criteria (non-
commercial--i.e., the proposal would establish sufficient safeguards to 
ensure that whales that would be taken under the program are not used 
for commercial purposes--and based upon the advice of the IWC 
Scientific Committee), at a minimum, are met.
    Mexico plans to put forward a resolution to create a Conservation 
Committee that is meant to reaffirm the conservation objective of the 
Convention. The United States intends to support the creation of this 
committee, as it would improve the governance of the Commission's work.
    Italy intends to put forth a resolution on bycatch of whales. The 
United States intends to support this resolution, since we recognize 
bycatch as a serious conservation issue and it would be synergistic 
with the National Bycatch Strategy recently issued by NOAA Fisheries.
    The United States continues to work in good faith to establish a 
Revised Management Scheme (RMS) for commercial whaling. However, the 
last round of working group meetings were disappointing in that 
representatives of the whaling nations and their supporters did not 
accept any compromise put forth by the United States and others. The 
United States has repeatedly demonstrated its willingness to develop a 
science-based and enforceable RMS. Our efforts, however, have been 
thwarted by the pro-whaling nations, which, to date, have been 
unwilling to agree to the incorporation of adequate monitoring measures 
into the RMS. At the annual meeting, Japan will likely put forth a 
proposal on the RMS. However, Japan's proposal last year lacked the 
necessary components for a credible scheme and would have eliminated 
the commercial whaling moratorium and whale sanctuaries.
    Finally, the United States intends to support Australia and New 
Zealand in their proposal to establish a South Pacific Sanctuary, and 
Brazil's proposal to establish a South Atlantic Sanctuary. Both of 
these sanctuary proposals are science-based and would help the recovery 
of depleted whale stocks.

NAFO (Northwest Atlantic Fisheries Organization)
    NOAA has provided leadership on U.S. delegations to NAFO meetings 
since the United States joined the organization in 1996. NAFO manages 
groundfish, flatfish, and shellfish (many of which are under zero 
directed take regimes) in the waters of the northwest Atlantic beyond 
areas of national jurisdiction. Some of these stocks are rebuilding and 
one, yellowtail flounder, has recovered sufficiently to reestablish a 
directed fishery. A U.S. priority within NAFO is to reform allocation 
practices and obtain greater access for U.S. vessels to fish for 
recovering stocks. NOAA Fisheries hosted a NAFO Working Group meeting 
in Miami earlier this year to press for more progress in this area, but 
it has been slow. On the other hand, we have made considerable gains 
within NAFO on transparency, implementing a risk-based approach, 
effectively dealing with problems of fishing by non-members, and 
upgrading NAFO mechanisms and processes for monitoring compliance by 
NAFO members. Nevertheless, the issue of obtaining benefits for U.S. 
fishermen commensurate with the considerable financial and other 
contributions the United States makes to NAFO has led us to begin a 
reassessment of our proper role within the organization.

COFI/Capacity (Committee on Fisheries, Food and Agriculture 
        Organization of the United Nations)
    A major and common problem that plagues a large number of domestic 
and world fisheries is overcapacity in the harvesting sector. The 
United States has recognized this global problem for more than a 
decade, and has worked for years to address the issue of overcapacity 
in the harvesting sector through technical and policy-level 
consultations held under the sponsorship of FAO. Accordingly, we agreed 
in 1997 to consultations leading to an international plan of action for 
the management of fishing capacity (IPOA) and joined all the other FAO 
Members in approving the IPOA on this subject in 1999. NOAA Fisheries 
played an active role in the technical and policy-level meetings to 
bring these negotiations to a successful conclusion. In particular, I 
would like to single out the efforts of NOAA Fisheries technical 
experts who developed definitions and measures of capacity and 
overcapacity for marine capture fisheries that were later endorsed by 
FAO, and have become the world standards.
    The IPOA for the management of fishing capacity included a 
provision calling on all signatories to develop a national plan of 
action for the management of fishing capacity. NOAA Fisheries has been 
working on this task for the last few years, but crafting a national 
plan of action for the management of fishing capacity has been a 
challenge. The Magnuson-Stevens Fishery Conservation and Management Act 
does not mandate the regulation of fishing capacity, and certain tools 
that would enable the Councils and NOAA Fisheries to manage capacity 
were either legally unavailable--in the case of individual fishing 
quotas until October 2002--or were untried and therefore untested--in 
the case of Fishing Capacity Reduction Programs under Section 312(b)-
(e). Nevertheless, NOAA Fisheries has prepared a draft national plan of 
action that we believe is consistent with our legal mandates and 
authorities.
    Our national plan of action has gone through internal and public 
review. We are in the process of making changes in response to comments 
provided by our constituents through a Federal Register notice of 
availability. The comment period closed in March of this year. We 
expect to send the final plan to FAO this year.
    The United States, through the Committee on Fisheries (COFI), also 
provided leadership in the development of IPOAs regarding seabirds, 
sharks, and IUU fishing. The United States has completed development of 
its NPOAs relative to seabirds and sharks, and has developed a draft 
NPOA on IUU fishing that was presented at COFI earlier this year.

CITES (Convention on International Trade in Endangered Species of Wild 
        Fauna and Flora)
    The Bush Administration continues to believe that CITES can serve 
as a useful adjunct to traditional fisheries management through its 
comprehensive permitting and trade control protocols. Such systems can 
deter IUU fishing and assist in promoting domestic management programs 
for commercially exploited marine species. CITES was designed to 
support sustainable international trade in fauna and flora, but is not 
a substitute for scientific management and domestic regulation of 
fishery resources. In instances where no RFMO is in place (as is the 
case with queen conch and sturgeon), a CITES listing can encourage the 
establishment of regional management mechanisms. In the case of queen 
conch (listed in 1992), since 1996, NOAA Fisheries and the Caribbean 
Fishery Management Council have organized the International Queen Conch 
Initiative, which provides a forum for countries in the Wider Caribbean 
to develop coordinated approaches to regional management of the 
species. In the case of sturgeon (listed in 1997), regional cooperation 
among range States has led to the setting of intergovernmental quotas 
for sturgeon species in the Caspian Sea region. Closer cooperation 
between CITES and FAO should further strengthen these efforts, as FAO 
is experienced in supporting regional fisheries management 
organizations in developing regions of the world.
    The Bush Administration has also supported cooperative efforts 
between CITES and CCAMLR to improve the management and enforcement of 
measures taken to conserve toothfish and potentially other Southern 
Ocean species. In addition, we continue to advocate the continued 
linkage of CITES listings with actions taken by the IWC to conserve 
whale stocks, such that the applicable trade prohibitions under CITES 
reflect the decisions on commercial whaling established by the 
recognized international management authority.

Deep Sea Fishing
    From a global perspective, as more and more fish stocks have become 
overfished, the search for economically harvestable fish resources has 
led displaced fishing vessels to deep sea seamounts and mid-oceanic 
ridges in high seas areas beyond the jurisdictions of any nation and 
beyond the reach of many international management regimes. These areas 
have several common characteristics: they are isolated and fragile 
ecosystems, and there tends to be a paucity of legal frameworks within 
which to manage the fisheries in these areas in a sustainable or any 
other manner. Areas of concern include deep sea seamounts and mid-
oceanic ridges in the Indo-Pacific Oceans and the Atlantic Ocean. The 
lack of legal management frameworks makes these areas one of the last 
frontiers in the world's oceans. Unmanaged and uncontrolled fisheries 
in these areas represent the greatest threat to the conservation of 
biodiversity due to human factors, since other threats (e.g., due to 
ship discharges and other sources of pollution) are already at least 
potentially addressed by existing international legal frameworks.
    There are a number of international meetings dealing with these 
problems that are scheduled during the balance of this year and beyond. 
NOAA Fisheries intends to participate actively in addressing these 
matters because we are all too familiar with the portability of deep 
sea fishing fleets in the current environment of overfishing and 
overcapacity. We first faced these challenges with regard to large-
scale pelagic driftnet fishing on the high seas. We will bring our 
responsibilities for recovering and conserving protected species and 
habitats, and our concern with reducing bycatch and addressing IUU 
fishing to bear in addressing these problems as part of NOAA's global 
marine stewardship mission.

The World's Fish Stocks and Their Management
    On May 15, 2003, an article entitled ``Rapid worldwide depletion of 
predatory fish communities'' was published in the scientific journal 
Nature. The article is consistent with the current scientific view of 
impacts of global fisheries on marine ecosystems, but determining that 
fish stocks worldwide have declined is not a new conclusion. NOAA 
Fisheries scientists share many of the views identified by the authors 
of the article. However, there continues to be significant uncertainty 
regarding what may have gone on before data were collected 
systematically. Although some conclusions reached by the authors that 
are global in scope (e.g., regarding overfishing and resource declines) 
are widely shared in the scientific community, the conclusions reached 
about specific fisheries and ocean areas are affected by this 
uncertainty.
    We recognize that world ecosystems have been, and will continue to 
be, altered as a result of human activities. Rebuilding stocks to 
healthy levels includes a human impact component that must be 
considered. Therefore, NOAA is increasingly focusing its attention on 
scientific research into the impacts of marine fishing on our 
ecosystems. Because this is a global issue, we are working with the 
international community to address the multiplicity of issues that 
surround sustainable utilization of living marine resources. Although 
scientific research is an important component, the United States has 
made progress in a number of areas of fisheries management. For 
example, the United States is a strong leader in swordfish and billfish 
conservation through the ICCAT. The United States is also a leader in 
technology development (e.g., longline gear) and transfer as it relates 
to sea bird and sea turtle bycatch. Nonetheless, we are not satisfied 
with the current state of international fisheries management, and we 
will continue to promote the establishment of rebuilding programs for 
overfished stocks, as we have done in ICCAT and NAFO, and improved, 
science-based management, as we are doing in all the regional fisheries 
management organizations of which we are a member.

Fish Subsidies
    Many commercially-traded fish stocks are fully exploited or over 
exploited. While it is generally acknowledged that ineffective or 
poorly enforced management regimes in global fisheries are the 
principal culprits in the decline of certain stocks, there is reason to 
believe that global levels of subsidies (estimated at between $10-15 
billion annually) have exacerbated the problem. For this reason, World 
Trade Organization (WTO) Ministers agreed in Doha, Qatar in December 
2001 to clarify and improve existing WTO rules on fisheries subsidies. 
The World Summit on Sustainable Development, held in Johannesburg South 
Africa in September 2002, further committed the global community to 
reduce and eliminate subsidies that lead to overcapacity and 
overfishing.
    The United States has actively supported and contributed to work on 
fisheries subsidies in a variety of fora, and has long advocated WTO 
action on this issue. We believe that the fisheries subsidies 
negotiations are an important part of the WTO's commitment to making 
trade, development, and environmental policies mutually supportive: in 
other words, a demonstration that trade liberalization is a ``win-win-
win.'' We have therefore been working hard in Geneva, along with a 
group of like-minded countries, known as the ``friends of fish,'' to 
fulfill the Doha mandate and establish better disciplines on fisheries 
subsidies. Although a few countries have slowed the negotiations 
somewhat, progress toward a successful conclusion is being made.

International Bycatch Reduction Activities
    In the September 2000 Annual Report to Congress on International 
Bycatch Agreements, required by Section 202(h) of the Magnuson-Stevens 
Fishery Conservation and Management Act, NOAA Fisheries concluded, and 
the Department of State concurred, that seeking international 
agreements with foreign nations conducting pelagic longline fishing 
operations for Atlantic and Pacific highly migratory species was 
necessary and appropriate to protect endangered and threatened sea 
turtles. An international strategy was developed and detailed in the 
June 2001 Report to Congress.
    In January 2002, Assistant Administrator Hogarth appointed an 
interagency International Bycatch Reduction Task Force to carry out the 
strategy. Although the initial focus of this effort was to reduce sea 
turtle bycatch in longline fisheries internationally, it also took on 
responsibilities relating to bycatch issues involving sharks and 
seabirds. It has since been fully integrated into our broader NOAA 
Fisheries National Bycatch Strategy. We continue to host and 
participate in international working groups in support of bycatch 
mitigation. A few examples of these include:

  <bullet> Participation and financial support for the Second 
        International Fishermen's Forum in November 2002, which focused 
        on sea turtle and seabird bycatch mitigation;

  <bullet> Participation and financial support of an Asia-Pacific 
        Economic Forum Fisheries Working Group Shark Workshop, which 
        included bycatch issues, in Huatulco, Mexico in December 2002;

  <bullet> Planning and hosting an international technical workshop on 
        reducing sea turtle interactions with longline gear in February 
        2003, in Seattle, Washington;

  <bullet> Securing State Department funding to support the meeting of 
        the Parties to the First Inter-American Sea Turtle Convention, 
        to be held in San Jose, Costa Rica, in August 2003; and

  <bullet> Planning for an interdisciplinary workshop to be co-
        sponsored by the International Center for Living Aquatic Marine 
        Resource Management and others on the conservation needs of sea 
        turtles in the Pacific Basin, planned for November 2003 in 
        Bellagio, Italy.

    The Task Force is preparing a report of its activities during the 
first year of operation, and I would be happy to provide copies of it 
when completed.
    Thank you, Mr. Chairman, for this opportunity to review how NOAA 
Fisheries is conducting the tasks assigned it pursuant to the many 
international fisheries' treaties and conventions with which the United 
States is involved. The Bush Administration is committed to working 
with our state and Federal partners for the effective management of our 
Nation's fisheries resources. This concludes my testimony, Mr. 
Chairman. I am prepared to respond to any questions Members of the 
Committee may have.

    The Chairman. Thank you, Dr. Lent. Mr. Turner, welcome.

          STATEMENT OF HON. JOHN F. TURNER, ASSISTANT

         SECRETARY, BUREAU OF OCEANS AND INTERNATIONAL

             ENVIRONMENTAL AND SCIENTIFIC AFFAIRS,

                      DEPARTMENT OF STATE

    Mr. Turner. Mr. Chairman, good morning, and Senator 
Stevens, Senator Lautenberg. Indeed, it's a pleasure for me to 
join my colleagues, Dr. Lent and Admiral Collins, to address 
this most important issue of international fisheries, and I 
have a written statement which I'd like to submit to the 
record.
    Mr. Chairman, indeed, as you have noted, a lot of attention 
recently has now focused on oceans and marine resources, and 
rightfully so. Obviously, many of the world's most valuable 
fish stocks are in bad shape.
    As you also noted, Mr. Chairman, overfishing is a major 
problem, and is a closely related problem of fishing 
overcapacity. There are simply too many boats chasing too few 
fish. Modern fishing technologies further increase this 
capacity by making it easier to locate, track, and kill fish. 
Some Government subsidies to the fisheries sectors also 
contribute to this problem of overcapacity. The very nature of 
ocean fishing, particularly fishing on the high seas, makes 
fishing rules, where present, difficult to enforce.
    The need to combat IUU fishing has risen to the forefront 
of the challenges we face and, of course, paramount around the 
world we must also reverse the serious degradation of marine 
habitats of sport fish and marine life.
    Mr. Chairman, I think we are making some progress. Some 
significant accomplishments have been done during the last 
couple of years to build a foundation of promise for the 
future. Recent international agreements seek to respond to 
these problems. The U.N. Fish Stocks Agreement and the FAO High 
Seas Compliance Agreement, both of which are now in force, 
contain groundbreaking provisions on the responsibility of flag 
states to control the fishing activities of their vessels.
    Two FAO international plans of action on fishing capacity 
and IUU fishing provide additional tools. Two others are in the 
works to address the important issue of bycatch mortality and 
shark conservation. The upcoming trade round also has a mandate 
to impose greater discipline on subsidies that contribute to 
overfishing.
    Although the situation we face is indeed global in nature, 
most international fisheries are managed on a regional basis. 
I'd like to just briefly touch on a couple of regions. First is 
the issues with Canada and the Pacific Northwest, and a 
resource I know important to the constituents of Senator 
Stevens, and second, the tuna fisheries in the vast Western and 
Central Pacific.
    I'm pleased to report that relationships with Canada over 
fishery issues in the Pacific Northwest, including Alaska, are 
better than they have been in almost two decades. The Pacific 
Salmon Agreement resolved longstanding issues between the two 
sides, and has allowed the Pacific Salmon Commission to 
function effectively once again. We also have included three 
other bilateral fishery agreements with Canada, which I'd like 
to note.
    First is the agreement to manage the salmon fisheries on 
the Yukon River. However, there is ongoing need for 
authorization and appropriation of funds to implement this 
agreement. Second, the U.S. and Canada have agreed to amend the 
1981 Albacore Tuna Treaty to limit the level of fishing 
permitted by vessels of each country in their mutual waters. We 
hope that the Senate will act favorably on the treaty amendment 
and that Congress will enact implementing legislation.
    Third, we have recently concluded negotiations with Canada 
on a new agreement to manage and share the valuable 
transboundary stock, Pacific whiting, also known as Pacific 
hake. This agreement, once it enters into force, should prevent 
overfishing of this stock. Again, we look forward to working 
with Congress to develop the implementing legislation.
    Concerning, briefly, the Pacific tuna fisheries, I would 
note two positive developments. In 2000, the United States and 
18 other nations signed a new treaty to manage tuna and other 
highly migratory species in the Western Central Pacific, an 
area that produces more than half the world's tuna catch, and a 
major area until now not covered by a management agreement. 
Once the treaty is submitted to the Senate for advice and 
consent, we will work with Congress again on implementing 
legislation.
    Second, we have reached agreement with the Pacific Island 
parties to extend the South Pacific Tuna Treaty. This is the 
successful existing treaty that allows U.S. vessels to fish for 
tuna in the waters of 16 Pacific Island nations. We have 
submitted the treaty amendments to the Senate.
    I'm proud of the progress and the leadership role the 
United States has played in many of these successes. It 
demonstrates that concerted international and regional action 
can help address the problems we are facing.
    Let me suggest some next steps we all need to pursue in the 
future. First, as the Admiral pointed out, the international 
community must make sure that the commitments contained in 
recent fishery agreements are implemented. Specifically, we 
must continually press our international partners to join us in 
rebuilding depleted fish stocks, reduce fishing capacity, 
conduct more fisheries science, and follow the advice of that 
science, move ahead toward an ecosystem-based management, 
reduce the sources of land-based pollution and reef 
degradation, and develop fishing gear and techniques that 
reduce bycatch further and produce fewer adverse effects.
    Second, we must complete the task of creating new 
management regimes to oversee international fisheries that have 
until recently been largely unregulated.
    Third, we must expand the use of new tools for enforcing 
fishing rules and cracking down on illegal fishing.
    Finally, we must all work together to build the capacity of 
developing nations to help them manage fisheries in waters 
under their jurisdiction. Roughly 90 percent of the fish caught 
in oceans are taking from waters within the jurisdiction of 
coastal states, particularly developing coastal states. Because 
many valuable fish stocks migrate widely, it is manifestly in 
our own interests to help these developing countries better 
manage these stocks and their waters. Again, Mr. Chairman and 
Committee Members, thank you for this opportunity to appear 
before you, and I, too, look forward to trying to answer any of 
your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Turner follows:]

Prepared Statement of Hon. John F. Turner, Assistant Secretary, Bureau 
   of Oceans and International Environmental and Scientific Affairs, 
                          Department of State
    Mr. Chairman and Members of the Committee:

    Your invitation to testify before this Committee today on the U.S. 
role in international fisheries could not be more timely. The state of 
the world's oceans in general, and its fish stocks in particular, has 
recently received a great deal of attention. We are also looking 
forward to the report of the Commission on Ocean Policy later this 
year, which will undoubtedly contain a broad range of recommendations 
for action that will warrant serious consideration by the 
Administration and Congress.
    I welcome this attention, for it affords us an opportunity to raise 
awareness of the issues we have been confronting, of the progress we 
have made, and of the daunting challenges that still face us.
    My statement today begins with a brief overview of the general 
situation as we see it and then reviews a number of more specific 
issues, with a particular focus on those for which the Administration 
believes congressional action is necessary or desirable. In some cases, 
the testimony of other witnesses on this panel will elaborate on these 
specific issues. My statement closes with some thoughts on next steps 
that we must take.

Overview
    In 2002, the Food and Agriculture Organization of the United 
Nations (FAO) reported that global production from capture fisheries 
and aquaculture is currently the highest on record. Worldwide, the 
tonnage of fish caught in the oceans and inland areas has remained 
relatively stable in recent years, while the tonnage of fish produced 
by aquaculture has continued to increase markedly. International trade 
in fish products has also risen tremendously.
    These trends mask a number of very serious problems, however. Many 
of the world's primary fishery resources are under stress. A number of 
key fish stocks have collapsed from overfishing and environmental 
degradation (such as cod in the Northwest Atlantic), while others have 
become depleted (such as Atlantic bluefin tuna). While stocks in the 
Pacific Ocean are generally thought to be in somewhat better shape, 
increasing fishing effort on a number of those stocks gives us reason 
to be concerned.
    In 2002, FAO estimated that, among the major marine fish stocks or 
groups of stocks for which information is available, about 47 percent 
are fully exploited, while another 18 percent are overexploited. An 
additional 10 percent of such stocks have been depleted or are 
recovering from depletion. In short, there are relatively few major 
fisheries that can absorb additional fishing effort. Meanwhile, we see 
a growing demand for fisheries products and many vessels looking for 
new places to fish.
    Many factors have contributed to this situation. Most international 
management of fisheries relies upon ``open access'' approaches that can 
create incentives toward overfishing. Moreover, improvements in fishing 
technology, coupled with substantial government subsidies to fishers, 
have greatly increased harvesting capacity worldwide. To make matters 
worse, environmental degradation has spoiled some fish habitat. The 
ability of vessels to operate outside governmental controls, including 
by adopting ``flags of convenience,'' has rendered fisheries 
enforcement less than effective in many circumstances. The use of 
certain kinds of fishing gear and fishing techniques has also led to 
serious concerns about the ``bycatch'' of other species (including some 
endangered species) and harm to the marine environment.
    Fortunately for the fish, and for the fishers whose livelihoods 
depend on them, we have worked to create a network of agreements 
designed to address these critical problems. The United States can take 
great pride in our leadership in this field, as we often played the 
role of drafters and brokers for these international agreements. 
Congress has also provided leadership in this field, including through 
Senate advice and consent to the ratification of international 
fisheries treaties and enactment of relevant legislation.
    Building on the general international law framework set forth in 
the 1982 United Nations Convention on the Law of the Sea, the past 
decade has witnessed a veritable explosion of new agreements and 
standards for the conservation and management of fisheries worldwide. 
Some of the important instruments are:

  <bullet> The 1995 UN Fish Stocks Agreement

  <bullet> The 1993 FAO Compliance Agreement

  <bullet> The 1995 FAO Code of Conduct for Responsible Fisheries

  <bullet> Four FAO International Plans of Action on specific matters

  <bullet> The 1996 Inter-American Sea Turtle Convention

  <bullet> The 1999 Agreement on the International Dolphin Conservation 
        Program

  <bullet> The 2000 Central and Western Pacific Tuna Convention (not 
        yet in force)

    Our challenge now is to ensure effective implementation of the full 
range of these instruments. Working with Congress, U.S. constituent 
groups and our partners in the international community, we hope to 
realize the goal of sustainable fisheries worldwide.

Global Issues
    Fisheries around the world are extraordinarily diverse. The species 
sought, the gear and techniques employed and the markets served all 
vary widely. Still, a number of common problems plague many fisheries. 
Worldwide, we are experiencing significant overcapacity of fishing 
fleets--there are simply too many boats chasing too few fish. Excess 
fishing capacity creates pressure toward overfishing. Certain 
government subsidies to the fisheries sector exacerbate this problem of 
overcapacity, by allowing otherwise unprofitable vessels to remain 
engaged in fishing activity.
    The very nature of ocean fishing, particularly fishing on the high 
seas, makes it difficult to enforce fishing rules. With the downturn in 
many valuable fisheries, the rules have become stricter, while the 
incentive to evade the rules has grown. The need to combat ``illegal, 
unreported and unregulated'' fishing--also known as IUU fishing--has 
risen to the forefront of challenges facing the international community 
in this field.
    Many of the agreements I mentioned earlier seek to respond to these 
common, pressing problems. The UN Fish Stocks Agreement and the FAO 
Compliance Agreement, both of which are now in force, contain ground-
breaking provisions on the responsibilities of flag States to control 
the fishing activities of their vessels. Two of the FAO International 
Plans of Action--on fishing capacity and IUU fishing--have provided new 
tools for addressing these concerns. The upcoming Trade Round also has 
a mandate to impose greater disciplines on subsidies that contribute to 
overfishing.
    Let me reiterate that these agreements might not exist, or would 
not be as strong, without U.S. leadership in this field. The United 
States was among the first to ratify the UN Fish Stocks Agreement and 
the FAO Compliance Agreement. Our concerted diplomatic campaign to urge 
other nations to ratify these treaties has succeeded in bringing them 
into force. We can also take credit for our many contributions to the 
FAO International Plans of Action and the other instruments now in 
place to pursue sustainable fisheries.

Regional Issues
Regional Fishery Management Organizations
    Much of the specific management of international fisheries is 
accomplished through regional fisheries management organizations. The 
United States is a member of more than a dozen such commissions and 
related organizations. These organizations adopt measures to conserve 
and manage fisheries under their auspices, conduct related scientific 
research and provide venues for undertaking new policy initiatives in 
the field of marine conservation.
    Funding to support U.S. participation in these organizations comes 
from appropriations to the International Fisheries Commissions account. 
Specifically, this account covers the U.S. share of operating expenses 
of nine international fisheries commissions and organizations, one sea 
turtle convention, the International Whaling Commission, two 
international marine science organizations, and travel and other 
expenses for non-Federal U.S. Commissioners.
    In recent years, Congress has appropriated roughly $20 million for 
this account annually. For FY 2003, the Bush Administration requested 
$19.78 million. Congress appropriated $17.1 million. In the Conference 
Statement accompanying the FY 2003 Omnibus Appropriations Bill, no 
funding was allocated for the operating expenses of the Pacific Salmon 
Commission and five other commissions. The Administration has submitted 
a notice to Congress on reprogramming funds within the International 
Fisheries Commission. The reprogramming will allow for the smallest 
feasible amount of funding so the Pacific Salmon Commission may 
continue operations and full funding of the smaller commissions. The 
Great Lakes Fisheries Commission and the International Pacific Halibut 
Commission will both be taking reductions in order to have all fish 
commissions in this account operating this fiscal year.
    For FY 2004, the Bush Administration's budget request for 
International Fisheries Commissions amounts to $20.04 million, which 
includes $75 thousand for the Antarctic Treaty. We hope that Congress 
will appropriate the full amount.
    International Commission for the Conservation of Atlantic Tunas 
(ICCAT). This commission manages tunas (and tuna-like species, such as 
swordfish) in the Atlantic Ocean. Key conservation issues facing ICCAT 
include maintenance of rebuilding programs for North Atlantic 
swordfish, pressing for greater compliance with ICCAT rules, cracking 
down further on ``IUU'' fishing of ICCAT species, reviewing ICCAT's 
practice of managing eastern and western bluefin tuna as separate 
stocks, and pressing for measures to conserve sea turtles and sharks 
incidentally captured in these fisheries. Recent attention has been 
focused on the EU's activities in ICCAT, and in fact a coalition of 
environmental groups and several state governors submitted a request to 
certify the EU under the Pelly Amendment to the Fishermen's Protective 
Act of 1967 for diminishing the effectiveness of ICCAT. We are working 
closely with the Department of Commerce on this issue.
    Northwest Atlantic Fisheries Organization (NAFO). This Commission 
manages a wide variety of fisheries on the high seas of the northwest 
Atlantic Ocean, many of which remain seriously depleted. Some stocks, 
however, are rebounding after years of sharply restricted fishing, 
including yellowtail flounder. U.S. priorities in NAFO include seeking 
greater access for U.S. vessels to such recovering stocks and modifying 
the NAFO system for allocating quotas more generally. The United States 
has taken an active role in NAFO and held many positions of leadership 
in the organization; however, we are considering the proper balance 
between our level of participation in NAFO and the benefits we accrue 
there. The Department of Commerce witness will also address this issue 
in more detail.
    Western and Central Pacific Fisheries Commission (WCPFC). 
Negotiations to establish a Western and Central Pacific Fisheries 
Commission concluded in September 2000. Throughout the negotiating 
process, the United States was a leader in developing the key 
provisions of this Convention and in bringing other nations together to 
accept a strong and balanced text. The United States and 18 other 
States have signed the Convention that will create the WCPFC, but it 
has not yet entered into force. The area covered by this Convention 
encompasses the last major area of the world's oceans not covered by a 
regional management regime for tunas and other highly migratory 
species. This region produces more than half the world's annual tuna 
catch. The United States is actively participating in the WCPFC 
Preparatory Process.
    One key issue that we hope to see addressed under this new 
Convention is that of excess fishing capacity--too many vessels 
catching too many fish. While the stocks of tuna in the Western and 
Central Pacific are not currently considered to be over-fished, excess 
capacity complicates adoption and implementation of effective 
conservation and management measures and has significant implications 
for the economic viability of these fisheries in the longer term.
    This Convention, which enjoys strong support from the tuna industry 
and conservation organizations, will require Senate advice and consent 
to ratification. New legislation to implement the Convention will also 
be necessary before the United States could become a party to it. We 
look forward to working with the Committee on such legislation.
    Commission for the Conservation of Antarctic Marine Living 
Resources (CCAMLR). The 24-member Commission for the Conservation of 
Antarctic Marine Living Resources governs the harvesting of marine 
resources in the Southern Ocean. Concern has grown over the illegal 
harvesting of Patagonian toothfish, a high-value, long-lived fish 
species marketed in the U.S. as Chilean sea bass. CCAMLR designed an 
innovative catch documentation system in 2000 and, at its last meeting 
in November, adopted changes to distinguish better between legal and 
illegal catches and is instituting a list of fishing vessels which have 
engaged in IUU fishing. CCAMLR also is moving towards an Internet-based 
document and tracking system to reduce the possibilities for fraud.
    Other Commissions. The United States participates in a number of 
other international fisheries commissions as well. Two of them, the 
International Pacific Halibut Commission and the Great Lakes Fishery 
Commission, involve Canada as the only other member. Two others, the 
North Atlantic Salmon Conservation Organization and the North Pacific 
Anadromous Fish Commission, have missions to conserve salmon stocks in 
their respective regions, including by ensuring that such stocks are 
not fished on the high seas. Finally, we are a longtime member of the 
Inter-American Tropical Tuna Commission, which regulates tuna fishing 
in the Eastern Pacific and is involved with our efforts to protect 
dolphin stocks in that region, as discussed below.

Bilateral Issues with Canada
    Relations with Canada over fishery issues are better than they have 
been in many years. The 1999 Pacific Salmon Agreement appears to have 
resolved long-standing problems and has allowed the Pacific Salmon 
Commission to function effectively once again. The agreements on Yukon 
River salmon, on the amendments to the 1981 Albacore Treaty and on 
managing the transboundary Pacific whiting stock, described below, are 
noteworthy achievements as well.
    The 1981 U.S.-Canada Albacore Treaty allows vessels of each country 
to fish for albacore, without limitation, in waters of the other 
country. In 2002, the United States and Canada agreed to amend the 
Treaty to provide for limits on such fishing. Such changes are 
necessary to limit a recently fast-growing Canadian fishery in U.S. 
waters and also to permit future management of the stock by both sides. 
President Bush transmitted the amendment to the Treaty to the Senate in 
January 2003 and we are hopeful that the Senate will act favorably on 
this matter in the near future. In addition, we need legislation to 
implement the Treaty, both in its existing form and as revised. Such 
legislation was introduced in the 107th Congress (H.R. 1989). The 
Senate passed this legislation in November 2002, but the House did not 
take action on the bill before final adjournment. The legislation was 
included in the Magnuson bill just transmitted to Congress, and we hope 
that Congress will pass the legislation in the very near future.
    Most recently, U.S. and Canadian delegations have reached consensus 
on the text of an agreement to manage and share the valuable 
transboundary stock of Pacific whiting, also known as Pacific hake. 
Disagreements over sharing arrangements have led to overfishing in the 
past, as the United States took 80 percent of the allowable harvest, 
while Canada took more than 30 percent. This agreement, once it enters 
into force, should remedy that problem effectively. We look forward to 
working with Congress in developing implementing legislation for this 
agreement.
    The United States and Canada reached agreement on a management 
regime for salmon fisheries on the Yukon River in Alaska and the Yukon 
Territory in March 2001. U.S. and Canadian officials concluded the 
agreement through an exchange of notes in December 2002. As this is an 
executive agreement, it did not require Senate advice and consent to 
ratification, nor was any additional legislation needed to implement to 
agreement. However, there is an on-going need for the authorization and 
appropriation of funds to implement the Agreement, including for the 
Restoration and Enhancement Fund established under the Agreement.
    Finally, I would note that we are exploring ways to gain greater 
access for U.S. vessels to ports in Atlantic Canada. We are also 
engaged in efforts to resolve a dispute over lobster fishing in waters 
around Machias Seal Island off the coast of Maine.

South Pacific Tuna Access Agreement
    This Treaty, which allows U.S. vessels to fish for tuna in the 
waters of 16 Pacific Island States, entered into force in 1988 and was 
amended and extended in 1993 for a ten-year period, through June 14 of 
this year. In 2002, the United States and the Pacific Island Parties 
concluded negotiations to extend the operation of this Treaty for an 
additional ten-year period, through June 14, 2013. The amendments to 
the Treaty and its Annexes will, among other things, enable use of new 
technologies for enforcement, streamline the way amendments to the 
Annexes are agreed, and modify the waters that are open and closed 
under the Treaty. President Bush submitted the amendments to the Treaty 
to the Senate for advice and consent in February 2003. Minor amendments 
to Section 6 of the South Pacific Tuna Act of 1988, Public Law 100-330, 
will be necessary to take account of the Amendment to paragraph 2 of 
Article 3, ``Access to the Treaty Area,'' which permits U.S. longline 
vessels to fish on the high seas of the Treaty Area.
    The Treaty provides considerable economic benefit to all parties, 
with the value of landed tuna contributing between $250 and $400 
million annually to the U.S. economy. Nearly all of this fish is landed 
in American Samoa and processed in two canneries located there, one of 
which is owned by U.S. interests. These canneries provide more than 80 
percent of private sector employment in that territory.

Bilateral Issues with Russia
    Relations with the Russian Federation over fisheries issues in the 
North Pacific Ocean and Bering Sea are contentious. The failure of 
Russia to ratify the 1990 Maritime Boundary Treaty continues to create 
uncertainty, while corruption and lack of government resources have led 
to serious overfishing in Russian waters. A large-scale overhaul by the 
Government of the Russian Federation of its bureaucratic structure for 
managing fisheries is at present complicating efforts to address these 
matters. We are nevertheless actively looking for new ways to cooperate 
with Russia to improve this situation, including through the 
development of two new agreements, one on cooperation in marine science 
and the other on fisheries enforcement.

Ecosystem Issues
    We see a growing consensus in the international community that 
fisheries cannot be managed effectively by dealing with fish stocks in 
clinical isolation from the ecosystems in which they live. To be 
effective, fisheries managers must take into account such things as the 
relationships between target fish stocks and associated or dependent 
species, the effects of fishing practices on the marine environment, 
and non-fishing factors that affect the health and biomass of fish 
stocks.
    The modern international norms of fisheries management certainly 
reflect the need for ``ecosystem-based'' fisheries management. The 1995 
UN Fish Stocks Agreement, for example, calls upon States to

        minimize pollution, waste, discards, catch by lose or abandoned 
        gear, catch of non-target species, both fish and non-fish 
        species, . . . and impacts on associated or dependent species, 
        in particular endangered species, through measures including. . 
        .the development and use of selective, environmentally safe and 
        cost-effective fishing gear and techniques.

    The United States, through the combined efforts and Congress and 
the Executive Branch, has made progress in addressing these issues at 
the international level, but the work has, in many ways, only just 
begun. I would like to touch briefly on two well-known issues related 
to ``bycatch'' of non-target species: (1) efforts reduce sea turtle 
mortality in fishing operations and (2) efforts to reduce dolphin 
mortality in the purse seine fishery of the Eastern Pacific Ocean.
    Sea turtles. Section 609 of Public Law 101-162 prohibits the 
importation of shrimp and products of shrimp harvested in a manner that 
may adversely affect sea turtle species. By May 1 of each year, the 
Department certifies to Congress those nations meeting criteria set 
forth in the statute relating to the protection of sea turtles in the 
course of shrimp trawl fishing. In 2003, we certified 39 nations and 
one economy (Hong Kong) as meeting the requirements of Section 609. 
Haiti did not meet certification requirements for 2002 and Indonesia 
remained uncertified from the previous year. Earlier in 2003, we 
removed Honduras and Venezuela from the list of certified countries.
    The United States is a leading participant in two groundbreaking 
international agreements to protect sea turtles, one in the Americas 
and another in the Indian Ocean region. Although both regimes are just 
getting off the ground, they hold considerable promise for reversing 
the declines of these endangered species. The Department of State leads 
the U.S. delegation to meetings held pursuant to these agreements. 
Congress has supported these agreements through the appropriations 
process.
    We are also working with NOAA Fisheries and the international 
community in a variety of fora to address the specific problem of the 
bycatch of sea turtles in longline fisheries. In 2002, the Department 
participated in the Second International Fishers' Forum, hosted by the 
Western Pacific Fisheries Management Council in Hawaii. The Department 
also helped sponsor and participated in the International Technical 
Expert Workshop on Marine Turtle Bycatch in Longline Fisheries in 
February 2003 in Seattle. In February 2003, we secured a commitment of 
FAO to convene an international technical consultation among members of 
FAO on the bycatch of sea turtles in longline and other commercial 
fisheries. The Department views this as the next step in a global 
campaign to seek solutions to this serious problem. In advance of that 
meeting, however, we are considering ways to work within some regional 
fisheries management organizations, such as the Inter-American Tropical 
Tuna Commission (IATTC), to provide input from those organizations into 
that process.
    Tuna/dolphin. Following enactment of the 1997 International Dolphin 
Conservation Program Act, the United States and other countries whose 
vessels participate in the purse seine tuna fishery of the Eastern 
Pacific Ocean entered into negotiations to create an effective, binding 
agreement to protect dolphins from harm in this fishery. The resulting 
1999 Agreement, which built on an earlier voluntary regime, has been a 
solid success, bringing observed dolphin mortalities down to extremely 
low levels through the use of proper incentives for vessel captains and 
a strong oversight program that includes mechanisms for transparency 
otherwise unknown in the field of international fisheries. Under the 
resulting 1999 Agreement and the earlier voluntary regime, dolphin 
mortalities have been reduced more than 98 percent from as recently as 
1987.
    We are aware of concerns regarding the level of compliance with 
this Agreement by some fishing countries. While the level of reported 
infractions represents a small percentage of overall activity under the 
Agreement, the Departments of State and Commerce are working with the 
other participants in the International Dolphin Conservation Program to 
address these concerns and to ensure that compliance with the Agreement 
is at the highest possible level. It should be noted, however, that the 
other countries whose vessels operate in this fishery entered into the 
1999 Agreement with the expectation that the United States would adopt 
a new definition of ``dolphin-safe'' tuna. However, the International 
Dolphin Conservation Program Act made such a change in definition 
contingent on the outcome of certain studies and a finding by the 
Secretary of Commerce, a matter that remains in litigation.

Some Next Steps
    Mr. Chairman, the Bush Administration continues to provide strong 
international leadership in pushing for global action to achieve 
sustainable fisheries. But the United States cannot do this alone. Our 
success will depend in large measure on our ability to harness and 
direct the energies of the international community toward a number of 
critical goals.
    First, the international community must do more than pay lip 
service to applying a greater conservation ethic to the regulation of 
ocean fisheries. The commitments contained in recent fisheries 
agreements are the right commitments, but they cannot remain mere words 
on paper. Similarly, we must give effect to the commitments in this 
field made at the World Summit for Sustainable Development, 
particularly to rebuild depleted fish stocks on an urgent basis. The 
nations of the world must reduce fishing capacity in an effort to 
reduce pressure for overfishing. We must also devote more effort to the 
conduct of marine scientific research related to fisheries and must 
follow scientific advice consistently. Governments, both individually 
and through their participation in regional fisheries management 
organizations, must continue moving towards ``ecosystem-based'' 
fisheries management as well. In particular, we must do more to develop 
fishing gear and techniques that reduce bycatch further and produce 
fewer adverse effects on the marine environment. One critical need in 
this respect is to find ways to reduce the bycatch of endangered sea 
turtles in longline fisheries worldwide.
    Second, we must complete the task of creating new management 
regimes to oversee important international fisheries that have, until 
recently, been largely unregulated. One prime example is for the tuna 
fisheries in the Central and Western Pacific, in which the Bush 
Administration is exercising a leadership role, as I mentioned earlier. 
The United States actively helped fashion a new regime to manage 
fisheries in the Southeast Atlantic Ocean, even though we do not have 
vessels fishing in that region at this time, in order to make that 
regime as strong as possible. We are also nearing the completion of an 
effort to overhaul the treaty creating the Inter-American Tropical Tuna 
Commission, which will allow that body to operate in conformity with 
modern norms of fishery conservation and management. We must use these 
new and improved regimes to press forward on an aggressive agenda to 
achieve sustainable fisheries in these respective regions.
    Third, we must expand the use of the new tools for enforcing 
fishing rules, many of which are showing promise. Fisheries enforcement 
officials from various governments are coordinating their activities in 
real-time as never before, including through an informal Network that 
the United States and Chile helped to launch. We are seeing 
improvements in the area of monitoring, control and surveillance of 
fishing vessels, including through the use of independent observers and 
satellite-based vessel monitoring systems. While IUU fishing remains a 
very serious problem, we have succeeded in raising the profile of this 
issue and in putting pressure on governments to curb this practice. The 
Bush Administration has just issued a National Plan of Action on IUU 
Fishing, which contains many useful recommendations. This Action Plan 
will build on steps being taken in a variety of regional fisheries 
management organizations, including documentation schemes to reduce 
trade in illegally harvested fish, as well as controls on the landing 
and transshipment of fish in port. The international community also 
appears to be reconsidering the notion of exclusive flag-State 
jurisdiction over fishing vessels on the high seas, as a growing number 
of agreements allow other States to take certain enforcement actions 
against such vessels.
    Finally, we must build help developing countries build their own 
capacity to manage fisheries in waters under their jurisdiction more 
effectively. Roughly 90 percent of fish caught in the oceans are taken 
from waters within the jurisdiction of coastal States, particularly 
developing coastal States. Because many valuable fish stocks migrate 
widely, it is manifestly in our own interest to help these developing 
countries better manage those stocks in their own waters, particularly 
to control rampant illegal fishing that too often takes place.
    We certainly have much work to do if we are to reestablish 
sustainable fisheries worldwide. There is no hiding the fact that the 
situation facing many fisheries remains bleak. In short, we must ensure 
that the impressive collection of international agreements we have 
negotiated in the past decade do not remain mere words on paper. We 
must continue our efforts to turn those words into concrete actions if 
the situation facing international fisheries is to improve.

Conclusion
    Thank you very much for this opportunity to address the Committee. 
I would be pleased to try to answer any questions that you may have.

    The Chairman. Thank you very much, Mr. Turner. I don't 
claim to be an expert on this issue, but it seems to me that 
there's good news and bad news here. In the United States' 
coastal waters around the Pacific Northwest, there is a steady 
but incremental increase in the numbers of fish and our ability 
to harvest and not deplete them. Do you agree or disagree with 
that statement? Admiral.
    Admiral Collins. I'll probably defer to the scientists, Mr. 
Chairman, but clearly the most robust fisheries left on the 
planet are in and around our EEZs and Alaska, the pollack, 
salmon, and tuna fisheries that----
    The Chairman. We have a sustainable growth program in these 
areas. Would you agree with that statement, Mr. Turner?
    Mr. Turner. Mr. Chairman, I think we still have a lot of 
work to do, but the U.S. among all fishing nations has tried to 
reduce the capacity of their fleets, has tried to embark on 
good management and good enforcement, and many of the 
progresses that I mentioned, I am convinced personally would 
not have happened without U.S. leadership on the world scene.
    The Chairman. But I'm just talking about the fishing areas 
around the United States. Do you agree, Dr. Lent? I didn't know 
this question was going to be that hard.
    [Laughter.]
    Dr. Lent. Yes, Senator, we agree. We have limited entry in 
virtually all of our fisheries in the United States. Where we 
have overfishing occurring we are addressing that with 
rebuilding plans. We've seen clear progress in New England, 150 
percent increase.
    The Chairman. Now, the bad news is that apparently 
worldwide, according to numerous studies, there are very 
serious problems that are causing a significant depletion, and 
even endangerment of certain species of fish. Do you agree with 
that statement, Dr. Lent?
    Dr. Lent. Yes, Senator.
    The Chairman. Do you agree with that statement?
    Mr. Turner. Yes, Mr. Chairman.
    The Chairman. And according to a recent study, and a number 
of experts in the panel of witnesses that will follow you, the 
reason why we've been able to maintain the level of catch is 
that the fishing boats--they're no longer boats--have ranged 
further and further, as you alluded to in your statement, Dr. 
Lent, and with the improved capabilities for harvesting fish. 
Is that correct?
    Dr. Lent. That's correct. The technology advancements have 
been spectacular.
    The Chairman. Mr. Turner.
    Mr. Turner. Yes, sir. I agree, Mr. Chairman.
    The Chairman. Let me ask this, I'm sure you had the 
opportunity of reading the recent study which has stirred up so 
much, perhaps not controversy, but certainly attention to the 
issue. What are your views--and Admiral, I'll leave you out of 
this. What are your views, Dr. Lent and Mr. Turner, on that 
study, a very important contribution, you have some 
disagreements with it--just give me your general overall 
impression.
    Dr. Lent. Thank you, yes, very quickly, we welcome the 
increased attention that this article and these types of things 
bring for all Americans on the challenges of fishery management 
and fishery science, and we all agree that fishing has an 
impact on the resource, that we need to increase management. We 
also appreciate the fact that this problem tends to be more of 
an international problem than one domestically.
    Where we disagree, and where we have debate that we want to 
see ongoing with the Nature article is the degree to which the 
fish stocks have actually been fished down. We actually want to 
be about 50 percent of the original stock size for really 
maximum, optimum sustainable yield.
    The Chairman. Did I understand you to say 50 percent?
    Dr. Lent. That's correct.
    The Chairman. Depletion.
    Dr. Lent. That's correct.
    The Chairman. As opposed to 70 or 90 percent?
    Dr. Lent. This is a rough estimate. When you're fishing a 
stock to the point where you want maximum sustainable yield, in 
most cases you're about 50 percent, and I believe the authors 
would agree with that.
    The important thing is that if that goal moves, if we have 
new data that show us that in fact we can go higher, that's 
great. It happened in New England, we've adjusted our 
rebuilding plans, we're still growing. If the goal moves, we'll 
move to that greater goal. It's a good sign. It means we can 
actually get more fishing, more jobs, and more income, and more 
food out of these stocks.
    The Chairman. So you are in agreement with the study, with 
some questioning about the percentages?
    Dr. Lent. That's correct, Senator, in specific cases, and 
we do have our scientists looking at it, and they are 
communicating with the authors.
    The Chairman. Mr. Turner.
    Mr. Turner. Mr. Chairman, again I think the attention this 
year from the Nature report, the Pew Commission, we'll look 
forward to Admiral Watkins' report this fall, and many have 
certainly raised the attention appropriately.
    I think, though I am no marine fisheries scientist, I think 
where the debate is happening on some of the findings of, say, 
the Nature article are a question on some of the base 
inventories, going back to the fifties, whether the earliest 
data on what the base was, and I think there will be a robust 
discussion of some of those numbers, but the overall finding 
that fish stock are in trouble I think is certainly legitimate 
and a welcome finding.
    The Chairman. Isn't the experience we had with the cod, 
isn't that some kind of a warning sign of what could happen to 
other species of fish which are perhaps less identifiable, like 
the tuna and others that we could reach a crisis point pretty 
quickly? Mr. Turner.
    Mr. Turner. Oh, I think definitely so. There are some 
successes out there. I think the Alaska fishery is in pretty 
good shape. Pacific tuna seem in reasonably good shape. Thanks 
to the management scheme we are at least cautiously optimistic. 
Atlantic swordfish may be rebounding some, and the same with 
yellowtail flounder, so there are some positives out there, but 
the cod, the crash of that resource should be a reminder to all 
of us how fragile and how quickly you can take down what was 
once thought a boundless resource.
    The Chairman. Well, it seems to me that if, in line with my 
first questions to you, that if, within the United States and 
the areas that we have specific control over we're doing pretty 
well, we could do a lot better, but we're certainly not in an 
emergency situation, as some allege in other parts of the 
oceans of the world, then it seems to me our challenge is to 
pursue international enforceable agreements. Have we done 
anything more in that area, Dr. Lent and Mr. Turner?
    Dr. Lent. Mr. Chairman, as we point out in our testimony, 
we have made a lot of progress. We have new agreements that are 
recently negotiated. We've got virtually all of the oceans 
covered. The one area that's missing is the seamounts issue, 
because even though we've got the oceans covered with regional 
fishery management organizations, those are mostly for 
pelagics, the tunas and the swordfish and the billfish, so we 
have a couple of meetings coming up this year focusing on the 
seamount fisheries. We'll need to look at that. Again, room for 
progress in all of these agreements.
    The first step is get an agreement and get management 
recommendations, enforce them, get compliance. I think we're 
making progress.
    The Chairman. Well, I hope that the Commission, headed by 
Admiral Watkins, might come up with some specific 
recommendations for a framework to get additional international 
agreements.
    Life is anecdotal, but I hear from everywhere that fishing 
is not what it once was. Don't you hear the same thing, 
Admiral?
    Admiral Collins. Yes, sir, but it depends where you are and 
what fish stock you're talking about, Mr. Chairman. I think 
there are a couple of models out there that are shining 
examples of how we can be effective. Senator Stevens mentioned 
high seas driftnet and the challenge. I think that's a model of 
success, because it involves those four ingredients that I 
talked about.
    If you go through that issue and you can see that we have 
been aggressive on all four of those categories, for example, 
we have a North Pacific Anadromous Fish Commission that has 
been very, very active between China and Japan, Russia, Canada, 
and ourselves. We've worked very, very closely, and it's the 
only regional fisheries management organization scheme that 
specifically addresses enforcement agency interoperability as 
part of the game plan.
    It calls for, like, an annual planning meeting. It talks 
about how we're going to deal with this operationally on an 
enforcement basis. We plan out surveillance aircraft hours. We 
plan out who's going to be the response vessel if we sight one 
of these things, and basically we've driven them out of 
business, and it will be through a very, very--use of 
technology, joint operations, a strong regulatory regime and 
presence, and we've been very, very, very successful there, so 
I think there are some best practices-type of experience that 
we can use and try to import to other places.
    The Chairman. Thank you.
    Senator Stevens.
    Senator Stevens. I really think that the problem that we've 
got is to look at the size of the boats and the management of 
the boats to try and see how we can find some means to bring 
about some internal discipline in the fleets. Admiral Collins, 
have you looked at the ownership and management of these boats 
from the point of view of the global economy? Isn't the control 
concentrating in about two or three different countries in the 
world over the total fleet that's out there, the big boats?
    Admiral Collins. Yes, sir. We haven't done an exhaustive 
study on that, but clearly, you know, the distant fishing 
nations in terms of the Pacific, which I'm most familiar with, 
the distant fishing nations in the world are clearly the big 
players. China, Taiwan, Korea and so forth have far reach and 
far impact and large fleets, and that's the challenge of the 
U.N. fish talks agreement and the western enforcement, is that 
we have noncontiguous EEZs to worry about, places like Palmyra 
and Johnston Island and Baker Island and so forth, spread all 
over the Pacific, 1.8 million square miles alone in those 
areas, and we've added through the fish stocks agreement 
responsibilities to enforce on the high seas, so that drives it 
up over 20 million square miles of area. It's a huge challenge, 
given the vastness and the far reach of some of these major 
fishing nations, many of which have not signed the fish stocks 
agreement.
    Senator Stevens. Well, the experience we've had in the 
North Pacific, where we've had violations, has been with rogue 
nations that come in with vessels that are not subject to any 
agreement, and your people have had to seize them and we've had 
to pursue them. It just seems to me that what we ought to do 
is, we ought to try to find some way to bring about an 
international registry of vessels and to put transponders on 
all of them with identification so we know where they are and 
who they are, and that we keep track of the landings, find some 
way to find out where this fish is being brought ashore, 
whether it's processed at sea or on shore.
    The difficulty is, as I think so many people think the 
fishing is being done by the coastal nations in their area. 
It's my feeling that the fleets of the world are so large now 
that many of them are registered in one country, operate in 
another, and have the profits going to another, and it's really 
difficult to get a hold of.
    Did you ever read that little book, Mr. Turner, on cod, how 
cod changed the world? It's a very short little book, but it 
really demonstrates how the British and others followed cod 
around the world, so it's not a new process, is what I'm 
saying. This has been going on for centuries. The difference is 
the efficiency of the vessels now, and the fact that they now 
can stay at sea forever.
    Mr. Chairman, when we first brought about the 200-mile 
limit, I'd taken a flight from Kodiak to the Pribilof Islands 
and encountered some 90 factory trawlers that were there year-
round, and they were not subject to our laws. They were not 
subject to any kind of conservation commitment. They were not 
subject to any kind of, really, protection for any species. One 
of them actually had a big grinder like a big garbage disposal 
in the center of the deck, and everything was pushed in there 
and ground up and made into fishmeal.
    The world has a 200-mile limit now, but most nations don't 
enforce it, do they?
    Mr. Turner. Senator, your observation on the size of boat 
relates to the capacity issue, and it's a vital one. Some of 
the things that are going on as we wrestle with that difficult 
one, the FAO is looking at a plan of action on the capacity 
question. We are working with, especially developing countries 
on what the protocol is and the tracking and the behavior of 
flags of convenience, where many of these flagging states need 
to do a better job of controlling and monitoring and enforcing 
good practices on the ships.
    Another issue is the subsidy issue, and the United States 
has tackled that directly with cooperation we're getting from 
USTR and the Department of Commerce through the WTO and others, 
and then some of the management regime are instigating new 
tracking mechanisms to track vessels that have a record of IUU, 
or fishing outside of boundaries or regulations, and I think 
that will improve, and then we need to help these developing 
countries.
    We have countries that depend on proteins for indigenous 
people and so forth, where big fishing fleets are covering up 
the names of their boats and going right in along shore and 
just mining the bottoms of these countries in violation of all 
international law. These developing countries quite often don't 
have the patrol boats or the capacity, so working with the 
Coast Guard and others, the FAO, we're trying to do training 
and capacity-building in developing countries that really get 
preyed upon by some of the big fishing fleets around the world. 
It's one of our focuses.
    Senator Stevens. I see my light's on, but I had in my 
office just the day before yesterday a group of people who are 
willing to put those transponders on any vessel at a cost of $3 
a day, but if you look at the number of vessels out there, the 
question is, who is going to pay it? It's going to be the 
United Nations, or it's going to be the U.S., and how do we 
really get to the concept of enforcement and reporting? Once we 
know where they are, of course we can start tracking them and 
comparison of the depletion of particular types of species, but 
it's going to be a monumental task. I look forward to working 
with all of you. I think it's a challenge for the United States 
to try and convince the world that the concept of overfishing 
has to be stopped. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Lautenberg.

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. This hearing is 
extremely opportune from a timing standpoint, because the news 
that we get about fishing stocks and the disappearance, or at 
least the endangerment of species is so evident, just from the 
front page news stories. Mr. Chairman, I want to put my full 
statement in the record.
    The Chairman. Without objection.
    Senator Lautenberg. But I would just like to extract a 
little bit from my statement that outlines the problem for me. 
When I look at the National Research Council figures suggesting 
the total biomass of fish and invertebrates harvested or killed 
each year probably exceeds 110 million tons a year, and we know 
that that figure exceeds what could be a maximum sustainable 
catch at 100 million tons a year. What puzzles me is that we're 
looking at a supply of nutrition and substance for so many 
people, and this is like someone eating a meal until your 
cheeks can't hold any more and then wondering how you're going 
to feed for the next day and the next week.
    I'm interested casually as a fisherman, as someone who goes 
to the sea a lot in a boat. I know that from the coast of New 
Jersey, which is in a key location for fishing activity, that 
the fishermen, the recreational fishermen have to go out 
further and further and further to bring back any fish, and so 
it is with the commercials as well. When I see the technology, 
and you see the ships that are being built for fishing at a 
cost that says that ship has to operate 24 hours a day in order 
to try and make a return on investment. What they do is, they 
come in, turn over crews, get rid of their load, and some of 
them load off into other factory-type ships and go back in and 
refresh the crew and go out again.
    These huge rigs are just raking the bottom. It's not 
skimming, it's raking. They take up just about everything that 
grows, and I wonder what we can do in terms of enforcing 
international agreements. I look at what happened with 
rockfish, or striped basses they're called, and they were in 
serious condition in terms of the numbers of fish, and their 
principal breeding place I guess is the Chesapeake, and we 
stopped the fishing. It was a good piece of legislation here. 
We stopped them from fishing the small size, and now there's an 
abundance of the fish.
    Bluefish, for instance, which were so plentiful it was hard 
not to catch them, are harder to find, and cod, halibut, blue 
marlin, I mean, these things that were here in such prolific 
quantities that you didn't have to have any skill to catch 
them, and you could bring them home for lunch, dinner, family, 
et cetera. So we're chasing the fish, and one doesn't have to 
be a rocket scientist or a marine biologist to understand that 
there are fewer fish. Senator Stevens, when the Japanese put 
out a 60-mile line, a longline, trailing behind fish, I mean, 
they're taking all kinds of stuff out of there. I don't know 
how many hooks, but there are thousands of hooks.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman, I thank you for convening today's hearing on Global 
Overfishing.
    Today in the United States there is growing concern over the effect 
of over-fishing on the ecological health of our oceans and the economic 
health of our coastal fishing communities. Globally, fishing is an 
especially important source of revenue and food in developing countries 
and, in fact, 65 percent of the world's catch in 1993 was from 
developing countries. In 1996 fisheries products directly provided 
about 14 kg of food for each person on the planet. Simply from an 
economic perspective, fishing is an economically important 
international industry, with first sale revenues of approximately $100 
U.S. billion per year for all fishery products according to the 
National Research Council.
    Mr. Chairman, we are seeing storm clouds on the horizon. Dr. Myers 
research suggests that we have only 10 percent of all large fish--both 
open ocean species such as tuna, swordfish, marlin, and the large 
ground fish such as cod, halibut, skates, and flounder left in the sea. 
Yet on May 13 of this year the National Marine Fisheries Service 
announced that North Atlantic Swordfish is no longer being overfished 
and swordfish stocks are almost fully rebuilt. Who is right?
    Mr. Chairman, the health of these stocks of large predatory fish 
has enormous ecological implications for marine species. We already 
know that removal of large predators from an ecosystem results in long 
term disturbances all across the board.
    There are other signs of trouble. In recent years global marine 
catches appear to have reached a plateau of about 84 million metric 
tons per year, although total fish production has increased because of 
new investments in aquaculture. National Research Council figures 
indicate that the total biomass of fish and invertebrates harvested or 
killed each year by ocean fishing probably exceeds 110 million tons per 
year. Mr. Chairman, this 110 million ton figure is extremely important 
because many scientific estimates of the long-term potential catch of 
marine species are at about 100 million tons per year. This suggests 
that the total mortality of marine species is at, or near, the maximum 
sustainable level. Our state of knowledge about these matters is not 
perfect, that is why the Sustainable Fisheries Act is based on 
precautionary principles. The question is. . .are we taking enough 
precautions to ensure the sustainable use of our ocean resources, or is 
it full-speed ahead into the dark!
    Mr. Chairman I look forward to hearing from the witnesses today to 
learn more about the global over-fishing problem and hear their 
recommendations for solutions to this global crisis.

    Senator Stevens. Will the Senator yield? They've got one 
double tow where they've got a net that long and two boats 
pulling it.
    Senator Lautenberg. Yes, and the catch is devastating, 
including the bycatch, just everything that swims.
    So it's a worrisome thing. The one thing that I've seen, 
and I know it's true across the country, is that if we reduce 
the pollution in the water, reduce the fishing, then nature 
takes over. We see now in rivers around New Jersey and even in 
New York they're starting to see stripers are coming back in. 
They even see some Atlantic salmon. They're probably 
excessively mercurized, and I wouldn't suggest eating them. How 
many actions, Admiral, have been taken to curb illegal fishing 
inside and outside the United States exclusive economic zone? 
What percentage of known or suspected illegal fishing actions 
does that figure represent?
    Admiral Collins. Our major--there are four major areas that 
we have concentrated, primarily concentrated on in terms of 
stopping intrusion into our EEZ or a boundary line type of a 
scenario, the Bering Sea and the Western Pacific area, and 
Mexico, the boundary line with Mexico, and the New England 
fisheries and the boundary line with Canada represent the four 
areas where we, if we're going to have a cutter available to do 
fisheries in those four areas, that's where he's going to go.
    We have particularly put a great deal of emphasis, and it's 
a risk-based allocation of our resources with particular 
attention to the maritime boundary and the Bering Sea. We have 
managed our stocks very, very well, Russia not so well, and 
there's incredible pressure for Russian boats to come over the 
boundary line and fish in our waters, so we have maintained, 
even in the face of homeland security pressures on our resource 
base, we have maintained at a minimum a one-ship presence up in 
the Bering Sea with a helicopter-equipped cutter to enforce the 
boundary line.
    Now, that's quite a challenge because it's a 1,700-mile 
boundary line. It's the distance from Miami to Boston, vast 
resources, and a one-cutter presence is a challenge, but we 
have been consistent. We've had a number of seizures. We've got 
the message across. We're going to be again--it's about 4 or 5 
months out of the year that that's a primary area for concern, 
and we're going to be there all the time and exerting as robust 
a presence as we possibly can, relative to that enforcement 
regime.
    Senator Lautenberg. Mr. Chairman, the Coast Guard's been a 
favorite part of our Government for me, and we always ask them 
to do more with less. We'll find another activity for you, 
Admiral Collins, I guarantee you, to pull your ships into 
another direction.
    Can I ask this one question?
    The Chairman. Sure.
    Senator Lautenberg. Do you have the data, Dr. Lent, Mr. 
Turner, about how much of our fishing depletion, the fish 
supply depletion, is caused by not fishing, but by other things 
like pollution, and abuse of the waters?
    Dr. Lent. We have some information on that. For particular 
species such as Pacific salmon, particularly endangered Pacific 
salmon, habitat is probably the biggest part of the problem we 
have had. We've taken care of the overfishing. We are looking 
at habitat very closely. We have a new habitat mandate under 
sustainable fisheries. We don't necessarily have an easily 
quantifiable number, but where habitat plays a role it is 
certainly front and center in our fishery management.
    Mr. Turner. Senator, I'd just like to comment. I think your 
observations that the issue of fishery depletion goes far 
beyond the take of fish, fishery and the fishing practices. We 
simply have to do a better job of sustaining the habitat, 
whether it's the estuaries like Chesapeake Bay or coral reefs 
or whatever.
    The United States did, with many partners, launch what we 
feel is an integrated oceans model approach at the Johannesburg 
summit last September. We're going to road test that with a lot 
of partners, including agencies here at the table, in the 
Caribbean, where we're going to look at everything from land-
based pollution and waste treatment to forestry practices and 
agriculture practices and development along the coastlines all 
the way out to how do we husband the fishery in the reef. We 
call it our white water to blue water initiative, and if it 
works, we hope to take it elsewhere in the world.
    Senator Lautenberg. Excellent. Mr. Chairman, my 
commendation to you. We manage to not only get useful data here 
but interesting, as well. I thank you for your persistence in 
getting to these problems. Thank you.
    The Chairman. Thank you, sir.
    Senator Stevens, do you have anything?
    Senator Stevens. No further questions.
    The Chairman. I thank the witnesses, and after the Watkins 
Commission meets we'll probably be wanting to talk to you 
again. I think that would be an appropriate time for this 
Committee to consider whatever legislative recommendations or 
other recommendations that they might make, and I thank you for 
being here today.
    Dr. Lent. Thank you.
    Mr. Turner. Thank you.
    Admiral Collins. Thank you, Mr. Chairman.
    The Chairman. Our next panel is Dr. Ransom Myers, the 
Killam Chair of Ocean Studies, Dr. Richard Ruais, who is the 
Executive Director of the East Coast Tuna Association, Ms. Lisa 
Speer, Senior Policy Analyst of the National Resources Defense 
Council, and Dr. Patrick Sullivan, Assistant Professor at 
Cornell University.
    Welcome, and we'll begin with you, Dr. Myers. Thank you, 
and thank the other witnesses for being here.

    STATEMENT OF DR. RANSOM A. MYERS, KILLAM CHAIR OF OCEAN 
                 STUDIES, DALHOUSIE UNIVERSITY

    Dr. Myers. Thank you, Mr. Chairman. It's an honor to be 
here.
    Last month, my coauthor and I published a paper in Nature 
where we attempted to examine all cases in the world where we 
could go back to the beginning of industrial fishing both on 
the continental shelves and in the open ocean. Let me show you 
this plot to give an example of the spread of long-line fishing 
worldwide.
    In 1952, MacArthur, who was running Japan at the time, 
allowed the Japanese long-liners outside of the area around 
Japan if they agreed to keep good records. It is these records 
we used to examine long-line fishing. The red means there's an 
incredible amount of catch per area. Catch rates are 
incredible, 10 big fish or more per 100 hooks. When you think 
about putting in 100 hooks and getting 10 tuna and marlin, plus 
many sharks, it's a really amazing catch.
    By this time the depleted area around Japan--and the only 
area of high catch rates was this ring of red around it, and as 
time progressed, in 1958 you'd eliminated the high catch rates 
in the Pacific here, and the only areas of red is here in the 
Indian Ocean, way out here, so the areas where they were 
originally high is now low, and the red represents this spread 
of long-lining, leaving behind very low catch rates and 
depleted abundance.
    And as you see here, we've skipped over to the Atlantic, 
getting phenomenally high catch rates, particularly of 
bluefins, and these represent huge--and just a few years later, 
the rate, the catches have been reduced down to very low levels 
by 1980. In fact, by 1970 the world is blue in terms of, we've 
reduced the big fish in the world's oceans by a factor of 10. 
That is, there's roughly 10 percent left. Whole areas of the 
ocean has been abandoned. This area that used to have these 
enormously high catch rates off of Brazil abandoned, it's not 
even worth fishing there any more.
    And by 1970, when the ICCAT assessment, International 
Commission for the Conservation of Atlantic Tuna assessments, 
from 1970 when depletion had already occurred, bluefin tuna was 
estimated to be 10 times the abundance presently, so the rest 
of Atlantic tuna is now one-tenth of what it was in 1970, but 
in 1970 it was already tremendously depleted. Fish that used to 
migrate into U.S. waters from this area, from Brazil, had been 
eliminated from these large areas of the Atlantic Ocean and 
from the North Sea.
    The Chairman. Why do we not have anything from 1990 or 
2000?
    Dr. Myers. Oh, I just--because I have it on my movie, but 
it was difficult to show the movie here.
    The Chairman. I see.
    Dr. Myers. I mean, I just--after 1970, things don't change 
very much, because there's relatively low catch rates 
worldwide.
    The Chairman. I see.
    Dr. Myers. It's just basically, we have a movie that's lots 
of action in the beginning, and then by 1970 it's very boring, 
because there's not many fish left on a comparative basis.
    We did the same thing for the continental shelves from the 
Grand Banks of Newfoundland to the Gulf of Thailand to 
Antarctic islands, where we had surveys on the continental 
shelves that went back to the beginning of time, beginning of 
industrial fishing, and the purpose was, it was motivated by 
when I was young, traveling in Africa, after growing up in 
Mississippi, by the way--too bad Senator Lott isn't here--the 
incredible abundance and diversity in the Serengeti plains 
greatly impressed me, and has also greatly impressed me outside 
of the Serengeti you just had just such devastated landscape 
with goats eating dirt, and my motivation for doing the study 
was to see what the oceans looked like before we devastated it, 
and the difference is really, truly astounding.
    OK, now what are the consequences of this study? There are 
two, primarily. We can vastly increase the yield, the catch, by 
reducing fishing mortality, as has been done in Alaska, for 
example. The magnificent Magnuson-Stevens Act allowed Alaska to 
increase the abundance tremendously, and to increase the catch, 
so we can do economically much better by fishing less and 
allowing the stocks to rebuild, and this is on a worldwide 
scale.
    Number two, and I think more importantly, present fishing 
practices will eventually drive sensitive species such as 
sharks, some of the turtles, some of the long-lived species 
like perhaps bluefin tuna or blue marlin extinct simply because 
they're being caught at rates that are simply unsustainable.
    In January, my students and I published extensive analysis 
in the journal, Science, where we looked at hammerhead sharks, 
thresher sharks, white sharks, and basically all the sharks, 
large sharks caught in this big area of the Northwest Atlantic 
here, and we found that the larger sharks like hammerheads, 
threshers, and great white sharks had been declined by 80 
percent in 15 years, and if we go back to the U.S. surveys 
carried out by the Bureau of Fisheries in the 1950s, we find 
that in the Gulf of Mexico, oceanic white tips, formerly the 
most abundant there, their spawning females are now 1,000th of 
their abundance that the U.S. Bureau 1950s survey showed that 
were there, so the sharks worldwide, many of the large sharks 
will go extinct under present fishing practices.
    When we say 10 percent of the community is decreased, that 
means that certain species, certain species are decreased much, 
much more, and present fishing practices will drive these 
sensitive species to extinction, and ICCAT and these 
international management agencies now do not assess these 
sharks, which are the prime species. The one reason why we had 
success in Alaska is that sensitive species, Pacific halibut, 
for example, were examined. They're fished in such a way as not 
to drive those to extinction. They get good commercial harvests 
from those.
    So those are the two main points, and this question of 
extinction of the sharks is, I think, a vital question, and my 
6-year-old son really likes hammerhead sharks, and he's told me 
to pass on the word that these are not allowed to go extinct, 
and present fishing practices--present fishing practices will, 
and in fact in this area, unless we reduce fishing mortality, 
that is, the number of hooks and the number of deaths caused by 
long-lining, by at least 50 percent, my calculations show--and 
I'm right--that they will go extinct in this region under those 
pressures, and this is worldwide.
    If you look at data for Thailand, for Argentina, for 
Australia, for Italy where I have my students working, the same 
pattern occurs worldwide, so this is a worldwide phenomenon. We 
have a chance now. It's early enough that we can stop this 
worldwide extinction just as we stopped the extinction of the 
great whales, and no one involved in those decisions to stop 
the whaling worldwide is sorry for being involved. Their 
children are proud of them, and your children and grandchildren 
will be proud of you if this worldwide threat to the sharks can 
be stopped.
    [The prepared statement of Dr. Myers follows:]

   Prepared Statement of Dr. Ransom A. Myers, Killam Chair of Ocean 
          Studies, Dalhousie University, Halifax, Nova Scotia

    Mr. Chairman, members of the Committee:

    My name is Dr. Ransom A. Myers. I am a quantitative fishery 
population biologist by training and experience. I received a B.Sc. in 
Physics from Rice University in 1974, a M.Sc. in Mathematics from 
Dalhousie University in 1981, and a Ph.D. in Biology from Dalhousie 
University in 1984. Between 1983 and 1997, I was employed as a research 
scientist for the Canadian Department of Fisheries and Oceans. In 1997, 
I was awarded the Killam Chair in Ocean Studies at Dalhousie 
University, which is an endowed research professorship. My specialty 
includes the population dynamics and management of marine fish and 
invertebrates.
    I have published over 100 refereed scientific papers and six book 
chapters in my area of expertise. I have served on a number of 
commissions and committees that were established to study the 
population dynamics of marine organisms. These include the Board of 
Directors of the Ocean Institute of Canada, the NOAA review of the 
International Whaling Commission's Revised Management Procedure, and 
the Methods Working Group of the International Commission for the 
Exploration of the Sea. I am presently supervising 10 graduate students 
working on population dynamics of marine species.

State of World's Fish Stocks--Only 10 percent of Large Fish in the 
        World's Oceans Remain
    Last month we published an article in the scientific journal 
Nature, describing the results of our research on the global decline of 
large fish due to overfishing (see attached). Our major finding is that 
we have only 10 percent of all large fish--both open ocean species 
(tuna, swordfish, and marlin) and large groundfish (cod, halibut, 
skates, and flounder)--left in the sea. Our study shows that industrial 
fisheries take only ten to fifteen years to effect this change.
    Since 1950, we have rapidly reduced large fish populations between 
the tropics and the poles to less than 10 percent of what they were. 
Their depletion not only threatens the future of these species and the 
fisheries that depend on them, but it could also bring about a complete 
re-organization of global ocean ecosystems, with unknown consequences.
    For this study, I spent 10 years assembling data sets representing 
all major types of fisheries in the world. We used data from scientific 
surveys for the continental shelves and data from pelagic longlines, 
the world's most widespread fishing gear, for the open ocean, which 
cover all oceans except the circumpolar seas. These longlines catch a 
wide range of species in a consistent way over vast areas. Whereas 
longline fishers used to catch 10 fish per 100 hooks in many areas, now 
they are lucky to catch one.
    Large fish are not only declining in numbers, but with intense 
fishing pressure they can never attain the body sizes they once did. 
Where detailed data are available, we see that the average body size of 
these top predators is less than half of what it was in the past. For 
example, the few blue marlin that remain today reach one fifth of the 
weight they once did. In many cases, these fish are under such intense 
fishing pressure that they never have the chance to reproduce.
    Recovery requires a substantial overall reduction of fishing 
mortality (the percentage of fish killed each year). This includes 
reducing quotas, reducing overall fishing effort, cutting subsidies, 
reducing bycatch, and creating networks of marine reserves. I believe 
that a minimum reduction of 50 percent of fishing mortality in the 
world's pelagic longline fisheries may be necessary to avoid further 
declines of particularly sensitive species such as large sharks. Even 
greater reductions are required to obtain the Maximum Sustainable 
Yields. Once stocks are restored to higher abundance, we could get just 
as much fish out of the ocean with only \1/3\ to \1/10\ of the fishing 
effort. Fishers and communities who depend on these resources would see 
substantial benefits in the long run.
    Although the rapidity and extent of the decline is shocking, our 
results were not surprising to marine ecologists and fisheries 
biologists who are familiar with overexploited marine ecosystems. 
Analyses carried out by Dr. Daniel Pauly (University of British 
Columbia) using a modeling approach in the North Atlantic, and by Dr. 
J. Jackson of Scripts Institute of Oceanography using historical data 
from coastal regions, have come to similar conclusions: the present 
biomass of large fish in the oceans is only a small fraction of the 
pre-exploitation biomass. The analysis we published in Nature is 
consistent with, and independent of, these assessments.
    The conclusions of our analysis would not be so shocking if it were 
not for the problem of shifting baselines. This is the problem whereby 
our conception of what is natural in marine ecosystems reflects only 
the recent state of the system, in which many species are at 
historically low levels of abundance. Thus we lose sight of the true 
magnitude of many declines. Here are some examples of marine species 
whose true declines have been obscured in part by the problem of a 
shifting baseline:

  1.  Atlantic halibut, which once supported a very valuable fishery in 
        New England, is now all but extinct in this region.

  2.  Before European settlement, there were more green turtles in the 
        Caribbean and the Gulf of Mexico than there are now wildebeests 
        in the Serengeti. The remnant populations of this species are 
        now only a very small fraction of what they were.

  3.  Atlantic bluefin tuna (and hence its fisheries) has been 
        eliminated from over half its former range (populations in the 
        south Atlantic and in the North Sea are gone). Production from 
        this valuable species is thus only a small fraction of what 
        could be achieved.

  4.  Swordfish were once harvested in great numbers using harpoons 
        close to shore between Long Island and northern Nova Scotia.

  5.  Even before 1900, once abundant Atlantic salmon had been 
        eliminated from southern New England rivers, and this species 
        is now virtually extinct in the Northeast.

  6.  The great cod stocks of Newfoundland and the Grand Banks have 
        been declared Endangered by the Canadian government.

  7.  On the west coast, valuable abalone populations have been 
        eliminated in many areas, and show little, or no, sign of 
        recovery.

    We must recognize that fishing is a strong agent of ecological 
change that has altered our marine ecosystems through many population 
collapses and extirpations. It is critical that we do not allow our 
perception of what is natural in our oceans to foster complacency about 
these losses.

Consequence 1 of our study: Fisheries Yields Can be Greatly Increased 
        by Responsible Management
    Our study clearly shows that most fisheries in the world 
overexploit to the point that they produce only a small proportion of 
the potential fisheries yield. Recovery through responsible management 
is possible.
    For example, the increase in catch by the fishermen of New England 
is clear evidence of what improved management can do. Although by the 
early 1990s in New England, fish stocks had been reduced to less than 
one-tenth their original levels, reduced fishing and the use of closed 
areas have been used to rebuild the stocks by 150 percent. According to 
the National Marine Fisheries Service, however, they still require 
rebuilding by another 400 percent of the present levels to achieve 
Maximum Sustainable Yield. They predict that this increase will result 
in a significant increase in fisheries yield (personal communication, 
Dr. Steven A. Murawski of NMFS, Woods Hole). Scallops have increased in 
the area with limited fishing on Georges Bank by an extraordinary 22 
times in only 6 years. The experience on Georges Bank clearly shows 
what can be achieved with appropriate management; in many cases, e.g., 
scallops, the results may exceed the predictions of both scientists and 
fishers. Nevertheless, more than half of the fish stocks in the region 
remain overexploited and the NMFS estimates that the aggregate 
groundfish biomass needs to increase by 3 times.
    Unfortunately, many species will take a long time to recover, 
particularly those that take many years to mature. It will be many 
years before bluefin tuna, Atlantic halibut, or Pacific ocean perch 
return to levels where they can produce maximum sustainable yields.

Consequence 2 of our study: Present Fishing Patterns Will Result in the 
        Eventual Worldwide Extinction of Many Large Marine Species--in 
        Particular Sharks
    Overexploitation threatens the future of many large vertebrates. 
Many species of tuna, sea turtles, and seabirds are now conservation 
concerns because of intense fishing pressure. My students and I have 
recently demonstrated in a paper published in the journal Science that 
many shark populations off the eastern U.S. coast have undergone rapid 
and large declines. Populations of hammerhead, great white, and 
thresher sharks have each declined by about 80 percent within the last 
15 years. Recently my students have extended this analysis back to the 
start of commercial longline fishing using surveys carried out by the 
U.S. Bureau of Fisheries in the Pacific, the Gulf of Mexico, and the 
eastern Atlantic. In all cases we found that the shark populations were 
at a small fraction of their original abundance. In an extreme case, we 
found that the number of spawning female oceanic white tip sharks in 
the Gulf of Mexico is one thousandth of their initial abundance. This 
is alarming because this was once the most common pelagic shark in the 
region. Other researchers have found similar results around the world.
    I believe that the present global situation of sharks parallels the 
situation of whales forty years ago. In both cases, fishing was 
threatening the viability of future populations of large marine 
vertebrates. When the analysis of the state of the world's whale 
populations was first presented forty years ago there was extreme 
resistance to changing management policy. However, effective management 
action was taken, and the whale species of the world were saved. 
Effective management action is now needed for sharks.
    Overexploitation of sharks occurs in almost every area where they 
are fished, because sharks have little resilience to fishing pressure 
(they have few young and require many years to reach maturity), and 
because of a lack of sensible management. Overexploitation often occurs 
because sharks are caught in multispecies fisheries in which the target 
species are much more productive than the shark species. This 
phenomenon occurs in the pelagic longline fishery which targets the 
much more productive tunas, and even in the bottom longline fishery on 
the southeastern U.S. coast which targets more productive shark species 
at the expense of less productive ones. The overexploitation of sharks 
is an example of a very general phenomenon in multispecies fisheries, 
whereby the most sensitive species become quickly overfished, while the 
more productive species continue to drive the fisheries.

State of U.S. Fish Stocks
    There are examples of well-managed fisheries in the United States. 
Alaska, in particular, stands out in comparison to international 
standards. A key management policy that was followed in Alaska, and is 
seldom effectively used elsewhere, is that they managed the 
multispecies fishery so that no single species was overfished, even 
though this meant that the biomass of some species was kept at a higher 
level than required to produce Maximum Sustainable Yield. In 
particular, this management policy aimed to prevent overharvesting of 
Pacific halibut, a species that is very valuable but also very 
sensitive to fishing pressure. This allowed fishing mortality on the 
whole community to be kept at sustainable levels. In contrast, in New 
England and eastern Canada no such management policy was in place, 
which resulted in the virtual commercial extinction of Atlantic 
halibut, and the eventual overexploitation of all the groundfish 
stocks. The present management policy for New England has resulted in a 
partial recovery of groundfish stocks, something that Canada and Europe 
have not been able to achieve. The partial recovery in New England is a 
great achievement. However, it is crucial that the groundfish stocks in 
New England be allowed to fully recover to the point where they can 
provide the much larger yields that they are capable of producing. 
Unfortunately, the partial recovery in New England is not typical of 
most U.S. fisheries.
    More typical are cases like the red snapper in the Gulf of Mexico, 
where fishing mortality has not been reduced despite continued 
scientific advice, or the top predators on the coral reefs of the main 
islands of Hawaii which are at only 1.5 percent of virgin levels 
according to a recent U.S. Fish and Wildlife study. Much work is still 
required on U.S. fisheries management to improve the productivity of 
marine populations.

Improving U.S. Fisheries Management
    U.S. fisheries management has begun to accomplish something that 
few other countries have done; it has increased abundance and yield of 
an overexploited, overcapitalized fishery, i.e., the New England 
groundfish fishery. However, this progress has been slow, and was 
largely forced through court action. There are continuing legal fights 
to improve the management in many U.S. fisheries. On the west coast 
there is still management by trip limits for the groundfish fishery, 
which often forces fishers to discard large amounts of valuable fish in 
order to stay within the regulations. That is, there are regulations 
that effectively force fishers to act in a dishonest manner in order to 
keep fishing. In other fisheries there has been little progress, in 
spite of strong scientific evidence that management actions need to be 
taken. For example, it is very clear that the Gulf of Mexico red 
snapper fishery could produce much more yield, but little effective 
action has been taken.
    In many cases, there is strong, short-term pressure to stabilize 
fish populations at low biomass levels (often as low as 10 percent of 
the unexploited levels), rather than to take the necessary management 
actions to initiate population recovery.
    Perhaps the single most useful change in fisheries management would 
be a rethinking of the way scientific advice informs management 
decisions. Under the present system, careful scientific analysis that 
clearly will result in improved fisheries yields in the long term is 
not acted upon by the regional councils. Further improvements in 
fisheries management require that managers act upon the results of 
careful scientific analyses. Currently, scientific advice is often 
ignored by regional fisheries management councils for short term 
political objectives.
    One problem of the current system is that uncertainty in the status 
of fish stocks can result in risk-prone management strategies, rather 
than risk-averse strategies. For example, in eastern Canada, fishing 
continued on cod stocks to the point where a resource that had employed 
tens of thousands of fishers, and produced a vibrant culture for 
centuries has now been declared Endangered by the Canadian government. 
On the issue of the great disaster of the Canadian cod, I speak as a 
scientist whose scientific advice was ignored time after time. For 
political reasons, fishing continued until one of the world's great 
biological resources, the Grand Banks cod, was almost eliminated. The 
setting of scientific advice for fisheries management cannot be allowed 
to become a political football if long term benefits of a fishery are 
to be realized.

The U.S. and International Fisheries
    There are two areas of marine environmental policy where the U.S. 
is among the leaders of the world: protection of endangered species and 
protection of marine habitat. This leadership could be extended to the 
international arena by three actions:

  1.  Require protection of all species from extinction by 
        international fisheries management agencies. In particular, 
        sharks worldwide, and leatherback turtles in the Pacific, 
        require changes in law for long term survival.

  2.  The success of groundfish fisheries management in Alaska (based 
        around protection of Pacific halibut) should be extended to 
        other multispecies fisheries. Adoption of this management 
        approach in the Northwest Atlantic could lead to efforts to 
        recover the once great Atlantic halibut resource, which would 
        force changes in the international management system that would 
        benefit all groundfish species.

  3.  Require protection of critical marine habitat. As an example, 
        unique seamounts are being destroyed for short term economic 
        gain. There should be a worldwide ban of destructive fishing on 
        all seamounts, especially those in international waters.

    The Chairman. Thank you very much.
    Mr. Ruais, welcome.

      STATEMENT OF RICHARD P. RUAIS, EXECUTIVE DIRECTOR, 
                  EAST COAST TUNA ASSOCIATION

    Mr. Ruais. Thank you, Mr. Chairman. It is indeed a great 
privilege to provide this Committee with testimony on the 
critical issue of the U.S. role in international fisheries 
management.
    Obviously, one of the reasons for this hearing is the 
recent controversy over the Nature article by Dr. Myers and Dr. 
Worm. The fact that this study contributed to this hearing is 
the only positive contribution to fishery conservation one can 
find about the study. Their finding of a significant decline in 
the biomass of large fish from the virgin state over the last 
40 years of fishing is essentially irrelevant to the critical 
business before international and domestic fish managers today. 
The correct challenge to fishery managers is to evaluate the 
condition of each stock in relation to the estimated maximum 
sustainable yield, and then develop fish policies to achieve 
those yields.
    Mr. Chairman, there's a tidal wave of criticism developing 
in the scientific community over the Myers and Worm analysis, 
which has already been deemed to be fundamentally flawed. I 
think you will also find that Dr. Myers is not necessarily in--
--
    The Chairman. Now, I don't mean to interrupt, Mr. Ruais, 
but that was not the opinion of the administration witnesses, 
that they were, quote, fundamentally flawed.
    Mr. Ruais. Well, in my written testimony, Senator, I think 
I've cited a number of Pacific fishery experts who have 
reviewed carefully the Nature study, and they found it to be 
fundamentally flawed, and there are substantive works in 
process to show that it's an oversimplification of catch-per-
unit-effort data potentially showing just fishing down of hot 
spots and other potential problems, but I think the legitimate 
peer review is--it will take a little bit of time to complete. 
It's not yet done, but it is taking place, and in my written 
testimony I think I've cited at least three major pelagic large 
fish researchers who already are saying some pretty damning 
things, and I could read some of those quotes if you want. I 
wanted to spare actually reading some of them for now.
    But I think importantly, Mr. Chairman, the Committee needs 
to know that Dr. Myers' paper was funded by the Pew Charitable 
Trust and is part of a continuing campaign to create an 
atmosphere of false crisis in the public mind over the status 
of our shared high seas and coastal fishery resources.
    The Chairman. Excuse me, the Pew Charitable Trust is part 
of an ongoing campaign?
    Mr. Ruais. That's correct, Mr. Chairman.
    The Chairman. What evidence do you have of that?
    Mr. Ruais. Well, the study that Dr. Myers did was funded by 
the Pew Charitable Trust. It's not a secret that they have been 
maintaining a campaign----
    The Chairman. What evidence do you have of that, that 
they're maintaining some kind of campaign?
    Mr. Ruais. I believe there's been a number of articles in a 
number of papers. There's been a number of researchers that 
have followed very carefully the grant process at Pew, and that 
they provide money to various researchers to provide fisheries 
studies that predict doom and gloom, and scare the public away 
from our fishery resources, Mr. Chairman.
    The Chairman. That's a remarkable indictment of a very fine 
organization, Mr. Ruais. That is really a remarkable 
indictment. I hope you have evidence to back that up.
    Mr. Ruais. I believe that we do, Senator.
    The Chairman. I don't think you do, because I've had a lot 
to do with the Pew Charitable Trust, and I know that that is 
not the way that they do business.
    Go ahead.
    Mr. Ruais. The underlying objective appears to be to 
further excessively harm commercial and recreational fisheries 
and the worldwide fish-eating public. Pew's longstanding anti-
fishing campaign is needlessly and irresponsibly scaring the 
public away from healthy fish stocks.
    Mr. Chairman, the real truth and news the media should be 
reporting is that on all coasts of this country in at least the 
last decade the fishing industry has aggressively pursued 
innovative and effective remedies to fish resource problems at 
great industry cost. The real picture is that under NMFS' 
leaders, Rollie Schmitten and Dr. Bill Hogarth, there's been an 
unprecedented level of cooperation between the U.S. fishing 
industry and Government, and great strides have been made to 
restore many stocks of large and small fish. My written 
testimony details this considerable progress, as does the 
latest NMFS status of the stocks publication.
    I do want to point out that in particular with the 
aggressive leadership of our U.S. commissioners to the 
International Commission for the Conservation of Atlantic 
Tunas, including our Commercial Commissioner, Glenn Delaney, 
the North Atlantic swordfish stock has been fully rebuilt in 
half the time expected. Regarding Western Atlantic bluefin 
tuna, ICCAT's latest stock assessment shows the largest year 
class since 1973 of new giant-size spawners are now available 
to drive the established rebuilding program on schedule.
    These successes and others demonstrate that the domestic 
and international systems are in place for the conservation of 
our fisheries, and while not perfect, especially in the 
international context, are working well.
    I want to bring to the committee's attention the most 
critical problem areas remaining in many international 
organizations such as ICCAT. The problems include the lack of 
political will among certain nations to support conservation 
standards, poor compliance records with conservation agreements 
by some contracting parties, and a continuing problem with 
pirate fishing on the high seas, as has already been discussed.
    In the ICCAT context, the European community, Morocco, and 
Taiwan stand as countries lacking the political will to 
conserve. Attached to my testimony, Mr. Chairman, is a very 
important recent letter from the Secretary of Commerce, Don 
Evans, to the European community protesting the EU's lack of 
political will to follow ICCAT's scientific advice on 
sustainable quotas for Eastern bluefin tuna.
    The letter notes that these EU positions have the potential 
to lead to serious friction in U.S.-EU trade relations. The 
letter is a breakthrough for the U.S. commissioners at ICCAT, 
who have long sought action by the administration to pressure 
the EU. for conservation leadership. The focus on the EU is 
because, as the largest harvester of nearly all ICCAT species, 
the EU can either be a powerful international example of 
resource stewardship, or be a terrible example and an excuse 
for other countries not to comply.
    The letter is a terrific step forward, because it elevates 
ICCAT into the arena of serious bilateral trade relations and 
policies.
    Mr. Chairman, there are no international fish police to 
enforce ICCAT measures on the high seas. Instead, the 
marketplace for these species is the arena for effective 
enforcement. ICCAT has recognized this, and has adopted what 
are perhaps the most progressive multilateral trade provisions 
governing illegal fish produced by member and nonmember 
nations. Nonetheless, the U.S. continues to provide the world's 
largest markets for fish taken in contravention to ICCAT rules. 
The U.S. Government has not been sufficiently aggressive with 
its current authority to stop this black market. After 10 years 
of development, the U.S. has sufficient multilateral authority 
from ICCAT to accomplish two important objectives.
    Number one, immediately put into place the requirements, 
procedures, and funding and manpower necessary to prevent entry 
into the U.S. of any ICCAT species caught illegally by member 
or nonmember nations, including fish by the fleet of nearly 200 
large pirate vessels, and two, to implement similar measures 
that will enable the U.S. to use its market to leverage 
compliance from those nations that do not adhere to ICCAT 
bycatch requirements such as those that apply with respect to 
billfish.
    And finally, Mr. Chairman, I just want to point out one 
last opportunity for the Committee to significantly advance the 
conservation interests of our highly migratory fish, and that 
is an upcoming EU bilateral trade meeting that's going to be 
taking place later this month.
    Mr. Chairman, I respectfully recommend to the Committee 
that you and some members insist upon a meeting with these EU 
officials while they are here, along with the three U.S. ICCAT 
Commissioners, to discuss EU fish conservation policies. I urge 
you to ask the EU how they can possibly justify forcing a quota 
policy for Eastern Atlantic bluefin tuna 6,000 metric tons 
above the annual level recommended by ICCAT. I can assure you 
that elevating this ICCAT issue to your high level of attention 
will unquestionably advance U.S. fish conservation interests.
    Thank you very much for the time, and I'm sorry I went a 
little over.
    [The prepared statement of Mr. Ruais follows:]

      Prepared Statement of Richard P. Ruais, Executive Director, 
                      East Coast Tuna Association

    Mr. Chairman, it is indeed a great privilege to provide this 
Committee with testimony on the critical issue of the U.S. role in 
international fisheries management. I have been involved with domestic 
and international fishery management for 25 years, first as staff with 
the New England Fishery Management Council and since 1991 as Executive 
Director of East Coast Tuna Association representing giant Atlantic 
bluefin tuna fishermen who use rod and reel, harpoon and small-scale 
purse seine vessels in the Northeast. Since 1991, I have participated 
in every plenary meeting of the International Commission for the 
Conservation of Atlantic Tunas and participated in the domestic process 
of developing U.S. objectives and strategies for the Commission 
meetings.
    Obviously, one of the reasons for this hearing is the recent 
controversy in the media surrounding an article published in Nature 
titled ``Rapid worldwide depletion of predatory fish communities'' by 
Ransom A. Myers & Boris Worm. The fact that this study contributed to 
this hearing is regrettably the only positive contribution to fishery 
conservation and management one can find about the study and its 
conclusions. Supported by the Pew Charitable Trust the study is part of 
a well-funded, devious strategic campaign with domestic and 
international components to create an atmosphere of false crisis in the 
public mind over the status of our shared high seas and coastal 
fisheries resources. The underlying objective appears to be to further 
excessively harm commercial and recreational fisheries and the 
worldwide fish eating public. Pew's directed antagonism towards 
commercial fisheries is continuing to shift attention away from the 
ecosystem damages from offshore oil and gas exploration and spills, as 
evidenced by the sparsity of media coverage of the ecological disaster 
caused by the Prestige breaking up off the coast of France last year. 
As recent spills in Narragansett Bay and Buzzards Bay have graphically 
demonstrated, this is counterproductive to any efforts to insure proper 
controls to minimize such damage in U.S. waters. The domestic component 
is being carried out by the Pew Ocean Commission, which has been 
described as ``a self appointed, elitist group with a vested interest 
in fabricating crisis'' (see attached ``The Truth About New England's 
Fisheries'')
    Mr. Chairman, there is a tidal wave of criticism developing in the 
scientific community over the Myer & Worm analysis and conclusions 
which have already been deemed to be ``fundamentally flawed'' (see 
attached) by noted Pacific large pelagic researchers such as Dr. John 
Sibert. Dr. Sibert goes on to note that ``Myers and Worm do the 
fisheries community a disservice by applying a simplistic analysis to 
the available data which exaggerates declines in abundance and implies 
unrealistic rebuilding benchmarks.'' Dr. Gary Sharp (Center for 
Climate/Ocean Resources Study) puts it more bluntly with:

        ``Their (Myers & Worm) meta-analysis as reported is not good 
        science-as exposed by the most recent nonsense . . . presented 
        via Nature, stating that all large ocean fish are at 10 percent 
        of historical levels. That statement denies what we know, and 
        the many complexities that are not explained, or even mentioned 
        in an article. The missing bits only show that the authors know 
        nothing about the majority of the fisheries they claim to, nor 
        the knowledge that is available.''

    Dr. Vidar Wespestad (20 years prior service with Alaska Fisheries 
Center of NOAA) concludes about the article: ``I can clearly state that 
these views do not hold water in our region, and in fact most of the 
recently published Nature article is erroneous and people truly 
knowledgeable are writing a rebuttal.'' There is much more Mr. Chairman 
but we will let the tidal wave of scientific criticism underway set the 
scientific record straight over the next several months.
    To use a finding that pelagic fish stocks experienced a significant 
reduction from virgin condition over 40 years ago in an unqualified 
fashion to scare the consuming public to stop eating healthy seafood 
(as the notorious enemy of fishermen Pew Trusts has been repeatedly 
doing) is irresponsible and undermines the incredible amount of 
international work ongoing to fix existing resource and management 
problems. Regrettably, the Pew Trusts shamefully ignores the reality 
that more than half the world's population depends on fish for a 
significant portion of its food protein.
    That it can be shown that the onset of fishing reduces stocks over 
time in some predictable amount from their pristine condition is not 
news to scientists or to fishermen. Scientists have long been aware 
that for many stocks a reduction of at least 50 percent from a virgin 
``unfished'' condition is fully expected in order to arrive at a stock 
condition where full and sustainable exploitation can take place. As a 
matter of fact, in an interview broadcast on NPR last week, Myers 
stated ``When fisheries management is used and used effectively, there 
is not a concern about the biomass reducing by a factor of 50 or even 
60 or even probably 70 percent''. This is why the Myer and Worm suspect 
finding of a 90 percent reduction is irrelevant to international and 
domestic fish managers today, and is simply inconsistent with our 
actual observations and experience. The correct challenge to fishery 
managers is to evaluate the condition of each stock in relation to its 
estimated maximum sustainable yield, and to develop fish policies to 
achieve that yield.
    Mr. Chairman, the real truth and news the media should be reporting 
is that the fishing industry and its representatives are not in the 
mode of denying that we continue to have cases of serious resource and 
management shortcomings domestically and internationally. On all coasts 
of this country however, and for at least the last decade, the fishing 
industry has aggressively pursued innovative and effective remedies to 
fish resource and management problems at great industry cost. The real 
picture is that under the NMFS leadership of Rollie Schmitten and Dr. 
Bill Hogarth there has been an unprecedented level of cooperation 
between U.S. fishing industry and government and great strides have 
been made to restore many stocks of large and small fish.
    NMFS reports that the latest data shows that most U.S. stocks are 
no longer overfished under increasing regulations required by the 
Sustainable Fisheries Act and of those that remain overfished greater 
than 80 percent are recovering. The New England groundfish complex has 
increased by over 150 percent in the past five years. The New England 
scallop fishery is now rebuilt. In California, the sardine fishery that 
Pew Commission Chairman Leon Panetta is fond of referring to was 
destroyed by unusual weather patterns, not overfishing. The sardines 
have returned to Monterey Bay and are sustainably managed coast-wide. 
In Alaska, where fisheries account for about half the seafood landed 
annually in the U.S., crab, salmon, halibut and groundfish fisheries 
are being harvested at sustainable levels.
    As a consequence of the aggressive efforts and leadership of the 
U.S. Government and the U.S. longline industry at ICCAT, the North 
Atlantic Swordfish stock has been fully rebuilt in half the time 
expected and, along with the South Atlantic Swordfish stock, both are 
now producing the maximum sustainable yield. Still, Pew-generated media 
such as the very recent Washington Post article is misinforming the 
public that Atlantic swordfish are seriously depleted and should not be 
consumed.
    Regarding western Atlantic bluefin tuna (the former ``poster-
child'' fish of green groups seeking ``charismatic megafauna'' for 
profitable fundraising), ICCAT's latest stock assessment shows the 
largest year-class since 1973 of new giant size spawners are now 
available to drive the established rebuilding program to completion and 
on schedule. In a broader context, the United Nations Food and 
Agriculture finds that global capture fisheries production is stable 
with 72 percent of fish stocks are either under, moderately or fully 
exploited.
    Coalitions of fishing industry organizations believe that these 
successes and others demonstrate that the domestic and international 
systems in place for the conservation and management of our fisheries, 
while not perfect especially in the international context, are working 
well. This is in sharp contrast to what the authors of the Nature 
article, and the Pew-funded media campaign have led the public to 
believe. For example, largely as a result of outstanding, aggressive 
leadership by U.S. Commissioners to ICCAT since the early 1990s (and in 
particular the efforts of ICCAT Commissioners Rollie Schmitten, Dr. 
Bill Hogarth and Glenn Delaney), ICCAT has been on the cutting edge of 
developing and implementing legally sustainable international processes 
leading to sanctions for non-compliance and agreements to address other 
critical international management infrastructure shortcomings. We 
welcome any assistance this Committee can render to reasonably speed up 
the process and eliminate remaining obstacles to effective, efficient 
and equitable long term conservation and management.
    I want to bring the Committee's attention to the most critical 
problem areas remaining in many international conservation and 
management organizations such as ICCAT and where substantial 
improvements are necessary. These include the lack of political will 
among certain Nations to support generally accepted conservation 
standards and consequent failure to agree on policies to achieve 
conservation objectives; poor compliance records with established 
conservation agreements by some contracting parties and; a continuing 
problem with illegal, unregulated and unreported fishing (IUU and often 
referred to as ``pirate fishing''). In the ICCAT context, the European 
Community, North African countries bounding the southern coast of the 
Mediterranean Sea (in particular Morocco) and Taiwan standout as 
countries lacking the political will to embrace the responsibilities of 
conserving our shared highly migratory resources.
    I would like to call the Committee's attention to an April 25, 2003 
letter (attached) to the Honorable Pascal Lamy, European Community 
Commissioner for Trade from Secretary of Commerce Donald Evans 
protesting the EU's lack of political will to follow ICCAT scientific 
advice on the establishment of sustainable quotas for eastern Atlantic 
bluefin tuna. The Secretary notes with disappointment that the EU's 
policy to set bluefin quotas 6,000 mt above the scientific advice for 
each of the next 4 years ``undermines ICCAT's ability to effectively 
manage Atlantic stocks and threatens the viability of U.S. recreational 
and commercial fishing industry.'' The letter also notified the EU that 
``positions such as these not only threaten the long-term future of our 
shared marine resources . . . they also have the potential to lead to 
serious friction in U.S.-EU trade relations''.
    This letter represents a breakthrough for the U.S. Commissioners at 
ICCAT who have long sought support and action by the Administration to 
pressure the EU for more conservation leadership within ICCAT. The 
Commissioners focus on the EU recognizes that the EU is the most 
significant harvester in nearly all of the species under ICCAT purview 
and because of the influence they maintain with North African 
countries. In this respect, the EU can either chose to set a powerful 
international example of resource stewardship or provide a terrible 
example and excuse for other countries not to comply.
    The letter is a terrific step forward because it elevates ICCAT 
into the arena of serious bilateral trade relations and policy rather 
then just another fish or environmental issue. Our industries are very 
grateful to the Secretary and Under Secretary Grant Aldonis and Senior 
Policy Advisor Sloan Rappoport for the development of this letter. It 
remains to be seen whether this threat alone will influence a change in 
EU policies or whether further direct interventions by high-ranking 
officials within Commerce and State Department and implementation of 
trade sanctions will be required. We would hope this Committee could 
find additional avenues to influence further support within the 
Administration and elsewhere to pressure ICCAT parties for compliance.
    I would also refer the Committee to a letter to Mr. John Spencer, 
Head, Unit of International and Regional Arrangements, EU from Dr. 
William Hogarth, dated April 23, 2003. This important letter also 
raises serious concerns about the EU conservation behavior, but this 
time in the context of consideration by the Secretary of Commerce to 
certify the EU for ``diminishing the effectiveness'' of ICCAT pursuant 
to the Pelly Amendment of the Fishermen's Protective Act. The request 
for such a certification was made by several east coast governors in 
support of their coastal and high seas fishermen. If the Secretary were 
to certify EU under the Pelly Amendment, it could lead to trade 
sanctions against the EU until they adopt a stronger conservation 
ethic. This could be an effective tool, but despite a number of 
certifications made over the years, the U.S. Government has declined to 
impose actual economic trade sanctions (except in one case). I am 
afraid there are few in the international community that fear the 
certification threat. Nevertheless, we are very grateful to Dr. Hogarth 
for exercising this option as a means to elevate ICCAT issues and 
increase pressure on the EU.
    Mr. Chairman, I must reiterate that within international fora for 
fisheries conservation, the U.S. is the leading voice for tough 
conservation standards and measures. We often lead by example, 
subjecting our fishermen to even greater fishing restrictions than our 
foreign counterparts. This is clearly the case in our commercial and 
recreational fisheries for Atlantic swordfish and Atlantic bluefin 
tuna. But it is also established biological reality that we are 
responsible for a very small portion of mortality on these stocks and 
we cannot successfully conserve these stocks unilaterally without 
cooperation from all of the major fishing nations.
    There are no international fish police to enforce ICCAT measures on 
the high seas. Instead, the marketplace for these species is the arena 
for effective ICCAT enforcement. ICCAT has recognized this and has 
adopted what are perhaps the most progressive and aggressive 
multilateral trade provisions and policies governing ICCAT-illegal fish 
produced by both member and non-member nations. Nonetheless, the U.S. 
continues to provide one of the world's largest markets for fish taken 
in contravention of ICCAT rules and regulations. The reason is that the 
U.S. Government has not been sufficiently aggressive with its current 
authority or with its fiscal resources to stop this black market. It is 
my view, shared by many in our U.S. ICCAT team, that the U.S. has 
sufficient multilateral authority from ICCAT to accomplish 2 important 
objectives, each of which would enormously improve the conservation 
benefits of our achievements at ICCAT thus far, and tremendously 
strengthen U.S. effectiveness at ICCAT in the future:

  (1)  to immediately put into place the requirements, procedures and 
        funding and manpower necessary to prevent entry into the U.S. 
        of any ICCAT species caught illegally by member or non-member 
        nations, including fish of Atlantic origin suspected of being 
        laundered through Pacific markets, as well as fish presently 
        harvested by a fleet of more than 200 large pirate vessels; and

  (2)  to implement similar measures that will enable the U.S. to use 
        its market to leverage compliance from those nations that do 
        not adhere to ICCAT bycatch requirements such as those that 
        apply with respect to billfish. Yet, the U.S. undermines its 
        own efforts by allowing nations that ignore billfish bycatch 
        requirements to openly market their directed species catch such 
        as swordfish and tunas in the U.S. marketplace.

    In the interest of having conservation programs be efficient and 
equitable it is clear to many in the fishing industry and many in 
government that the fastest and most effective way to improve the 
international conservation picture is for the U.S. to employ such 
legitimate trade sanctions against countries undermining the 
effectiveness of international programs. Those U.S. fishermen 
sacrificing under the burden of ICCAT restrictions have a right to 
expect that the U.S. Government will, at least, insure that fish caught 
in violation of ICCAT programs by contracting parties or ``pirate'' IUU 
fishing vessels not be allowed to unfairly compete with legitimate US-
caught fish in U.S. markets.
    Another opportunity for this Committee to significantly advance the 
conservation and management of highly migratory fish in the Atlantic is 
at an upcoming bilateral meeting here in the U.S. with the EU and, 
where their top ICCAT officials will be present. Mr. Chairman I 
respectfully recommend to the Committee that you and some Members 
insist upon a meeting with these EU officials while they are here, 
along with the 3 U.S. ICCAT Commissioners, to discuss EU fish 
conservation policies. I urge you to ask of the EU how they can 
possibly justify forcing a quota policy for eastern Atlantic bluefin 
tuna 6,000 mt annually above the level recommended by ICCAT (including 
European scientists) scientists for the next 4 years. This policy will 
not produce ``stability'' as claimed, rather it risks decimation of 
eastern and Mediterranean assemblages of bluefin tuna many of which 
are, with certainty, bound for a casual and ordinary trans-Atlantic 
swim to our coastal waters.
    I can assure you that elevating this ICCAT issue to your high level 
of attention will unquestionably advance U.S. interests and large 
highly migratory fish conservation. This will particularly be the case 
if you insure that all three U.S. ICCAT Commissioners are allowed to 
participate in this designated government-to-government meeting. This 
designation is occasionally employed by lower level staff, particularly 
within the Department of State, who may not share NMFS leadership 
strong resolve to put our best team forward. It is critically important 
that all three presidentially appointed U.S. ICCAT Commissioners be 
afforded the opportunity to fully participate.
    Finally, there are 2 changes to the Atlantic Tunas Convention Act 
we believe will strengthen U.S. leadership at ICCAT. The first required 
change would be to lengthen the terms of the non-government 
commissioners from the current maximum of 2 to 3 consecutive year terms 
as is the case for regional fishery council members. We have made this 
request to the Subcommittee in September of 1999. We note, in 
particular, that with respect to foreign delegations at ICCAT there 
appears to be no such term limits and that such continuity can offer 
strategic advantages at the negotiating table. The job of ICCAT 
commissioners requires considerable technical expertise and time to 
master the craft of negotiating with delegations from 32 other fishing 
nations. As noted earlier, the U.S. currently has an excellent winning 
team. The arbitrary two-term limit regrettably will break up this team 
at a crucial time at ICCAT.
    The second change would be to, again similar to the regional 
council system, provide per diem remuneration for the recreational and 
commercial commissioners while on official ICCAT related business. This 
would recognize the considerable time and effort required to fulfill 
the responsibilities and carry out the mandate entrusted to these 
Commissioners under their Presidential appointments. This change should 
also make it clear that the recreational and commercial commissioners 
are official government representatives while fulfilling their ICCAT 
responsibilities and as such, allow continuous participation in all 
government-to -government meetings related to ICCAT business. The 
recreational and commercial ICCAT Commissioners are an essential part 
of the U.S. ICCAT team and have responsibilities entrusted to them by 
the President. It is highly inappropriate and counterproductive to keep 
them in the dark on issues critical to the success of ICCAT.
    Thank you Mr. Chairman and Members of this Committee for holding 
this hearing and for helping to advance the conservation and management 
of our coastal and shared highly migratory fish stocks.
                                 ______
                                 
                                     Department of Commerce
                                     Washington, DC, April 25, 2003
Hon. Pascal Lamy,
Commissioner for Trade,
European Commission,
B-1049 Brussels, Belgium.

Dear Commissioner Lamy:

    I believe that the conservation of marine fisheries is of the 
utmost importance, for both commercial and environmental reasons. 
Although I am sure that the Commission generally shares this view, I am 
writing to express my serious concerns with the actions taken and 
positions adopted by the EU and EU member states with respect to the 
conservation of the migratory species covered by the International 
Convention for the Conservation of Atlantic Tunas (ICCAT). I also want 
to emphasize that the repercussions reach beyond concerns solely with 
the environment, as is often the case with fishing issues, because they 
have a direct effect on trade as well.
    In particular, I am concerned that overfishing by EU member states 
is reducing stocks of ICCAT species below sustainable levels. 
Specifically, I was extremely disappointed that ICCAT agreed to an EU 
delegation proposal to set the Total Allowable Catch for Eastern 
Atlantic bluefin at 32,000 metric tons, which is 6,000 metric tons 
above the cap recommended by ICCAT's scientific advisory body. Support 
for such proposals undermines ICCAT's ability to effectively manage 
Atlantic stocks and threatens the viability of U.S. recreational and 
commercial fishing industries.
    Positions such as these not only threaten the long-term future of 
our shared marine resources, but, as I noted, they also have the 
potential to lead to serious friction in U.S.-EU trade relations. In 
September 2002, the Recreational Fishing Alliance, an organization 
representing the U.S. sport fishing industry, filed a petition under 
Section 301 of the Trade Act of 1974 to address allegedly unjustifiable 
acts, policies and practices of the EU related to ICCAT. The 301 
petition also alleged that EU subsidies to its fishing industry through 
the Common Fisheries Policy and its funding mechanism, the Financial 
Instrument for Fisheries Guidance (MFG), are actionable under the WTO 
Agreement on Subsidies and Countervailing Measures. Although the 
Recreational Fishing Alliance withdrew its 301 petition prior to the 
October 2002 ICCAT meeting, it has expressed its intent to re-file the 
petition if its concerns are not addressed.
    The EU is a world leader in supporting protection of the global 
environment and the sustainable use of natural resources. In the case 
of Atlantic fishing stocks, however, it appears that the actions and 
positions of the EU and its member states are at variance with these 
goals. I would like to work together with you so as to make ICCAT an 
effective steward of our shared Atlantic fisheries, and to prevent this 
issue from becoming another bilateral trade irritant. To that end, I 
urge you to take prompt action to improve EU compliance with existing 
ICCAT obligations and to re-consider accepting science-based 
conservation measures to guarantee a sustainable future for species 
like the Atlantic bluefin tuna and white marlin.
    I have asked Grant Aldonas, Under Secretary for International 
Trade, to serve as a point of contact for this important issue, and 
would ask that you similarly designate an appropriate point of contact 
for the Commission.
    As you know, the Administration is also interested in discussing 
opportunities for improving disciplines on worldwide fishing subsidies 
pursuant to the Doha Department Agenda, an objective, I trust we both 
share. I look forward to cooperating with you to improve the U.S.-EU 
relationship on these matters.
            Sincerely,
                                           Donald L. Evans,
                                                         Secretary.
cc: Ambassador Robert B. Zoellick
United States Trade Representative

cc: The Honorable Franz Fischler
Commissioner for Agriculture, Rural Development and Fisheries
European Commission
                                 ______
                                 
                       United States Department of Commerce
                                  Silver Spring, MD, April 23, 2003
Mr. John Edward Spencer,
Head, Unit of International and Regional Arrangements,
European Commission,
B-1049--Brussels, Belgium.

Dear Mr. Spencer:

    I am pleased that we were able to begin our agreed bilateral 
discussions concerning implementation by the European Community (EC) of 
ICCAT's new restrictions, including the harvest of juvenile bluefin 
tuna, and other matters earlier this month. I am only sorry that 
circumstances were such that we could not meet face-to-face. As I 
mentioned during our phone call, these discussions take on particular 
significance given that they are also the subject of a request to the 
U.S. Secretary of Commerce from several U.S. Governors and 
environmental organizations that he certify the EC pursuant to the 
Pelly Amendment to the Fishermen's Protective Act of 1967 for 
diminishing the effectiveness of ICCAT.
    The Pelly Amendment directs the Secretary of Commerce to 
periodically monitor the activities of foreign nationals that conduct 
fishing operations in a manner or under circumstances which diminish 
the effectiveness of an international fishery conservation program and 
determine if such activity should be certified to the President of the 
United States. Upon receiving such certification, the President may 
prohibit the importation into the United States of any products from 
the offending country for any duration of time that the President 
determines appropriate.
    As I noted to you, I would like to continue our dialogue on these 
important issues as soon as possible. The ICCAT intersessional meetings 
in Madeira present a good opportunity for a follow-up meeting and we 
should take advantage of it. I will be arriving the weekend prior to 
the start of those meetings and propose that we meet for a few hours on 
Sunday, May 25, 2003. In addition, I note that our annual U.S.-EU 
fisheries bilateral has been scheduled for June 30-July 1 in 
Washington, D.C. While I will not be in town for that meeting, I will 
be back on July 2 and would like to propose an informal meeting in my 
office to continue our important discussions. My staff will be in touch 
to confirm our next meeting date and time.
    It was a pleasure talking with you recently, and I look forward to 
our next meeting.
            Sincerely,
                                 William T. Hogarth, Ph.D.,
                             Assistant Administrator for Fisheries.
                                 ______
                                 
Original Message
From: ``John Sibert''
To: <FISHFOLK@MITVMA.MIT.EDU>
Sent: Thursday, May 29, 2003 8:55 AM
Subject: Myers & Worm Nature article

    Fishfolk,

    Lest anyone fret about the apparent lack of response to the Myers 
and Worm Nature article, please be assured that several responses are 
in preparation. The following summarizes some comments that my 
colleagues and I are assembling regarding the M&W interpretation of 
longline data; it is only the beginning.

  1.  The Myers and Worm study is fundamentally flawed because of the 
        aggregation of CPUEs for different species that show different 
        time-series trends and have different longline catchability and 
        uncritical interpretation of pooled CPUE as an index of 
        ``community biomass''.

  2.  The popular interpretation of the results of the study as 
        indicating population or community level changes in abundance 
        is incorrect. Longline gear selects mainly the oldest fish and 
        therefore the conclusions of the study should be more 
        restricted.

  3.  The Myers and Worm definition of tropical area for the Pacific is 
        too restrictive and should have included the main core habitat 
        of tropical tunas and billfish (to 15N). Their claim that this 
        area could not be considered because it was fished prior to 
        1952 is grossly overstated. Available information suggests that 
        longline fishing effort prior to 1952 in the equatorial area 
        was very low and largely of an exploratory nature. Declines in 
        CPUE of yellowfin and bigeye in this region are neither rapid 
        nor spectacular.

  4.  The declines in CPUE documented in the Myers and Worm study show 
        considerable differences among species in the western and 
        central Pacific. Most of the visual impact of the decline 
        occurs because of a very high yellowfin CPUE in 1953, when 
        fishing was very spatially restricted and occurred in only part 
        of the year. Changes in albacore CPUE are demonstrably related 
        to species targeting when data from other fleets (Taiwan) are 
        considered. No decline in bigeye CPUE occurred in any region 
        considered over the entire time series. Decline in CPUE in the 
        temperate region is restricted to southern bluefin tuna. The 
        onus is on Myers and Worm to explain how these very different 
        patterns could have resulted given the general claims that they 
        make regarding the impact of longline fishing on pelagic fish 
        stocks.

  5.  The species-specific changes in CPUE need to be assessed in the 
        context of models that incorporate species-specific population 
        dynamics and make use of a greater range of data than catch and 
        effort statistics from one fleet using one gear. Size-based 
        age-structured models are currently being used for the main 
        species exploited by longline in the western and central 
        Pacific. The results of these analyses will be available within 
        two months.

  6.  There is no doubt that fishing decreases the abundance of fish 
        populations. The simplest of fishing theories predict that the 
        size of fish populations at full and sustainable exploitation 
        is about half of their pre-exploitation size. Many of the tunas 
        and billfishes included in this analysis have been carefully 
        assessed by sophisticated models that include multiple gear 
        types, spatial effects, age structure, and long time series. 
        Most of these analyses estimate declines that are far less 
        severe than indicated by the nominal CPUE. There is also no 
        doubt that some fish populations are overexploited, that others 
        are near full exploitation, and that steps need to be taken to 
        reduce levels of exploitation. Myers and Worm do the fisheries 
        community a disservice by applying a simplistic analysis to the 
        available data which exaggerates declines in abundance and 
        implies unrealistic rebuilding benchmarks.
            Regards,
                                               John Sibert.
                                 ______
                                 

   NEWS RELEASE--Associated Fisheries of Maine Trawlers Survival Fund

                The Truth About New England's Fisheries

           For more information: Maggie Raymond, Robert Lane

    (New Bedford, MA, June 3, 2003)--Associated Fisheries of Maine and 
the Trawlers Survival Fund join fishermen and fishing communities 
around the country in hailing the successes of U.S. fisheries 
management programs, and refuting the claims of the Pew Oceans 
Commission that our Nation's fisheries are in crisis. Fisheries 
management programs in New England continue to demonstrate measurable 
and substantial success in building sustainable fisheries. Commercial 
fishing in New England provides millions of pounds of highly valued 
seafood, thousands of jobs, and defines the social fabric of our 
coastal communities.
    The overwhelming body of evidence does not support the doom and 
gloom picture of the Nation's fisheries painted by the Pew Ocean 
Commission, and New England fishermen are concerned that this alarmist 
report will only serve to undermine the U.S. fisheries management 
process that has been largely successful. ``The Pew Commission is a 
self-appointed, elitist group with a vested interest in fabricating 
crises, said Robert Lane of the Trawlers Survival Fund. ``None of the 
Commission's recommendations are at all useful to the thousands of 
people who roll up their sleeves every day to do the hard work of 
fishing and developing fishery management plans.''
    New England groundfish, our Nation's first fishery, and still the 
region's principal fishery, has rebounded under strict management 
plans. These 24 stocks of finfish have, collectively, tripled in 
biomass since 1994. In particular, Georges Bank haddock and yellowtail, 
Gulf of Maine haddock, silver hake, and witch flounder, have all made 
significant gains, and are rapidly approaching a ``rebuilt'' status.
    The scallop fishery is now considered rebuilt and provides 
significant economic benefits to harvesters throughout New England and 
the Mid-Atlantic region, and the public has enjoyed a steady, 
sustainable supply of this highly valued seafood, at a reasonable 
price.
    The herring resource in New England is presently above its biomass 
target, and fishing mortality remains low. Monkfish, the region's 3rd 
most valuable fishery, is no longer overfished and is very near its 
biomass target.
    ``All of these gains, of course, have come at great cost to New 
England fishermen'', said Maggie Raymond of Associated Fisheries of 
Maine. ``Strict limitations on the number of days fished, the largest 
mesh size in the world, and thousands of square miles of seasonal and 
year-round closed fishing areas have caused economic hardship, but have 
also contributed to the quick turn-around in the status of these 
resources.
    The Pew Oceans Commission recommends, among other things, that 
fisheries management decision-making be taken from responsible managers 
with regional knowledge of fisheries, and moved to a bureaucracy in 
Washington, DC. Raymond responded, ``Members of the regional fishery 
management councils have the local knowledge essential to crafting 
regulations that achieve conservation goals while attempting to 
minimize the economic impacts of regulations on fishermen and fishing 
families. Because Associated Fisheries of Maine supports sound 
fisheries management, I have acted as an advisor to the New England 
Fishery Management Council, recommending the adoption of some of the 
most draconian restrictions imposed on our fisheries to date''.
    Reliable data from the National Marine Fisheries Service, the 
United Nations Food and Agriculture Organization (FAO), and the 
International Commission for Conservation of Atlantic Tuna (ICCAT), as 
well as from the Nation's regional fishery management councils, shows 
consistent progress in rebuilding and maintaining healthy fish stocks, 
and healthy fishing communities. For detailed information about our 
Nation's fisheries see the National Marine Fisheries Service ``Status 
of the Stocks'' at http://www.nmfs.noaa.clov/sfa/reports.html and for 
New England fisheries, see ``Heading Toward Recovery'' available at 
http://www.nefmc.orq/
    ``The truth is out there'', said Robert Lane. ``But good news 
doesn't grab the headlines. The stories of sustainable fisheries--good 
food and good jobs--won't put the names of the members of the Pew 
Commission in the daily newspaper.''
                                 #####
    Associated Fisheries of Maine is a grass roots coalition of fishing 
and fishing dependent business whose members work and reside along the 
entire coast of Maine, as well as in Massachusetts. The Trawlers 
Survival Fund is comprised of over 100 fishing vessels from the coasts 
of Massachusetts and Rhode Island. Both organizations are fully 
committed to sound fisheries management, to providing high quality 
seafood to the public, and to improving the safety of commercial 
fishing.
    The Pew Oceans Commission's traveling road show has been made 
possible through generous funding by the Pew Charitable Trust. The Pew 
Charitable Trust has also donated several million dollars to an 
advocacy group known as Oceana. Oceana, in turn, has spent most of that 
money on lawsuits that thwart the U.S. Government's efforts to 
implement effective fisheries management. The National Marine Fisheries 
Service, in response, has been forced to re-allocate a significant 
portion of its taxpayer funded budget to compiling litigation records 
instead of to evaluating, implementing, and enforcing fishery 
management plans.

    The Chairman. Thank you very much.
    Ms. Speer, welcome.

   STATEMENT OF LISA SPEER, SENIOR POLICY ANALYST, NATIONAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Speer. Thank you, Mr. Chairman, and thank you very much 
for holding this hearing today on a very, very important issue.
    Before I begin, I want to just quickly address one of the 
issues that Mr. Ruais raised, and that is to point out that the 
journal, Nature, is one of the top scientific journals in the 
world, and Mr. Myers' article, along with every other article 
that is published in Nature, is extensively reviewed prior to 
publication by peer scientists.
    In addition, it's not just Dr. Myers' report. Dr. Myers' is 
only one of a series of reports that have come out recently 
from the National Academy of Sciences, from the Food and 
Agriculture Organization, from the National Marine Fisheries 
Service, that show that we are in serious trouble. We have a 
serious problem.
    But I want to thank this Committee for holding this 
hearing, and in particular for its leadership on international 
fisheries issues in the past. Senator Stevens was a key leader 
on the driftnet ban, he was a key leader on the U.N. Fish 
Stocks Agreement, and I think now is the time for us to again 
assert our leadership on the world stage to begin to address 
some of the problems that we've heard discussed today.
    There are three things that I think we ought to consider in 
terms of asserting leadership on the world stage and addressing 
these issues. First, I think the United States needs to lead by 
example, and at 4.5 million square miles, our EEZ is the 
largest in the world, and if we are to assert leadership 
globally we need to make sure that our own house is in order, 
and while there have been very promising signs of rebuilding in 
places, the overall picture remains troublesome.
    According to the National Marine Fisheries Service, well 
over a third of our assessed fish stocks that are federally 
managed are either overfished, or being fished unsustainably, 
or both, but that's just one measure of the problem we face. In 
addition, fishing catches a huge amount of other marine 
creatures that are discarded dead. Worldwide, the figure is 
one-quarter of the world catch is discarded dead, and second, 
the damage to fish habitat posed by some fishing practices is 
changing the undersea landscape and the ecosystem in ways that 
we don't fully understand, but that are potentially very 
troublesome.
    The kinds of changes that we think are necessary at home 
include some of the things that have been recommended by the 
Pew Oceans Commission and that we think are likely will be also 
recommended by the National Oceans Commission, and that is, 
number 1, to replace the existing fragmented system of ocean 
laws with an overall national ocean policy that's based on the 
doctrine of public trust.
    Fisheries management here at home needs to be strengthened 
in several ways, first by separating conservation from 
allocation decisions, and restricting destructive gear that can 
damage fish habitat.
    Finally, scientists tell us that fully protected marine 
reserves where there is no extractive activity allowed is one 
way of helping to increase fisheries, to improve ecosystem 
health, and to rebuild depleted populations.
    The Pew Commission report contains a number of other 
recommendations. I'd like to submit it, along with my 
testimony, for the record.
    The Chairman. Without objection.
    Ms. Speer. The second major initiative I think the U.S. 
could undertake is to protect the seamounts that Dr. Lent and 
others referred to. These are submarine mountains that rise 100 
meters or more from the ocean floor. They tend to be isolated 
and, as a result, they tend to be hot spots of biodiversity in 
the ocean. According to the UNFAO there are tens, if not 
thousands of endemic species on each of these seamounts, 
species that are found nowhere else in the world.
    We know very, very little about these seamounts, but they 
appear to be incredible spots of high biodiversity that require 
protection. Right now, there is high seas bottom trawling going 
on on these seamounts that can destroy the very basis of life 
on them by raking over cold water corals and reducing important 
productive habitats to rubble in a very short order.
    We very much favor a high seas moratorium on bottom 
trawling on seamounts. We feel that is something that the 
United States could play a very important leadership role. We 
need to map these things. We need to identify what's on them. 
We need to figure out how important are they to the ocean 
ecosystem before we go trashing them with bottom trawling and 
other harmful methods of fishing.
    Last, I think it's really critical to continue to play the 
kind of leadership role that the United States has played in 
trying to address illegal, unreported, and unregulated fishing. 
This is a really tough issue. The United States has been a 
leader, and we need to continue to push there. Domestic 
legislation that the committee has considered and has 
introduced is one possibility, I think, that may be fruitful, 
and we would welcome the opportunity to continue to work with 
the Committee on this issue.
    Finally, the fishing capacity issue is a big one. We need 
to elevate the discussion of subsidies in particular, harmful 
subsidies, subsidies that encourage construction and other 
improvements of fishing vessels, and at the WTO and in other 
international fora we think elevating this issue, making a 
bigger deal out of it, is very important.
    And last, Mr. Chairman, I would thank you again for holding 
this hearing. I think the time is ripe. This problem is 
emerging, it's pressing, we can't ignore it any longer, and 
it's time for us to step up to the plate.
    Thank you.
    [The prepared statement of Ms. Speer follows:]

       Prepared Statement of Lisa Speer, Senior Policy Analyst, 
                   Natural Resources Defense Council
    Mr. Chairman, Members of the Committee:

    My name is Lisa Speer. I am Senior Policy Analyst with the Natural 
Resources Defense Council (NRDC), a national conservation organization 
dedicated to protecting natural resources and public health. We 
appreciate the opportunity to testify on the U.S. role in international 
fisheries management.
    My work over the last 20 years at NRDC has focused on ocean and 
coastal resource conservation, both here and abroad. I have had the 
honor of serving on the U.S. delegation to a number of major 
international fisheries negotiations, including the UN Conference on 
Straddling Stocks and Highly Migratory Species, as well as negotiations 
to implement the resulting treaty in the North Atlantic and the Western 
Pacific. NRDC has been active in issues debated at the International 
Convention for the Conservation of Atlantic Tunas (ICCAT), the Inter-
American Tropical Tuna Commission (IATTC), the Convention on 
International Trade in Endangered Species (CITES), and other 
international institutions that address fisheries issues. Here at home, 
NRDC has been extensively involved in regional fisheries management 
issues in New England, the Mid-Atlantic and the Pacific, swordfish and 
other highly migratory species in Atlantic, and overall implementation 
of the Magnuson-Stevens Act at the national level. Most recently, the 
President of NRDC, John Adams, served on the Pew Oceans Commission, 
which issued its report and recommendations last week.
    I would like first to thank the Committee for holding this hearing. 
Coming on the heels of Dr. Myers' report in Nature last month, the 
report of the Pew Commission last week, the Defying Oceans End 
conference in Cabo San Lucas earlier this month and the conclusion of 
the 4th UN Open-ended Informal Consultative Process on on Oceans and 
the Law of the Sea last Friday, the timing could not be more 
propitious.
Overview of international fisheries
    Recent reports and events highlight the fact that we are rapidly 
reaching, and in many cases have exceeded, the limits of ocean 
ecosystems and the fisheries they support. According to the UN Food and 
Agriculture Organization (FAO), seventy-five percent of the world's 
marine fish populations are fully fished, overfished, or depleted. Sea 
turtles, marine mammals and seabirds are threatened by incidental catch 
in fishing gear, as are many species of commercial and non-commercially 
important fish. More than 2 billion pounds of bycatch--roughly 25 
percent of the world's total catch--is discarded dead, the collateral 
damage of fishing. Destructive fishing practices such as dredges and 
bottom trawls damage the habitat on which marine life, including 
important commercial fish species, depend. Overcapacity and subsidies 
continue to propel short term overexploitation at the expense of long 
term sustainability.
    The depletion of the seas has enormous implications for the human 
environment as well as the natural one. Globally, marine fisheries 
employ roughly 20 million people worldwide, many from developing 
countries where fishing provides a critical source of income as well as 
food. Here in our own back yard, depletion of cod off Atlantic Canada 
has cost more than 40,000 people their jobs and has devastated coastal 
fishing communities throughout the Atlantic provinces.
    The experience around the globe is mirrored here at home, where 
well over a third of federally managed assessed fish stocks are either 
overfished or are being fished unsustainably, or both. Rampant 
overfishing in New England, the Pacific and elsewhere has resulted in 
dramatic declines in key fish stocks, resulting in the loss of jobs and 
painful readjustments in many fishing communities.
Increasing pressure on deep sea fisheries
    Faced with declining stocks in nearshore coastal waters, fishermen 
are venturing farther out into previously untouched areas of the deep 
sea, home to exceptionally vulnerable species and habitats, with 
unknown consequences. According to FAO, the catch of oceanic species 
typically found on the high seas has tripled since the mid-1970s.
    The rapid increase in fishing pressure on seamounts and other deep 
water areas is of particular concern. Seamounts are submarine mountains 
and hills that can rise 1000 meters or more from the ocean floor. They 
are distributed throughout the world's oceans. Recent research 
indicates that seamounts are centers of biodiversity that frequently 
exhibit a very high degree of endemism. According to the U.N., the 
total number of species endemic to deep-sea seamounts may range from 
tens of thousands or more, thus potentially making these ecosystems the 
most prolific and diverse on the planet.\1\
---------------------------------------------------------------------------
    \1\ Draft Report of the Secretary-General on Oceans and the Law of 
the Sea, June 2003.
---------------------------------------------------------------------------
    Along with deep coral formations and other deep water features, 
seamounts typically support slow-growing, long-living animals, which 
can take hundreds or even thousands of years to develop and are 
exceedingly vulnerable to disturbance. Very little about the 
distribution, abundance and dynamics of these features and the species 
that inhabit them is known.
    Bottom trawl fishing poses the greatest danger to seamount 
ecosystems due to the impact of the gear on bottom habitat. Advancing 
technology now allows fishing vessels to easily locate and fish in 
previously inaccessible deep-sea areas, including seamounts, banks and 
canyons, which harbor long-lived deep sea fish such as orange roughy. 
Trawling for these fish can destroy deep water coral and other complex 
benthic communities, reducing thriving bottom complexes to rubble in 
short order.
The role of the United States in addressing international fisheries
    The United States has played a key role in promoting reform of 
international fisheries management over the years. To cite but a few 
examples, U.S. leadership was essential to securing the 1991 UN 
moratorium on large scale driftnets on the high seas, the 
groundbreaking, legally binding conservation provisions of the UN 
Agreement on Straddling and Highly Migratory Fish Stocks, and the FAO 
International Plan of Action (IPOA) on illegal, unreported and 
unregulated (IUU) fishing. U.S. leadership was essential in securing 
agreement at ICCAT to adopt a recovery plan for North Atlantic 
swordfish, which have made a remarkable comeback, and in securing 
agreement on multilateral trade measures to help enforce ICCAT rules.
    These and other efforts have served to greatly enhance 
international fisheries conservation and management. But much more 
needs to be done. The magnitude of the problem here in the U.S. and 
around the world calls for a major initiative to chart a new course for 
fisheries. As a major fishing nation, and one of the world's largest 
consumers of seafood, the U.S. is in an important position to lead such 
an effort. Elements of this initiative should include the following.

  (1)  The U.S. should lead by example. At 4.5 million square miles, 
        our EEZ is bigger than the Nation's land area and is the 
        largest in the world. If we are to assert leadership globally, 
        we need to ensure that domestic fisheries are managed 
        responsibly and sustainably. Despite important progress, we 
        remain far short of this goal. More than one third of assessed 
        fish stocks are either overfished, being fished unsustainably, 
        or both according to NMFS, and some are approaching extinction, 
        including several species of snapper, grouper, and Pacific 
        rockfish. The Pew Oceans Commission report outlines important 
        steps we can take here at home to overhaul domestic fisheries 
        management. These include:

      a.  Replace the existing, fragmented jumble of ocean laws and 
            programs with a unified national ocean policy based on the 
            doctrine of public trust, with clear and coordinated goals, 
            objectives and standards based on protecting ecosystem 
            health and requiring sustainable use of ocean resources.

      b.  Overhaul Federal marine fisheries management by separating 
            conservation and allocation decisions, restricting fishing 
            gear that is destructive to marine habitats, and 
            implementing ecosystem based planning and zoning.

      c.  Establish a system of fully protected marine reserves.

    The Pew Commission report contains many other critically important 
recommendations for improving fisheries management in the United 
States. I would like to submit the report for the record.

  (1)  Pursue an immediate moratorium on high seas bottom trawling on 
        seamounts, deep coral reefs and other sensitive areas. Such a 
        moratorium should apply until deep water corals, seamounts and 
        other biodiversity hotspots on the high seas can be identified 
        and measures to protect them adopted. In most high seas 
        regions, there are virtually no controls on bottom trawling, 
        and there is great concern that many species are being lost to 
        trawling before they can even be identified. Bottom trawling 
        should be suspended in sensitive areas of the high seas until 
        these features can be mapped, assessed and protected.

  (2)  Continue to play a leadership role in implementing the FAO Plan 
        of Action to Prevent, Deter and Eliminate Illegal, Unreported 
        and Unregulated Fishing. The United States has been a leader in 
        promoting international cooperation to deter IUU fishing. 
        Continued progress on this front is essential if the World 
        Summit on Sustainable Development (WSSD) goal of restoring 
        depleted stocks to healthy levels worldwide by 2015 is to be 
        met. Domestic legislation enabling the U.S. to restrict imports 
        of certain fish caught in a manner that is not consistent with 
        international agreements governing fishing and protection of 
        the marine environment has been introduced in the Committee, 
        and we believe this approach holds promise for addressing the 
        problem of IUU fishing. We would welcome the opportunity to 
        work with the Committee on this type of legislation.

  (3)  Promote the prompt implementation of the FAO International Plan 
        of Action on Management of Fishing Capacity. Most importantly, 
        that portion of the $13 billion/year of officially reported 
        fishing subsidies (likely an underestimate)\2\ that contributes 
        to overcapacity and overfishing must be addressed. In addition 
        to ongoing discussions of the issue at the WTO, the upcoming 
        2004 FAO technical consultation on subsidies in the fisheries 
        sector and how they affect overcapacity, overfishing and IUU 
        fishing, provides a potential opportunity to make progress on 
        this issue.
---------------------------------------------------------------------------
    \2\ WWF, 2001. Hard Facts, Hidden Problems: A Review of Current 
Data on Fishing Subsidies.

    In closing, we again commend the Committee for holding this 
hearing, and urge your continued involvement and interest in this 
---------------------------------------------------------------------------
critical environmental issue. Thank you for the opportunity to testify.

    The Chairman. Thank you very much.
    Dr. Sullivan, welcome.

STATEMENT OF PATRICK J. SULLIVAN, Ph.D., DEPARTMENT OF NATURAL 
                 RESOURCES, CORNELL UNIVERSITY

    Dr. Sullivan. Chairman McCain, Members of the Committee, 
thank you for the invitation to discuss the U.S. role in 
international fisheries management.
    A significant number of the world's fisheries are not in 
good shape. The Director General of the Food and Agriculture 
Organization of the United Nations at a recent conference 
stated that 50 percent of the world's marine fishery resources 
are fully exploited, 25 percent are overexploited, and 25 
percent could support a higher exploitation rate.
    He goes on to state that despite warning, the trend toward 
overfishing observed since the early 1970s has not yet been 
reversed. Similar concerns can be raised here at home as well. 
In the 2001 annual report to Congress by the National Marine 
Fisheries Service, the report states that of the stocks whose 
status is known, 163 are considered in healthy condition, while 
81 are considered overfished.
    Given the general consensus that too many populations are 
overfished, why hasn't more action been taken? The reason is 
that fisheries management represents a troubled juxtaposition 
of the human need for these resources in terms of food and 
protein, economic income, culture, and recreation, with the 
challenges this need causes to the environment in terms of 
population sustainability, species viability, and ecosystem 
stability.
    Fisheries science, while making reasonable progress toward 
understanding our marine ecosystems and the populations 
therein, faces the daunting task of providing information and 
advice about these complex systems to constituencies that 
represent seemingly competing objectives of resource 
utilization and environmental conservation. Fisheries 
management is difficult. Tough decisions must be made that 
influence people's livelihoods and their quality of living, but 
these decisions also influence ecosystems and consequently the 
quality of the environment.
    It may seem that the objectives voiced by resource 
utilization and conservation groups are in conflict, but in 
fact both should represent similar overarching goals. Both seek 
a healthy, functioning, productive marine ecosystem.
    Why the conflict? Often the short-term demands on a 
fisheries resource such as keeping fishers employed, markets 
satisfied, or fishing communities economically viable 
overshadow the very real but difficult-to-see long-term 
consequences that continued high demand can bring about. In 
situations where demand for the resource is high, and the long-
term consequences are seemingly unclear or uncertain, the 
tendency is to remain at status quo.
    Unfortunately, such a response only digs the hole deeper, 
making any remedial action difficult to take, often resulting 
in severe economic and ecological repercussions.
    One symptom of this unresolved conflict is indicated by the 
letter to the journal, Nature, by Dr. Myers and Dr. Worm. I 
appreciate this article, and I think one of the reasons I was 
called today was to help debate it, and I'm certainly willing 
to answer questions and help do that, but the signs of 
something amiss in our marine ecosystems is widely known. We 
have the Pew Commission report in 2003 on American Living 
Oceans, we have the National Marine Fisheries report, Toward 
Rebuilding America's Marine Fisheries, 2003, we have the 
National Academy of Public Administration report, Courts, 
Congress, and its Constituencies, Managing Fisheries by 
Default. I have listed here 12 publications, some of which I 
was involved with, with the National Academy of Sciences, 
Natural Research Council, over and over again----
    The Chairman. All of them concluding that?
    Dr. Sullivan. That there is uncertainty in doing fisheries 
management, that it's a tough job, and that more needs to be 
done, and that overfishing is taking place.
    The Chairman. Twelve different studies?
    Dr. Sullivan. Pardon me?
    The Chairman. Twelve different studies?
    Dr. Sullivan. Yes.
    The Chairman. Thank you.
    Dr. Sullivan. Fisheries management is a tough, tough 
problem, and there is a number of reports that have already 
addressed this, and I'm a little surprised, I was telling Ran 
before, that this particular article should raise so much 
attention, when this has been raised over and over again over 
the last 10 years.
    So I think the ocean is a fantastic resource, but I also 
think it's an incredible ecosystem, and I think, if interacted 
with reasonably, could result in an ecologically balanced and 
economically viable partnership. One of the neat things about 
fishing in the ocean is, we're doing it, we're trying to do it 
in an ecologically balanced fashion as opposed to, you know, I 
don't know, rice or something like that. You know, the 
ecosystem goes away, and then we put rice in. We don't do that 
with fish. We try not to do that. We try to do it in a sort of 
balanced way.
    So how might we do this better? I think first we should 
recognize the uncertainty associated with it, and adjust to 
that, but this may mean operating in a risk-averse fashion, 
where information is lacking. We can't keep up the overfishing 
for the fish stocks that we're looking at. It seems to be 
relevant especially to some of the predators, but it's 
affecting other fish as well.
    Quite often, unfortunately, the science gets the blame for 
the errors that occur, and one of the reasons why there's so 
many reports is, managers keep getting the message that 
overfishing is taking place, and so the managers ask the 
scientists why that's so, and don't believe the answers. I 
think that's a problem.
    So I think quite often, again, that science gets the blame 
for errors that occur when we're trying to manage our 
fisheries, and in some circumstances it's blame that's properly 
placed. However, asking scientists to remove all of the fog in 
terms of what we can do so that we can drive at top speed in 
terms of managing our fisheries I think is unrealistic, and 
presupposing that we can control marine systems to the level 
that we are presently attempting I think is overly risking. 
It's overly risky ecologically, I think it's overly risky 
economically.
    I believe the best way to achieve an economically and 
ecologically balanced relationship with the ocean worldwide is 
to set the stage for doing so at home. To do this, I think we 
must create realistic, flexible, ecosystem-based fisheries 
management plans. These plans may need to step beyond the 
optimum and maximum yield objectives toward constructing 
objectives that create opportunity without encountering undue 
risk.
    Think again of this problem raised with the observed 
depletion of predators. We are working with complex ecosystems 
here. Our objectives should fit into that. The balance that 
results may not be optimal for all stakeholders, so perhaps we 
should better define what opportunities we wish to create, and 
what risks we wish to avoid. The Myers and Worm letter to 
Nature is just a warning. The warnings are abundant. National 
Marine Fisheries Service, the Pew Commission, the National 
Academy of Sciences all provide well-thought-out and 
appropriate advice. Still, tough decisions need to be made.
    I would be happy to answer any questions you might have.
    [The prepared statement of Dr. Sullivan follows:]

Prepared Statement of Patrick J. Sullivan, Ph.D., Department of Natural 
                     Resources, Cornell University

    Chairman McCain, Members of the Committee, thank you for the 
invitation to discuss the U.S. Role in International Fisheries 
Management.

    A significant number of the world's fisheries are not in good 
shape. The Director-General of Food and Agriculture Organization (FAO) 
of the United Nations Dr. Jacques Diouf at the Reykjavik Conference on 
Responsible Fisheries in the Marine Ecosystem (1-4 October 2001) stated 
that 50 percent of the world's marine fishery resources are fully 
exploited, 25 percent are overexploited and about 25 percent could 
support higher exploitation rates. He goes on to state that ``Despite 
warning, the trend towards more overfishing observed since the early 
1970s has not yet reversed.'' Similar concerns can be raise here at 
home as well. The 2001 Annual Report to Congress by the National Marine 
Fisheries Service states that of the stocks whose status is known 163 
are considered in healthy condition while 81 are considered to be 
overfished. Given the general consensus that too many populations are 
overfished, why hasn't more action been taken? The reason is that 
fisheries management represents a troubled juxtaposition of the human 
need for these resources in terms of food and protein, economic income, 
culture, and recreation with the challenges this need causes for the 
environment in terms of population sustainability, species viability, 
and ecosystem stability. Fisheries science, while making reasonable 
progress towards understanding our marine ecosystems and the 
populations therein, faces the daunting task of providing information 
and advice about these complex systems to constituencies that represent 
the seemingly competing objectives of resource utilization and 
environmental conservation. Fisheries management is difficult. Tough 
decisions must be made that influence people's livelihoods and their 
quality of living, but these decisions also influence ecosystems and 
consequently the quality of the environment. It may seem that the 
objectives voiced by resource utilization and conservation groups are 
in conflict, but in fact both should represent similar overarching 
goals. Both seek a healthy functioning productive marine ecosystem. Why 
the conflict? Often the short-term demands on a fisheries resource, 
such as keeping fishers employed, markets satisfied, or fishing 
communities economically viable, overshadow the very real, but 
difficult to see, long-term consequences that continued high demand can 
bring about. In situations where demand for the resource is high and 
the long-term consequences are seemingly unclear or uncertain, the 
tendency is to remain at status quo. Unfortunately, such a response 
only digs the hole deeper, making any remedial action difficult to take 
often resulting in severe economic and ecological repercussions.
    One symptom of this unresolved conflict is indicated in the letter 
to the journal Nature by Myers and Worm (2003, Vol 423:280-283) on the 
``Rapid worldwide depletion of predatory fish communities''. But the 
signs of something amiss in our marine ecosystems are widely known. The 
Pew Commission Report ``America's Living Oceans'' (2003), the National 
Marine Fisheries Service Report to Congress ``Toward Rebuilding 
America's Marine Fisheries'' (2003) and the National Academy of Public 
Administration Report ``Courts, Congress, and Constituencies: Managing 
Fisheries by Default'' (2002) indicate the need for something other 
than status quo in how we deal with fisheries and with our marine 
ecosystems. A number of National Academy of Sciences National Research 
Council (NRC) Reports have also come out on this and related topics 
over the last ten years (i.e., 1994 Improving the Management of U.S. 
Marine Fisheries, 1996 The Bering Sea Ecosystem, 1996 Upstream: Salmon 
and Society in the Pacific Northwest, 1998 Improving Fish Stock 
Assessments, 1998 Review of the Northeast Fishery Stock Assessments, 
1999 Sharing the Fish: Toward a National Policy on Individual Fishing 
Quotas, 1999 Sustaining Marine Fisheries, 2000 Improving the 
Collection, Management and Use of Marine Fisheries Data, 2000 
Recruiting Fishery Scientists, 2001 Marine Protected Areas, 2002 
Science and Its Role in the National Marine Fisheries Service). We know 
there's a problem.
    A few years ago I testified before the Senate Subcommittee on 
Oceans as chair of one of these NRC committees. During that testimony I 
tried to convey that uncertainty plays a large role in determining the 
limits of our understanding of fisheries populations. This uncertainty 
about the responses of marine systems to human intervention is not 
confined to the United States alone. I have reviewed and provided 
advice to Iceland on cod, New Zealand on hoki, Canada on black cod, and 
Japan, New Zealand, and Australia, on southern bluefin tuna. As a 
population dynamicist for ten years with the International Pacific 
Halibut Commission I provided advice on the halibut fishery (another 
longline fishery) in the North Pacific, and have provided advice to the 
Pacific Fisheries Management Council and currently to the New England 
Fisheries Management Council on fisheries science, stock assessment and 
harvest management strategies. The common theme in all these systems is 
uncertainty. A respected fisheries scientist John Shepherd was once 
quoted as saying ``Estimating the number of fish in the sea is just the 
same as counting the number of trees in a forest, except you can't see 
the fish and they move.'' Uncertainty is a fact of life, but one I 
think we can respond appropriately to. However, the actions we take 
must be thoughtful and informed and we must recognize that in most 
circumstances if we err, we should err on the side of safety for our 
ecosystem. This guiding principle is called the precautionary approach 
and it represents an attempt to recognize that errors that impact the 
ecosystem may be irrevocable. Just to clarify, I do not interpret this 
principle to mean that being risk averse when it comes to fisheries 
management should mean that we should not make use of our ocean's 
resources. We cannot all live on mountain tops in Nepal, and even if we 
all did this we would still require resources (e.g., rice, air, water) 
to sustain ourselves. No, I think the ocean is a fantastic resource as 
well as an incredible ecosystem, and if interacted with reasonably 
could result in an ecologically balanced economically viable 
partnership.
    How might we do this better? First we should recognize this 
uncertainty and adjust to it, which may mean operating in a risk-averse 
fashion where information is lacking. I was thinking about an 
appropriate analogy on a recent trip home to Ithaca, NY, from a meeting 
I was attending in Woods Hole, MA. The best I could come up with on the 
interstate was that fisheries management was a lot like driving on the 
turnpike. Some of us like using cruise control. It is a bit less 
taxing, but we need a wide open road to make use of it. Some of us like 
keeping our foot on the pedal in seeking out an optimal speed. But in 
driving this way we must be diligent and keep a much closer eye on the 
road. Right now in fisheries management for many fisheries I believe we 
are at high speed on the turnpike in the fog using cruise control. We 
cannot keep it up and we are already seeing the consequences of taking 
too many risks. Quite often the science gets the blame for errors that 
occur when we try to manage our fisheries. And in some circumstances 
this blame is properly placed. However, asking scientists to remove all 
the fog so we can drive at top speed is unrealistic. And presupposing 
that we can control marine systems to the level that we are presently 
attempting is overly risky. It is overly risky ecologically. It is 
overly risky economically.
    I believe the best way for us to achieve an economically and 
ecologically balanced relationship with the ocean worldwide is to set 
the stage for doing so at home. To do this I think we must create 
realistic flexible ecosystem-based fishery management plans. These 
plans may need to step beyond optimum and maximum yield objectives 
towards constructing objectives that create opportunity without 
encountering undue risk. Think again of the problem raised by the 
observed depletion of predators. We are working with complex ecosystems 
here. Our objective should be to fit into it. The balance that results 
may not be optimal for all stakeholders, and so perhaps we should 
better define what opportunities we wish to create and what risks we 
wish to avoid. The Myers and Worm letter to Nature is just a warning. 
The warnings are abundant. The National Marine Fisheries Service, the 
Pew Commission, the National Academy of Sciences are all providing well 
thought out and appropriate advice. Still tough decisions need to be 
made.

    The Chairman. Thank you very much, Dr. Sullivan. Thank you 
for your testimony.
    Mr. Ruais, I probably shouldn't bother with this, but you 
say that in your statement the Pew Ocean Commission, which has 
been described as, quote, ``self-appointed, elitist group with 
a vested interest in fabricating a crisis, see attached, The 
Truth about New England Fisheries.'' That attached, ``The Truth 
about New England Fisheries'' article, is by the Associated 
Fisheries of Maine Trawlers Survival Fund. I won't even 
comment.
    Dr. Myers, do you believe that your study is a radical 
departure from other studies that have been conducted by other 
organizations, including the United States Government?
    Dr. Myers. No.
    The Chairman. Do you believe that Admiral Watkins' 
Commission will basically reach the same conclusions that you 
have?
    Dr. Myers. Yes.
    The Chairman. Mr. Ruais, do you believe that Admiral 
Watkins' Commission, from what you've seen of their work so 
far, will reach roughly the same conclusions that Dr. Myers 
has?
    Mr. Ruais. I'm not sure, Senator, if that's going to be the 
outcome.
    The Chairman. If they do, would that lend some credibility 
to the Associated Fisheries of Maine Trawlers Survival Fund?
    Mr. Ruais. Well, I think it would lend more credibility to 
the statements of Dr. Mike Sissenwine, chief scientist at NOAA, 
who has also tried to reassure the public that within the Myers 
study there is not a lot that's new or surprising to 
scientists. We all know that when you go fishing, you reduce 
fish stocks. That's not the issue that's before us today. The 
issue is, where are we in relation to maximum sustainable 
yield, and I think by any reasonable standard, both 
domestically and internationally, we're making progress to 
date, dramatic progress, as you heard from Dr. Rebecca Lent. In 
a short period of time after----
    The Chairman. Now, that's not what I heard from Dr. Rebecca 
Lent. I heard from Dr. Rebecca Lent that domestically, 
particularly in the Northwest, thanks to Magnuson-Stevens and a 
number of other measures that have been taken, we're doing 
pretty well, but I heard from Dr. Rebecca Lent that we're not 
doing very well at all internationally.
    Mr. Ruais. Well, I'm sorry, Senator, but I didn't quite 
hear that from Dr. Lent. I heard that we are making progress--
--
    The Chairman. How? You were in the audience.
    Mr. Ruais. I was. I was, Senator McCain, but I do believe 
that we are making substantial progress at ICCAT. We've 
recovered the swordfish resource in half the time. Bigeye tuna 
is stable, yellowfin tuna is stable. We have problem areas. The 
industry does not deny that we have problem areas remaining, 
but we are making progress, and we're here today to ask the 
committee to help us in the area where we can finish the job, 
and that is, we lack the political will internationally to get 
a job, we recognize that.
    There's some bad players out there, some bad actors, and 
we're asking for help domestically to produce the political 
will within the European community and other countries to focus 
in on the remaining big problems that we have and allow us to 
finish the job, but we just feel it's very unfair to have these 
series of articles coming out painting doom and gloom when 
fishermen across this country on every coast are sacrificing 
like crazy to rebuild these resources in a fairly short period 
of time.
    Everybody knows what the conditions of the stocks were in 
the 1980s and early 1990s, since SFA, and it took about 2 years 
to get the rebuilding plans in place, we now have more than 50 
percent of our fisheries that are recovered, and the remaining 
80 percent are recovering. That's remarkable progress in that 
short period of time.
    The Chairman. Mr. Ruais, there's a disconnect here. 
Everyone acknowledges and appreciates what has happened with 
the U.S. domestically. The overwhelming body of scientific 
opinion is what is happening internationally. Unfortunately, we 
are part of the globe, and the oceans are part of the globe, 
and this is the problem, many of which Senator Stevens pointed 
out, overfishing and others, so--well----
    Mr. Ruais. If I could----
    The Chairman. I'd like to hear from the other witnesses if 
you don't mind, Mr. Ruais.
    Dr. Sullivan, what is your view here, please, on the 
veracity of Dr. Myers' study and other preponderance of 
scientific opinion that we have a problem internationally?
    Dr. Sullivan. I think we have a problem overfishing both 
nationally as well as internationally. With regard to Dr. 
Myers' article, I think it's important to recognize the scale 
at which it's done. One of the things that I appreciate about 
what Dr. Myers does is, he takes large data sets and analyzes 
them, pulls them together and analyzes them in a way that folks 
cannot, but what we're looking at are like, broadbrush kinds of 
pictures, and the message is, is that these fish stocks are 
going down. I think that broadbrush picture is accurate.
    Now, whether we should take his analysis and say we need to 
reduce fishing uniformly by a third throughout the globe, if we 
want to get into that, we have to do the detailed kind of work. 
This report won't help with that. It's a warning message, and I 
think it apparently did the right thing, but in terms of 
specifics we might say, well, Southern bluefin tuna, we 
definitely have to do something about that, but something else 
like yellowfin or albacore, maybe it's OK, and those kinds of 
things, so you know, we have to recognize the scale at which 
it's done.
    The Chairman. But you would recognize that as long as we 
have the kind of illegal activities that are going on by these 
fishing vessels that are registered in one country, owned by 
another, offloaded in another, that we have got a significant 
potential problem here?
    Dr. Sullivan. Sure. I think that's true in the U.S., as 
well as internationally.
    The Chairman. Senator Stevens.
    Senator Stevens. Mr. Chairman, I'm with you on the global 
concept, and I think there's really a disaster globally. I do 
think, though, and I'm not in total agreement with Mr. Ruais, 
but I do think the witnesses are sort of bringing the domestic 
scene into that disaster area and we don't belong there.
    The National Marine Fisheries' annual report came out in 
May this year. It showed that we have a steady improvement, 
that these laws that we've passed are affecting not only just 
my area, the North Pacific, but the waters off our coast in 
general. It showed that one fish stock that had been listed as 
depleted is now fully recovered, rebuilt. Four species were 
taken off the overfish list. Seventy overfished species 
continue to recover under the Federal rebuilding plans, and 
they're hopeful that they will be successful. The North 
Atlantic swordfish and the Atlantic pollack were determined to 
be no longer overfished. Swordfish is almost completely 
rebuilt, and over the past 5 years, 20 species have been taken 
off the overfished list and they've eliminated overfishing in 
25 species.
    Now, that doesn't say that we've done the job totally, but 
I get the feeling--and Ms. Speer, I would ask you this 
question. You seem to think that this global problem is our 
problem, and Dr. Sullivan, you hinted the same thing just now. 
Why can't we take credit for what we're doing and understand, 
none of those plans called for immediate recovery in one year. 
Since we've passed that sustainable fisheries concept and put 
in place these plans, they're working, and I think we need your 
help rather than criticism of what's going on.
    Why do you continue to assert that we need a new plan for 
managing fisheries off our shores and calling fish a public 
property? It's nobody's property until it's harvested. You 
know, God put them there--that's my belief--and they're not 
your property and not my property until someone harvests them, 
but it's our duty to protect them, and you seem to think that 
we've got to come up with some plan that I have to have a 
permit from the Federal Government to take fish out of the 
ocean. Isn't that your plan?
    Ms. Speer. Senator Stevens, the domestic situation I think 
is one where if you look at the NOAA numbers--I'm just looking 
at them now--there's 932 federally managed stocks. Of those, we 
only know the status of 237. Of those, 88 are overfished, so 
well over a third are overfished.
    Senator Stevens. They're listed as overfished. If they're 
subject to plans, then they are recovering right now. Each one 
of them is recovering. There's not one of them listed that's 
going backward. Do you agree with that?
    Ms. Speer. No. I can cite for one example, cod on Georgia's 
Bank, which is continuing to decline. It's now at 14 percent of 
what scientists consider----
    Senator Stevens. That's a family, not a species, now. Let's 
be careful of what we're doing. Unfortunately, your 
organization and others do that all the time.
    Ms. Speer. The stocks that are assessed by the National 
Marine Fisheries Service are done on a stock-by-stock basis, 
but the overfishing statistics don't reflect the full picture. 
In addition, lots and lots of marine life is dying in nets and 
on long lines both in this country----
    Senator Stevens. I agree with that. We tried our best to 
deal with what you mentioned in terms of the amount of fish 
returned to the ocean dead. We've tried to stop bycatch. We've 
tried to penalize those people who do destroy one species in 
trying to harvest another, but that's still a progress of the 
plans. The plans are starting to work, and it took us 100 years 
to get to the bad place we're in, and we've only been going at 
this now, what, 4 years?
    Ms. Speer. One of the real positive recommendations that I 
think the Pew Commission report made, and that we agree with, 
is based on the experience in Alaska, where the scientists 
established the maximum level of catch that should be caught, 
and the council rarely exceeds that. The council almost never 
overrides the scientists.
    Senator Stevens. We never do.
    Ms. Speer. That is not the case in----
    Senator Stevens. We never override it, but under the 
Magnuson-Stevens Act, no council is supposed to override it. 
The problem is the discipline of the other councils, and we 
have to deal with that, but my time has run out and I've got to 
go to another meeting, but I would urge you who are concerned 
about the world to give us credit for what we've done.
    How can we sell to the world the success we've had if it's 
criticized here at home? Now, I think you should join us in 
saying, we've not gone as far as we want to go, we're certainly 
not perfect, but we have taken steps the world should take. If 
you say they haven't worked, why should they take them? I think 
you're misleading the world in criticizing what we've done. We 
have done more than the world, and it is working. It's not 
perfect, but I urge you to join us.
    The fault I find with the Pew Commission report, it is 
negative. It once again, it says the Steller sea lion is dying 
off because of lack of pollack, when pollack is there four to 
five times the amount it was there 5, 10 years ago. Now, 
please, you've got monstrous organizations, and they do good, 
but you should help us in what we're trying to do globally, and 
you can't do that if you criticize us at home.
    Ms. Speer. We'd like to help make both places a better 
situation.
    Senator Stevens. We're making it better here at home, but 
that's not what people are hearing from you today. They're 
hearing from you today, the United States still has the problem 
that the globe has. That's not true. We have some of the 
problems, but we're working on them, and the rest of the globe 
has not.
    Dr. Sullivan, I interrupted you. Sorry.
    Dr. Sullivan. Mr. Stevens, thank you. I appreciate what 
you're saying, and to clarify I think--my opinion is the 
National Marine Fisheries Service is doing a great job. The 
science is good. I think they're providing good advice. I don't 
think that advice is always taken, and I think that we are 
making inroads, but we still have a long way to go.
    If the director general is saying a quarter of the fish in 
the world are overfished, and if the National Marine Fisheries 
report is saying one-third of ours is overfished, that's 
telling me that, I mean, we may be doing the right things, but 
we need to kind of continue along that path. That's all I have 
to say.
    Senator Stevens. Mr. Chairman, I'd only make one comment. 
If we didn't have as many lawyers attacking these plans and let 
them work for a few years before they attacked them, we might 
be better off than we are today. Almost every one of these 
plans has been attacked by one of your organizations' financed 
lawsuits, and I think that's delayed the recovery that could 
have come from those plans had they been followed in the first 
place.
    Thank you.
    The Chairman. Thank you, Senator Stevens. Ms. Speer, do you 
want to----
    Ms. Speer. Yes. I understand there is concern about 
litigation, and you know, we don't want to do litigation any 
more than the NMFS wants to get litigation at them, but it's 
been our experience that in many cases the law as you wrote 
it--and Ran called it the Magnificent Stevens Act, and it is, 
it's a good law, but it's often not implemented properly, and 
for example, summer flounder, which is a lawsuit that NRDC was 
involved in, the council came up with a plan that had an 18 
percent chance of meeting the overfishing target.
    Now, if we were building a bomb that had an 18 percent 
chance of hitting its target, the people who invented the bomb 
would be out on their ears very quickly. We sued them and we 
got them up to 50 percent, which is still not, in our view, 
very adequate, but it's a better--we again and again and again 
have had to go to court to ensure that these laws are 
implemented properly.
    The Chairman. So they're just trying to make sure that your 
intentions are carried out.
    [Laughter.]
    Ms. Speer. Thank you, Senator McCain.
    Senator Stevens. My comment is this. I've been a lawyer now 
for over 50 years. Why did you enjoin the plan? Why didn't you 
go in and go to court and try to get improvements to the plan 
and let it start? You delayed it 2 years, so the 18 percent 
that might have worked, the part of it that might have worked, 
you delayed.
    Now, I believe in litigation to force compliance with laws, 
but your organization particularly uses an injunction to stop 
them, and then you litigate, and have appeals and whatnot. The 
plan doesn't go into effect for 2 or 3 years. I would help you 
a great deal if you would just take the concept of challenging 
the plan, but at least let it start. That's happened out our 
way several times. We've been delayed in terms of implementing 
a plan, and we've lost a couple of years, and in the course of 
those couple of years our stocks decline. Thank God, we now 
have them in place, and my intentions are still good, Mr. 
Chairman.
    The Chairman. Ms. Speer, I have found from long years of 
relationship with Senator Stevens that he always gets the last 
word.
    [Laughter.]
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. Yes, thanks.
    The Chairman. Thank you for your patience, Senator 
Lautenberg.
    Senator Lautenberg. Well, I'm subdued by my interest and 
the challenge, because I have some disagreement with some good 
friends here, and I think that if we can't look in the mirror 
and see what's wrong and take those steps, then we're kind of--
we've got our heads in the sand. Do we have a lot of foreign 
fleets fishing in what would be restricted waters? Is that a 
problem these days?
    Mr. Ruais. No, it's generally not. There's very little 
foreign fishing going on, at least in the Atlantic Ocean today.
    Senator Lautenberg. Now, how about in the Pacific Ocean?
    Mr. Ruais. No.
    Senator Lautenberg. They are not within our limits?
    Mr. Ruais. Not within the U.S. EEZ, Senator.
    Senator Lautenberg. Anybody want to say anything?
    Dr. Myers. Some of the fish stocks that migrate from U.S. 
waters into other waters, for example Atlantic halibut, which 
is in absolutely desperate, desperate shape, should be, like 
Pacific halibut, a great source of wealth to Canada and the 
U.S. and the world, is now virtually extinct, and halibut goes 
from the U.S. to Canada in international waters, and none of 
the countries have made significant progress in terms of 
protection. Protect the sensitive species, and we'll have the 
great fisheries in the Northeast as we have in Alaska, so get 
the Atlantic halibut back, and that needs international action, 
led by the U.S. on the issue.
    Senator Lautenberg. Mr. Ruais, you are the Executive 
Director of the East Coast Tuna Association?
    Mr. Ruais. Correct.
    Senator Lautenberg. What is the mission of that 
association?
    Mr. Ruais. We represent about 300 rod-and-reel, hand-thrown 
harpoon fishermen and small purse seine fishermen that fish for 
the United States' allocation of giant bluefin tuna from New 
England through North Carolina, essentially, and our mission 
is, we sponsor a lot of independent science to determine the 
status of the resource. We initiated the electronic pop-up 
satellite tag program to determine where these fish are 
migrating to, and we've been involved in a lot of other 
regional research.
    Senator Lautenberg. I take it from your comments that as 
far as your associates are concerned, it is let's go fishing, 
and there's plenty out there for us, and not to worry about it. 
Do I characterize your view correctly?
    Mr. Ruais. No, Senator, and I apologize, and I'm a bit at a 
loss to see where the disconnect--I'm sure it's my fault.
    Senator Lautenberg. Well, the disconnect is that you are 
very critical of Dr. Myers' report, and our other friends here 
talk about declining stocks. I see it in a relatively 
nonscientific way, as I mentioned earlier. I go to some of the 
fishing ports along the New Jersey and New England coast, and 
hear seasoned fishermen complain about how far out they've got 
to go before they can strike a reasonable harvest--even to 
places they thought might produce some decent quantities, they 
come back with far less.
    So I'm taking what real people who make a living that way 
tell me. They relay that there isn't enough out there, and then 
I see Dr. Myers' report. By the way, Dr. Myers, do you go 
through peer review before you're released to publication?
    Dr. Myers. The journal, Nature, is the most difficult 
journal to get a paper in, and plus, this study was taken from 
10 years and has been criticized by probably 100 scientists. 
Not all agree with me, but I've duplicated all of the analysis 
multiple ways.
    Senator Lautenberg. Do you have any scientists that agree 
with you?
    Dr. Myers. Oh, I would say the great majority of scientists 
agree with me, and there's virtually no disagreement about the 
groundfish stocks. I mean, no one really disagrees. The only 
disagreement is about whether the tunas of the world are one-
tenth of what they were, or one-twentieth what they were, or 
one-third of what they were, but that's the level of 
disagreement.
    Senator Lautenberg. Mr. Ruais, do you agree that there's a 
decline in the amount of tuna out there, or is it just the same 
that it's always been?
    Mr. Ruais. Yes, Senator, I do think that I acknowledge that 
we realize that there remain some very critical problem areas, 
species that have not yet been addressed by ICCAT or other 
international fora.
    In terms of Dr. Myers' work, I think it's too early for one 
to make a broad conclusion that most of the scientists out 
there agree with the methodology that he used. There is some 
very significant criticism very early on. It takes a while for 
the scientists to gear up and respond, but it will be coming 
online, but we don't try to deny that we have problems, and 
what we're looking for, we're very aggressive in pursuing 
Commerce Department and State to try to give us the tools for 
the U.S. commissioners to get the job done at ICCAT, and if you 
sense some frustration in my own testimony, and some anger and 
disappointment, it's because fishermen----
    Senator Lautenberg. I sense all of those, yes.
    [Laughter.]
    Mr. Ruais. OK, well, that's because they're real, Senator, 
because the industry----
    Senator Lautenberg. Well, I'm going to interrupt you and 
ask Ms. Speer and Dr. Sullivan, where do you come out in this 
little debate that we've had with these two--is the science 
questionable that Dr. Myers is producing, is following? Do you 
sense that Mr. Ruais is much closer to the reality? Do you have 
views on that?
    Ms. Speer. Again, I think as Dr. Myers pointed out, the 
journal, Nature, is one of the best, if not the best and the 
most highly respected scientific journal in the world.
    Senator Lautenberg. Says who?
    Ms. Speer. Says many different scientists. If you poll 
scientists, I think you would find that answer is pretty 
consistent.
    Senator Lautenberg. Dr. Sullivan, do you agree?
    Dr. Sullivan. Yes, Nature's a good journal.
    [Laughter.]
    Senator Lautenberg. OK. Somebody's out of step.
    Ms. Speer. The review process that these poor guys have to 
go through is pretty tough before this thing can actually 
appear, but it's more than that. It's not just Dr. Myers' 
study. It's studies by Dr. Pauli, it's studies by the National 
Academy of Sciences, it's studies by the National Marine 
Fisheries Service--I mean, the data is overwhelming. We have a 
problem.
    Senator Lautenberg. It comes to similar conclusions.
    Ms. Speer. And we need, what we really need is for the 
United States to step up on the world stage and take this issue 
on and really elevate it and move ahead on the issues we've 
talked about today: illegal and unregulated reporting, capacity 
issues, protecting hot spots of biodiversity like seamounts and 
deep sea corals.
    Senator Lautenberg. Dr. Sullivan.
    Dr. Sullivan. Thank you. I guess I would like to add a 
little balance. I mean, we're all kind of ganging up on the 
tuna guy.
    [Laughter.]
    Senator Lautenberg. He's got fairly broad shoulders.
    Dr. Sullivan. I think broadly there are problems. One of 
the things that I see that upsets me is, when we react to these 
things we seem to react broadly too, so for example, one of the 
things that happens with tuna in particular is, we work on 
dolphin-safe tuna. Most people, Joe Citizen, don't know that 
some tuna are associated with dolphins and some tuna are not 
associated with dolphins, and so when something hits the press 
that people fishing for tuna are endangering dolphins, what 
happens is, we just stop eating tuna, and it's not that simple. 
It's more complex than that.
    There are some fisherman--so when this happens there are 
entire fleets in the Pacific, tropical Pacific that go out of 
business that are actually doing ecologically, economically the 
right thing, and so I think my only caution with Dr. Myers' 
article is what I said before. It's a broadbrush picture, and 
he's really good at picking those kinds of things out, but when 
we go and say, should we fish on yellowfin tuna any more, we 
can't take the broad study and make an automatic demarcation as 
to what should happen with each of these individual species, so 
I think there is some cause--I mean, we can't just stop 
fishing. I mean, it's an important resource.
    Senator Lautenberg. But if you're saying that there are 
some species that are doing better than others, I mean, that's 
reasonable. The question is, are there more that are doing 
worse, and does it disturb the ecological chain? I know that 
cod are such a basic nutrient for people, especially off our 
Northeast corner and then to suddenly find these things that 
were so abundant and plentiful before not available--by the 
way, the blue marlin, is there a problem with blue marlin? How 
do you feel about the blue marlin, Dr. Ruais?
    Mr. Ruais. Well, I'm not a doctor. I'm not a scientist, 
Senator.
    Senator Lautenberg. I try to elevate you so you're 
competitive here.
    Mr. Ruais. Blue marlin is under ICCAT management right now. 
There are very strict limitations here in the United States on 
our recreational fisheries and on our commercial long-line 
fleet, which are totally prohibited from landing any marlin, 
and they're required to release alive as close to the boat as 
they can in the best shape possible.
    The trouble is, again, on the high seas we don't have that 
kind of cooperation with the high seas international actors 
that are playing here, and we have the pirate ship problem, and 
that's one of the suggestions we've made to this Committee, is 
to give the commissioners, Department of Commerce, press the 
Department of Commerce to use the multilateral authority that 
we have right now at ICCAT to use our marketplace to force 
those incentives to force the other countries to begin to 
cooperate.
    And if I could just finish up, Senator, in the question you 
had asked me before, why are we frustrated, there is a strong 
view across this country, whether it's in the Gulf of Mexico, 
the Pacific, or here, that U.S. fishermen across the board are 
doing more than anyone else leading the way to try to solve 
domestic and international fish problems, and then we're kind 
of blind-sided by studies like this that then get picked up by 
the Washington Times in the morning and you wake up to, by 
taking swordfish, tuna, and sharks off the menus and demanding 
that seafood restaurants provide sustainable seafood choices, 
this hurts the people who are making the main contributions to 
conserving these resources.
    Swordfish in the North Atlantic is completely rebuilt. In 
the South Atlantic it's operating at maximum sustainable yield. 
There's no reason to be scaring the public into telling them 
that they shouldn't be eating these seafoods.
    Senator Lautenberg. Well, is there any disagreement with 
that conclusion about the swordfish abundance?
    Dr. Myers. I mean, just from personal experience, I work 
with fishermen along Nova Scotia, and particularly the 
swordfish harpooners, and this is a great way to fish. You go 
out in a boat and you--you kill them yourself. You get big 
ones. This is the kind of fishing that's really great, and my 
friends that fish, you know, year after year, the large 
swordfish are gone.
    You know, how many people are harpooning for swordfish 
along Long Island any more, right in close to shore? None. How 
many people are harvesting swordfish by Maine? None, and the 
same with Nova Scotia, where I know the fishermen. These guys 
are great, and the idea that swordfish are recovered, in spite 
of what ICCAT says, my personal opinion is, it's simply 
ridiculous.
    But to agree with Mr. Ruais about the importance of getting 
the EU in particular in their environmentally self-righteous 
ways to act, even somewhat in a conservation management way, is 
really difficult. Their data is terrible. Their management and 
their data collection, there's almost no data collected on 
sensitive species like sharks, which is what the U.S. does 
really well.
    Senator Lautenberg. I want to ask one question to see if 
anybody knows, and I've overstayed my time, and I appreciate 
your patience, Mr. Chairman, and that is, do any of you have 
any indication of what the salmon population is in Alaska, 
Prince William Sound, and that area?
    Dr. Sullivan. It goes up and down, depending on whether the 
currents are going up into Alaska or going down. It switches 
back and forth between Alaska and the southern lower U.S.
    Senator Lautenberg. Was it damaged? Does it reflect damage 
that occurred with the Exxon Valdez at all, or is it way past 
that?
    Dr. Sullivan. No, I think environmentally that did not play 
a role there.
    Senator Lautenberg. Thank you.
    The Chairman. Thank you. Senator Sununu, and I'll go and 
vote and you can finish up.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    Let me try to find some common ground, and reiterate a 
couple of points that I heard that I think are pretty 
important.
    First, Senator Stevens noted that it is important that we 
recognize where we have had success domestically. I think it's 
fair to say that the United States has been very aggressive in 
establishing domestic plans for a number of species, and it is 
important that we recognize where we've been successful 
domestically, because that is going to be critical to us being 
effective in pushing for greater compliance internationally.
    I think that is an extremely important point, and I will 
come back to that with respect to ICCAT, and in that regard, if 
we are too vague and too broad and too sweeping in our 
conclusions or criticisms of our own industry, we will lose 
credibility. That doesn't mean that we haven't had failures as 
well as successes domestically, but if we do not recognize the 
domestic successes, we will not have credibility when we really 
need to push hard, whether it's through ICCAT or through the 
EU, or through other international treaties, to make a 
difference, and I think there is some consensus here as well 
that among the biggest problems we face, the biggest challenges 
we face are the international ones, and I don't think we can 
lose sight of that fact.
    Second, it seems to me that to the extent that there is 
concerns with this study in Nature--and let me stipulate that 
certainly at least for today Nature has joined Alan Greenspan 
on the pinnacle of hallowed ground----
    [Laughter.]
    Senator Sununu.--and reverence, and at least on Capitol 
Hill, and maybe appropriately so, but that doesn't mean that 
either Nature or Alan Greenspan aren't wrong once in a while, 
not that your study is wrong. It may be, it may not be, but 
these are good publications, and he's a good chairman of the 
Federal Reserve, and we like them both.
    [Laughter.]
    Senator Sununu. But it seems that if there's a concern 
here, it's that the study, as I understand it, and I haven't 
read the entire study, and I appreciate your testimony, but the 
study talks broadly about predatory species. It doesn't go into 
depth or draw specific conclusions about all of these predatory 
species, and there are some predatory species.
    We can talk about bluefins more, and I want to talk in 
detail about bluefins, but there are some species where we have 
these management plans in effect, and you can look at the NOAA 
data, and swordfish was mentioned, I think bluefin, bigeye--you 
know, I don't know what these fish look like exactly, but there 
are cases where we have management plans domestically, and some 
international cooperation, where we have either eliminated the 
overfishing status or begun rebuilding stocks, or if the 
testimony is correct, actually reached a rebuilt status for 
swordfish according to ICCAT.
    So I think the disconnect is, or the concern is that we not 
use a study looking at broad patterns of predatory fish to 
conclude that we have failed on all species of predatory fish. 
Fishermen, to the extent that I know them, and I don't know any 
of the big harpoon guys in Nova Scotia, but we have little guys 
who fish at the co-op in Portsmouth, New Hampshire, and they do 
work hard, but they target species. They're out there going for 
hake, they're out there going for cod, or they're fishing for 
shrimp in the wintertime. They're doing different things. 
They're targeting species, so they're not out there, I'm going 
out to get some predatory fish today.
    Therefore, we need to think in terms of targeted plans to 
strengthen specific stocks in specific areas, recognize the 
successes, and work on the failures, and I think if there's any 
place that there's a disconnect, I think that's where it is.
    Let me ask Mr. Ruais, talk a little bit more about the pop-
up tuna program, and this is important, because I think Dr. 
Sullivan made the comment, the scientists come up with answers, 
and maybe sometimes they're listened to, sometimes they're not, 
sometimes they're right, sometimes they're not. I think this is 
an area where for a pretty small amount of money, at least as 
far as Washington is concerned, $200,000, $300,000, two, three 
years ago, with great cooperation from fishermen who started 
this pop-up tuna program, could you describe it a little bit, 
and talk a little bit about some of the findings, because what 
little I've seen of the program I've found to be quite 
interesting.
    Mr. Ruais. Well, thank you, Senator Sununu, and thank you 
for all your support in years prior to make sure that those 
funds were available, and I was actually hoping you were going 
to continue, because you were doing such a great job of 
defining it, but in the 1980s, when scientists didn't have 
enough information on the migration patterns of bluefin tuna, 
an assumption was made back in 1981 that there were two stocks, 
and so ICCAT drew an arbitrary line down the middle of the 
Atlantic Ocean at 45 degrees and said, we'll manage the Western 
Atlantic under great restrictions, and we'll leave the Eastern 
Atlantic alone, and the assumption was that mixing was minimal.
    Fishermen knew that that was wrong, that we knew these fish 
went great distances. Conventional tagging told us that. There 
was an episode of 17 fish tagged off of Miami in the 1970s, and 
14 of them were recaptured in Norwegian purse seine fisheries 
50 days later, so we knew that they were capable, but nobody 
knew just exactly how extensive the migrations were, and the 
trouble with putting tags on the fish, regular tags on the fish 
is, you have get the tag back in order to know the completed 
journey.
    The beauty of pop-up satellite tags, electronic tags, is 
that they release at a predetermined time, pop up, float up to 
the surface, and then start sending the information to the Argo 
satellite, and you know exactly what's going on, and what this 
revealed from a fairly small study, as you mentioned, at the 
New England Aquarium is that anywhere from 30 to 55 percent of 
the bluefin in New England at any given time on Jeffreys Ledge, 
in the Gulf of Maine, swim across that line within a year of 
that tag being placed, and what that shows is that it truly is 
a shared management, a shared resource picture, and the U.S. 
can't do it alone, and it began to give managers, our ICCAT 
commissioners, some leverage to demand in the East that they 
begin conserving as well, because clearly we had an argument 
now that they were usurping the conservation gains.
    When we release the fish, when we're stopped because of 
quota, when we're stopped because of size limits and the fish 
swim across the line, if the fishery over there is not 
operating under the same conservation standard, then the 
conservation effort of U.S. fishermen is wasted, and that is 
the remarkable contribution that pop-up satellite tags have 
already done on bluefin, and now that story is being repeated 
on a number of other species as well.
    Senator Sununu. Dr. Myers, any comment about the study, or 
was it your hunch that the line was arbitrary?
    Dr. Myers. Well, it was very clear from the study that 
Mather carried out that my colleague referred to is that the 
bluefin tuna off the U.S. coast, particularly off of Florida, 
migrate into European waters, and it's also very clear that, 
and one motivation for this study is that those fish that we 
assessed are now largely gone. The Europeans eliminated the 
fish that swam from Florida waters, very clearly in the 1950s, 
into their waters. The great fisheries in the North Sea, there 
used to be huge flows----
    Senator Sununu. Wait, I'm sorry, if it was so clear that 
these fish were migrating in the 1950s, why was the assumption 
made by ICCAT that they didn't swim east to west, and that 
there wasn't migration between the Eastern Atlantic and the 
Western Atlantic?
    Dr. Myers. ICCAT is an imperfect organization. I mean, I 
think it was abundantly clear. There were very good studies 
carried out in the fifties and sixties, and also the fish 
tagged off of Florida migrated down--you see these red areas 
here? The Japanese eliminated the bluefin tuna in the South 
Atlantic, I mean, eliminated. They caught 200,000 in the first 
15 years of the fishery. With 80 million hooks in the last 15, 
they have caught exactly zero, so the fish that used to come 
and be available for U.S. fishermen are now gone in a way that 
I think that ICCAT grossly underestimate.
    Senator Sununu. So you think the New England Aquarium 
program was a waste of money?
    Dr. Myers. No, no, I didn't say that.
    Senator Sununu. I mean, it sounds like it was just 
verifying something that you believe was proven without doubt 
in the fifties and sixties.
    Dr. Myers. Well, I believe that the general patterns and 
the satellite pop-up tags programs in general carried out by 
the New England Aquarium and the Monterey Bay Aquarium have 
provided enormously useful additional information, because we 
only knew where they were caught, not where they went.
    Senator Sununu. Mr. Ruais, do you support Secretary Evans' 
effort to enforce, not to work with the EU, but to require the 
EU to enforce ICCAT and to do a better job with compliance, 
including eliminating the subsidies?
    Mr. Ruais. Yes, Senator. In fact, we've been begging for 
that assistance to the U.S. commissioners, because without that 
high level involvement, until highly migratory fish are made a 
large international issue like we've never seen before, we're 
not going to get the cooperation from these countries that we 
need, and the quickest way to get there is the trade sanction 
route. It's not the one we prefer, but you cannot enforce these 
things on the high seas.
    We heard the Admiral say that the EEZ is 3.3 million miles, 
ours alone. If you get out on the high seas, 94 percent of the 
world's surface is the oceans, and we certainly can't have 
Coast Guard vessels out there. The marketplace is the place to 
be.
    Senator Sununu. Ms. Speer, has your organization put out 
any specific recommendations to help force compliance for the 
EU? Have you worked with your organizations over in Europe to 
force compliance with ICCAT?
    Ms. Speer. We unfortunately are a domestic organization and 
so do not have offices over there.
    Senator Sununu. You don't talk to any of those other 
international groups concerned about fisheries or the 
environment?
    Ms. Speer. We do, in fact, and I think there are some very 
interesting options with respect to trade restrictions that are 
out there. The committee last year, Senator Kerry introduced 
some legislation that would permit, for example, the United 
States to prohibit the importation of fish that is caught in 
ways that are not consistent with international agreements to 
protect either fisheries or the marine environment. Those types 
of pieces of legislation domestically I think could really 
help.
    Can I just respond to one thing?
    Senator Sununu. Can you imagine a world where I said no?
    [Laughter.]
    Senator Sununu. Of course. Of course.
    Ms. Speer. I would like to just address a couple of things. 
One is, the lead by example, I completely agree with you. We 
need to go out there and put ourselves out there, and the 
measures we have taken, and many of them have been very 
painful, to restore fisheries. That said, we can't very well 
tell other nations to clean up their act if our own house is 
not in order, and I think that's the point.
    The point is, we need to work abroad, but we also need to 
work here so that we're setting an example that we can go to 
other places credibly and say, we've done this here, we've 
taken a lot of very serious and very difficult actions to 
restore our fisheries, and you need to do the same.
    Second, with respect to Nature at the pinnacle, Nature is 
at the pinnacle, but again it's not just Nature, it's Science, 
it's the National Academy of Sciences, it's the National Marine 
Fisheries.
    Senator Sununu. I don't disagree. I was just making the 
point that there's no need to quibble about the veracity of 
Nature. I was just surprised how many times we had used the 
word, Nature, and I don't disagree with you in the least.
    Ms. Speer. OK. The issue you raised about broad brush, and 
needing to look deeper than just the broad brush, is absolutely 
right, and as you said, when people go out off New England, 
when they go out to target a specific species, they're 
targeting a specific species. The problem is, they're using 
gear that doesn't target specific species. They're using long 
lines that are nonselective, and they catch a lot of other 
fish, including sharks, and the status of sharks is something 
of very great concern, as well as other fish, and so getting at 
the issues of gear I think are really important.
    Larry Crowder is coming out with an article in Science next 
month. 3.5 million hooks are set every night around the globe. 
60,000 leatherback turtles are caught each year in those long 
lines, a quarter of a million loggerheads, and these are 
collateral damage that is extremely important, and it's 
important to look beyond just the status of individual fish to 
what we're doing to the whole ecosystem.
    And last, on swordfish recovery, swordfish recovery is 
something that we are really proud of, because we made 
swordfish at NRDC a very important issue.
    The closures of nursery areas in the South Atlantic, and 
the reduction in quota that was adopted by ICCAT were 
absolutely essential to making sure that that stayed on track. 
That said, biomass, the recovery to the biomass levels that are 
considered healthy is only one measure. It's not just how big 
you are. It's what the population structure looks like, and 
most of the recovery is still concentrated in these little 
guys. We have to let them grow bigger and restore that whole 
population structure in order to have a healthy fishery, and I 
think that's one of the issues that Dr. Myers was trying to get 
at.
    Senator Sununu. Well, maybe I should just quit, because 
you've basically agreed with, you know, most of the things that 
I said, and that's always a good way to leave the hearing room. 
But with regard to the last point, I don't necessarily agree 
that you have to have the biggest and most ancient of fish in 
order to have a healthy, sustainable, manageable population in 
that you do need a certain distribution of age, that's spawning 
population in order to sustain that population, but you don't 
necessarily need--I don't know, how old does a bluefin tuna 
get, 30 years?
    Mr. Ruais. Close, yes, sir.
    Senator Sununu. You don't necessarily need 30- or 35- or 
40-year-old bluefin to have a healthy population.
    Now, we may decide we want to have 30- or 40-year-old 
bluefin. That may be our regulatory regime, but if you're 
looking at sustainable fisheries practices, just having a 
certain cohort of 35-year-old fish doesn't necessarily 
determine the health of the overall fishery.
    Now, maybe you're going to argue you just can't have a 
healthy fishery without 35-year-old bluefin. I don't know that 
I agree with that statement. I think biomass is important. It 
is important to have different cohorts spawning at different 
times, and you're probably going to tell me there's some sort 
of a cycle, like a 2-year, where they spawn and then don't 
spawn.
    In fact, that's true. I think the pop-up programs showed 
that, didn't it, that some spawning age fish don't go down to 
the gulf to spawn, they actually, for some reason during the 
spawning season they're up in the North Atlantic. Isn't that 
the case?
    Mr. Ruais. It is. In fact, they may be spawning somewhere 
else.
    Senator Sununu. Who knows? OK, enough about the personal 
habits of fish.
    [Laughter.]
    Senator Sununu. I just wanted to make that final point. 
It's in my power now to thank all the panelists. I think this 
is a very interesting discussion. I think we very much agree 
we've got a big international problem. We do have some 
successes domestically, and I'm sure the scientists are going 
to be out there on boats and talking to their friends in Nova 
Scotia to keep getting our Committee good information.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Mr. Chairman, thank you for holding this timely hearing on the very 
real problem of global overfishing and what it means for our marine 
environment and our economy. This Committee has a long bipartisan 
history of working together in to solve problems caused by unlimited 
and reckless fishing practices. Over its history, the leadership of 
this Committee, including Warren Magnuson, Ted Stevens, and John Kerry, 
have made lasting contributions to conservation of living marine 
resources both in the United States and on the high seas. In fact, it 
was overfishing by foreign fleets that brought this Committee together 
back in 1976 to pass the Fishery Conservation and Management Act, which 
extended U.S. management authority out to 200 miles, a full five years 
before President Reagan formally declared the 200 mile U.S. EEZ.
    In addition, many of our members have authored or championed 
efforts to curb deadly and wasteful fishing practices. These include 
resolutions to ban the use of large-scale high seas driftnets--
``curtains of death''--and this pressure ultimately resulted in the 
1991 United Nations ban on the use of such nets. Our members were also 
responsible for legislation that established the famous ``dolphin 
safe'' label, through which consumers ensure they are buying tuna that 
was not harvested using methods that harm or kill dolphins. And when 
U.S. law required our shrimp fishermen to use turtle excluder devices 
(TEDs), I wrote the 1990 law that reduced sea turtle mortalities in 
foreign shrimp trawl nets by ensuring shrimp imported into the U.S. was 
caught using TEDs.
    Most recently, the 1996 Sustainable Fisheries Act, authored by 
Senators Stevens and Kerry, and strongly supported by this Committee, 
set the gold standard for fishery management around the world. Sadly, 
the world has not yet followed, and everyone in the end will be paying 
the price. The recent press reports, including Dr. Myers' Nature study, 
tell us that we must be vigilant and take heed of what is happening out 
there. Since fish stocks roam from place to place, this global failure 
affects us. No matter what we do here at home, we see that fisheries 
around the world are declining if they are not managed responsibly. 
Well, I think all our witnesses have to concede that fisheries are not, 
in many cases, even being managed.
    Moreover, we need to look at whether we are telling consumers the 
whole truth: that as our appetite for seafood grows, we are driving 
practices that will bring us to the brink of economic and political 
disaster. Scientific reports have shown that landings from global 
fisheries have shifted in the last 45 years (particularly in the 
Northern Hemisphere) from large fish toward smaller invertebrates and 
plankton-eating fish. This phenomenon, known as ``fishing down the food 
web,'' is not sustainable in the long term. Both overfishing and 
fishing down the food chain threaten global food security. These fish 
are sold here in the U.S., and we don't even know where it's been, 
whether it's safe, and how it was harvested. This is basic information 
we have the right to know.
    We want to hear more about who's responsible, and how bad it is, 
but it's even more important to talk about the solutions that will get 
us some results. There's a real problem when our fishermen who do the 
right thing are going broke because they are undersold by imports that 
cost less because they don't comply with any of the same conservation, 
health or safety standards. I think the east coast governors got it 
right--we really have to show what we are made of in the trade world. 
The U.S. is the third largest importer of seafood,--$9.9 billion in 
2001. We should use that voice to hold other countries accountable for 
destructive practices that have impacts on our economy and health, 
especially countries who don't follow the very rules they put on paper.
    Now, there was a lot of opposition when the shrimp-turtle law went 
into effect, but we got it implemented and it is being used right now. 
I will bet my bottom dollar that having those requirements at the 
negotiating table help move the ball forward far more than the typical 
``meet and greet'' sessions that go on out there. We need more tools to 
ensure our law-abiding U.S. fishermen are on a level playing field with 
imports, so that U.S. consumers can be assured they are eating seafood 
that will be available for decades to come. I could go on at length 
also about the lack of inspection of imported seafood--but that is for 
another day. All I will say is that as a result of last year's Farm 
Bill, we'll finally have ``country of origin'' labeling for seafood. 
That's a victory for consumers, who can now ``Buy American,'' but it's 
only a start.
    I appreciate that many of our witnesses are holding up certain U.S. 
fisheries as examples of good management, giving us hope, rather than 
just telling us the ``sky is falling'' and heading on home thinking 
they've done their job. It's gratifying to hear that the Sustainable 
Fisheries Act has changed the course of U.S. fisheries management--even 
in some of the New England fisheries--which I know has not been an 
easy. But U.S. fishery management is not perfect and we have some more 
strides to make, so we also want suggestions for improving things here 
at home. We are doing a lot here in Congress to get NOAA more money for 
the science and management reforms that are needed to make sure we get 
this all done, and done right.
    I look forward to hearing about all of these issues from our 
experts.
    Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    The issues of global overfishing and insufficient international 
fishing management are vital to our nation, and especially to Hawaii, 
where fishermen compete with numerous Asian countries' fishermen for 
the marine resources needed for nourishment and economic growth. While 
stocks in the Pacific are generally thought to be in better shape than 
Atlantic stocks, the increased fishing takes from China, Japan, and 
other Asian countries are starting to cause concern.
    It is clear that many stocks internationally have been overfished, 
but I think it is inappropriate to make overarching statements that all 
the world's stocks are in peril. Within the United States Exclusive 
Economic Zone (EEZ) major efforts are underway to replenish diminished 
stocks, and there have been success stories. The National Oceanic and 
Atmospheric Administration announced in May of this year that four 
species were removed from the overfished list in 2002, and 70 other 
species that are overfished continue to recover under Federal 
rebuilding plans. While our management regime is not perfect, we should 
take pride in the broad efforts of researchers and fishermen. Everyone 
involved with these issues is working very hard to rebuild depleted 
stocks and sustainably manage all stocks.
    The major challenge to U.S. marine fisheries management and key 
frustration of U.S. fishermen is that U.S. fishing fleets are 
restricted--and in some cases, prohibited--from fishing on the high 
seas while foreign fleets are able to continue unimpeded. These 
restrictions force the costs of compliance with U.S. law upon our 
domestic fishermen, allowing foreign fleets to out-compete them with 
cheaper products harvested using ecologically damaging fishing 
practices. For example, in Hawaii, our longline fishing fleet is barred 
from harvesting the healthy swordfish stock on the high seas as a 
result of a judicial decision citing concern over interactions with 
endangered sea turtles. However, the larger longline fleets from other 
nations have continued to fish those same stock without protective 
measures, and so the restrictions from our domestic law have benefitted 
neither the sea turtles nor the U.S. fishermen.
    As the U.S. fishery management regulatory regime becomes more 
stringent due to the conservation-focused approach we have adopted, the 
failure of other nations to adopt similar measures will have growing 
economic and conservation implications to world oceans and fish stocks. 
We must address this problem before all the world's stocks are truly 
over-exploited.
                                 ______
                                 
     Prepared Statement of Hon. Ron Wyden, U.S. Senator from Oregon

    Mr. Chairman, if this committee takes just one thing away from the 
doom-and-gloom fish stories of the past few days, it should be this. 
Fishery management in this country has to move, right now, from 
exploitation mode to sustainability mode. Otherwise, the losses this 
Committee is hearing about today will become irreversible.
    In my home state of Oregon, I've seen poor management of the 
groundfish fishery damage fish stocks and hurt coastal communities. 
But, this year, I have also seen sustainable fishing reap the third 
highest landings ever in our Dungeness crab fishery. I'm convinced 
today that fresh, new approaches to fishery management can remedy the 
mistakes of the past and help create stronger, more sustainable oceans 
and fishing communities.
    My colleague Senator Smith and I have already won bipartisan 
approval for one new idea: an industry-financed buyback to help those 
who want to leave the crowded West Coast groundfish fishery do so, 
leaving a more sustainable fishery for those who remain. Now, along 
with Senator Murray, we have introduced the Capital Construction Fund 
Qualified Withdrawal Act of 2003. That proposal would let fishers use 
money they've saved to work on their vessels, use it instead to retire 
or to fish in a more sustainable way.
    M. Chairman, the United States can lead the world by example in 
fixing the fishery crisis. America is coming up with new ways, every 
day, to make the situation better. It's the job of this Committee, and 
of this Congress, to facilitate the bold efforts necessary to make 
America's fisheries live again.
Update on Current Wyden Fisheries Initiatives
West Coast Groundfish Capacity Reduction (a.k.a. Buyback) Program

  <bullet> NOAA fisheries [formally National Marine Fisheries Service 
        (NMFS)] published the proposed rules for the buyback program on 
        May 28, 2003.

  <bullet> After a 30 day comment period, NOAA fisheries will review 
        the comments and publish the final regulations.

  <bullet> Bids for fishing permits will then be accepted by NOAA 
        fisheries and the number of permits and vessels that will be 
        removed from the fishery using the $46 million available to the 
        buyback will be determined.

  <bullet> A referendum needing a simple majority to pass will be held 
        where fishers will vote to decide if the buyback should be 
        completed.
Capital Construction Fund (CCF) Qualified Withdrawal Act of 2003 (S. 
        1193)

  <bullet> A CCF is an account were fishers can deposit profits tax 
        free provided the money is only used to replace or upgrade 
        their vessel in the future.

  <bullet> The CCF was conceived at a time when the Federal Government 
        wanted to help expand American fishing fleets. Fish populations 
        have declined and many fisheries are now over-capitalized.

  <bullet> This bill changes current law to allow fishers to remove 
        money from their CCF for purposes other than increasing fishing 
        capacity such as contributing to an IRA, paying the industry 
        fee associated with a buyback program, acquiring a vessel 
        monitoring system, or the purchase or construction of bycatch 
        reduction gear.

  <bullet> The bill is supported by the environmental community (e.g., 
        National Resource Defense Council) and the fishing industry 
        (e.g., Fisherman's Marketing Association and OR Trawl 
        Commission) and has bipartisan support (co-sponsored by Sen. 
        Smith and Sen. Murray).
                                 ______
                                 
          International Coalition of Fisheries Associations
                                                      June 11, 2003
    Dear Members of the Senate Committee on Commerce, Science, and 
Transportation:

    I am writing to you in anticipation of the June 12, 2003 hearing of 
the Senate Committee on Commerce, Science and Transportation regarding 
the status of global fishery resources. I am the Executive Secretariat 
of the International Coalition of Fisheries Associations (ICFA), a non-
governmental organization of 22 national commercial fish and seafood 
trade associations from the leading fishing nations of the world.
    ICFA is committed to the long-term sustainable use of living marine 
resources. ICFA believes that sustainable fisheries make an important 
contribution to global food security and supports robust fishery 
conservation and management systems based on sound science.
    ICFA is concerned that a recently released scientific paper 
published by Drs. Myers and Worm in the magazine Nature declaring 
drastic overfishing of global fishery resources by commercial fishing 
has received undue attention as part of an aggressive campaign against 
commercial fishing by the Pew Charitable Trusts. It is important for 
you to know that government fisheries scientists and managers all over 
the world have severely criticized the assumptions, methods, and 
conclusions of the Myers & Worm paper. Many have stated that there are 
serious flaws in the claims, and those claims are deliberately 
misleading the public. Scientists concerned about this are preparing 
detailed scientific critiques of recent claims and are seeking 
scientific publication. In fact, the attached letter to the editor of 
Nature magazine from six such scientists, whose work is acknowledged in 
the Myers & Worm paper, makes the point that the Myers and Worm 
analysis contributes nothing towards good fisheries management or the 
understanding of the world fishery stock status.
    The Myers and Worm paper is simply not supported by a larger 
analysis of fisheries information. The United Nations Food and 
Agriculture Organization (FAO), the premier international authority on 
fisheries reports that most of the world's fisheries (72 percent) are 
healthy. ICFA wants this figure to be 100 percent and recognizes that 
some fish stocks do need to be re-built. But this problem needs to be 
kept in perspective, not sensationalized.
    Fishery managers from international management bodies and countries 
all around the world are scratching their heads at the conclusions of 
the Myers and Worm paper when the fisheries under their jurisdiction 
are being sustainably managed, whether it be the rebuilt North Atlantic 
swordfish population under the International Commission of the 
Conservation of Atlantic Tunas (ICCAT) or the sustainable management of 
tunas in the Eastern Tropical Pacific by the Inter-American Tropical 
Tuna Commission (IATTC).
    It is important to note that almost all pelagic fish--as well as 
fishing methods--are subject to international management regimes that 
include virtually all fishing nations, the best fisheries scientists, 
and important stakeholders such as fishermen and environmental groups. 
Considerable effort is invested by all of these players to ensure that 
the fisheries are healthy. These international management regimes are 
increasingly robust and are committed to long-term sustainable use of 
fishery resources. Where management regimes are lacking, international 
discussions are underway to develop appropriate new organizations and 
agreements. ICFA encourages the Committee to solicit input from these 
international conservation and management organizations in order to 
obtain an objective understanding of the situation.
    Such an objective look at the situation with respect to the 
conservation status of pelagic species around the world will show that 
nearly all stocks of tuna are in a healthy condition. The only 
exceptions are bluefin tuna stocks, and these are very strictly 
regulated and recovering. Swordfish stocks and most stocks of billfish 
and sharks are also not overfished, although more scientific 
information is needed regarding the status of some species.
    It is well-known to fishery scientists that virgin fish stocks will 
decline when they are fished, even significantly. The point of good 
conservation practice is to be able to fish the stocks at a sustainable 
level. The maximum sustainable yield--the maximum catch that can safely 
be taken from a stock year after year--occurs at about 30-40 percent of 
the unexploited population size. This conservation standard is accepted 
around the world and is reflected in virtually all strong conservation 
treaties, including the United Nations Convention on the Law of the 
Sea.
    Myers and Worm lament the declining catches of giant fish--but from 
the point of view of good fisheries conservation the issue is the 
health and viability of the fish population. In fact, it is accepted by 
fisheries scientists that in most fisheries it is preferable to target 
large fish that have already reproduced and therefore contributed to 
the future population. Most conservation problems arise from catching 
too many juvenile fish before they have reached sexual maturity.
    The FAO has developed a Code of Conduct for Responsible Fisheries 
adopted by all FAO member nations, as well as International Plans of 
Action to tackle many of the issues confronting nations striving to 
achieve good fisheries management. The FAO now has international 
commitments on plans to eliminate illegal, unregulated and unreported 
fishing activities, manage over capacity in fishing fleets, reduce the 
incidental catch of sea birds, and conserve and manage sharks.
    The efforts of the Pew Charitable Trusts unreasonably deny the 
principle of sustainable use that has been agreed to by all United 
Nations member countries. The world faces a very real challenge of 
continuously increasing human populations and the need to secure enough 
food for the people of present and future generations. The United 
Nation's 1995 Kyoto declaration and plan of action on the sustainable 
contribution of fisheries to food security describes that challenge. 
The campaign now underway denies the needs of human beings to secure 
sustainable sources of food from the sea.
    Conservation and management of fish and matters related to marine 
resources should be dealt with by UN FAO, Regional Fisheries Management 
Organizations, and government fisheries management authorities that 
have expertise and scientific knowledge. They have the technical 
capacity to ensure that sound, scientifically based, fair and 
reasonable decisions on fisheries management are made. The knowledge 
and experience of fishermen is an essential ingredient for management 
decisions by those institutions. Fishermen depend on sustainable 
fisheries and oceans. They fully recognize the need to safeguard 
sustainable fish stocks and the marine environment for the maintenance 
of their livelihoods. Fishermen have no interest in depleting fish 
stocks--their long-term futures will only be assured by uniting with 
management agencies to ensure that sustainable fisheries are achieved.
    ICFA is committed to working with all parties genuinely interested 
in the sustainable management of fishery resources to contribute to 
global food security. ICFA appreciates the opportunity to submit these 
comments to the Committee. To learn more about ICFA, contact 
www.icfa.net.
    Thank you.
            Sincerely,
                                            Justin LeBlanc,
                                             Executive Secretariat.
                               Attachment
                  Comision Interamericana del Atun Tropical
                    Inter-American Tropical Tuna Commission
                                          La Jolla, CA, 29 May 2003
                                                  Ref: 0396

The Editor
Nature
Washington, DC.

Dear Sir/Madam,

    The article by Myers and Worm ``Rapid worldwide depletion of 
predatory fish communities'' is disappointing because it does not give 
us the answers that we need to manage tuna and billfish populations. 
There are several questions that need to be answered before any 
conclusions can be made about the effect of declines in large pelagic 
predators: (1) has the catch per unit of effort (CPUE) declined 
substantially, (2) is the CPUE proportional to abundance, (3) what 
portion of the abundance is represented by CPUE, (4) what effect does 
the decline have on the species, (5) what effect does the combination 
of declines in all large pelagic species have on the ecosystem?
    Myers and Worm have answered the first question, a trivial point, 
as it is generally recognized by fishery scientists that CPUE often 
substantially decreases in the initial phases of a fishery, especially 
for tuna longline fisheries. A substantial decrease is required based 
on currently accepted sustainable fisheries management practices 
(maximum sustainable yields occur at about 30-40 percent of the 
unexploited population size, with 40 percent chosen by many management 
agencies as a precautionary measure). It is also commonly believed that 
during this initial period of exploitation, CPUE decreases more rapidly 
than abundance. This is supported by the fact that the large declines 
during periods of often low catches and the recent large catches taken 
from populations at low CPUE levels are inconsistent with realistic 
population dynamics. In fact, if Myers and Worm plotted the catches on 
their Figure 1, much of the substance of their argument would 
disappear. In addition, catches and population abundance have been 
sustainable over several decades for many of the populations, 
corroborating current assessments of stock status.
    Myers and Worm have not increased our understanding of world 
fishery stock status. They have only sensationalized the declines in 
CPUE (in many cases using unrepresentative selections of species and 
spatial strata). At best, they have motivated stock assessment 
scientists to focus more on exploring the reasons behind the large 
declines in CPUE in the initial stages of exploitation. Unfortunately, 
Myers and Worm did not provide us any insight into this problem. We 
still need to reconcile the inconsistency between CPUE, catch, and our 
understanding of population dynamics (see http://www.soest.hawaii.edu/
PFRP/ for more details about various hypotheses). As indicated by Myers 
and Worm, we also need to investigate the consequence of declines in 
groups of species, rather than just focusing on the species themselves. 
For example, what is the consequence to the ecosystem if we exploit all 
commercially-important species at their maximum sustainable yield 
levels? This is an important point that is fully recognized and 
increasingly studied by tuna scientists.
            Sincerely,
                                              Mark Maunder,
                                                  Senior Scientist,
                               Inter-American Tropical Tuna Commission.

                                               John Sibert,
                       Manager, Pelagic Fisheries Research Program,
                                         University of Hawaii at Manoa.

                                           Alain Fonteneau,
                                                         Scientist,
                    French Institut de Recherches pour le Developpment.

                                              John Hampton,
                                Manager, Oceanic Fisheries Program,
                                  Secretariat of the Pacific Community.

                                            Pierre Kleiber,
                                                 Fishery Biologist,
                                   NOAA Fisheries--Honolulu Laboratory.

                                            Shelton Harley,
                                                  Senior Scientist,
                               Inter-American Tropical Tuna Commission.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John McCain to 
                          Hon. John F. Turner

    Question. Law of the Sea--Does the Administration support Senate 
ratification of the United Nations Convention on the Law of the Sea?
    Answer. In 2001, the Administration publicly announced its support 
for U.S. accession to the United Nations Convention on the Law of the 
Sea (UNCLOS). The Administration's position has not changed.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                          Rebecca Lent, Ph.D.

    Question 1. International Agreements on Sea Turtles--For the past 
three years, we've included report language in the CJS Appropriations 
bill that directs the State Department to negotiate strong 
international agreements to protect sea turtles. This is important, 
since U.S. fishermen have to comply with the Endangered Species Act--
wherever they fish. What has the Administration done to carry out this 
direction? Why haven't more efforts been placed on binding agreements, 
especially with countries in the Pacific Rim?
    Answer. The Administration developed a formal Course of Action 
under Section 202(h) of the Magnuson-Stevens Fishery Conservation and 
Management Act for addressing the bycatch of sea turtles in foreign 
longline fisheries and provided it in the National Marine Fisheries 
Service's (NOAA Fisheries) June 2001 Annual Report to Congress on 
International Bycatch Reduction Agreements (attached). The Course of 
Action includes working through all available Regional Fisheries 
Management Organizations, the United Nations Food and Agriculture 
Organization (FAO) Committee on Fisheries (COFI), as well as new and 
established bilateral fisheries agreements and forums.
    We have been actively working to implement this strategy and engage 
other nations that participate in global longlining in focused 
discussions of the sea turtle bycatch problem. NOAA Fisheries convened 
a technical expert workshop in February 2003 that brought together 
participants from 19 countries and four intergovernmental 
organizations. The goal of the workshop was to discuss and develop 
recommended actions to address global incidental capture of sea turtles 
in longline fisheries with the hope that the implementation of these 
actions, where applicable, might reduce this particular threat.
    One of the highest priority actions resulting from this meeting was 
a call for FAO to convene an intergovernmental technical consultation 
to address the issue of marine turtle bycatch in longline fisheries. 
The Committee on Fisheries met in Rome, Italy, in February 2003 and 
agreed to hold such a consultation in 2004. NOAA Fisheries is actively 
working to ensure a robust examination of the problem and potential 
solutions at the upcoming Technical Consultation. In addition, we have 
raised the serious issue of bycatch of sea turtles in longline 
fisheries at a number of international fisheries meetings that have 
been held over the past several years. We have discussed the matter and 
called for increased cooperation and focused efforts on reducing 
bycatch in discussions with Chile, as well as regional fishery 
management organization forums including the International Commission 
for the Conservation of Atlantic Tunas (ICCAT) and the Inter-American 
Tropical Tuna Commission.
    Of particular note are NOAA Fisheries directed research efforts to 
develop gear solutions that will significantly reduce or eliminate 
incidental capture of sea turtles, while retaining target species catch 
levels. NOAA Fisheries sponsored research in the northwest and eastern 
Atlantic is producing extremely promising results showing that the use 
of certain hook designs and usage of particular baits and baiting 
techniques can significantly reduce the bycatch of certain species of 
turtles. We are extremely hopeful that once these experiments are 
completed and fully peer reviewed that we can take the results and 
recommendations, with confidence, to the international longline fishing 
community and champion their global adoption.
    Important multi-lateral agreements also exist that are specifically 
focused on sea turtle conservation. These include the Inter-American 
Convention for the Conservation and Protection of Sea Turtles (open for 
accession to all western hemisphere nations) and the Memorandum of 
Understanding for the Conservation and Management of Marine Turtle and 
their Habitats of the Indian Ocean and Southeast Asia. While the former 
is binding and the latter is non-binding, both provide forums for 
seeking agreements on reducing bycatch of sea turtles in longline 
fisheries. Both agreements are in their early stages of implementation, 
but we see promise in working through these agreements to achieve 
desired results on this front.

    Question 1a. What information do we have about the impacts of 
foreign fishing fleets on sea turtles? Aren't many turtles that migrate 
to U.S. waters or to high seas fisheries used by U.S. fishermen 
impacted by foreign fishing fleets, for example, in the very waters of 
the Pacific where the Hawaiian longline fishing fleet is banned from 
fishing due to U.S. conservation laws?

    Question 1b. What kinds of other incentives, or disincentives, is 
the Administration offering to bring these countries to the table? What 
about trade measures?
    Answer. Global incidental capture levels of sea turtles in all 
foreign fishing fleets are not available, as many fisheries are not 
observed or are insufficiently observed to generate highly reliable 
capture rates. However, we believe that the cumulative global bycatch 
of sea turtles in the world's foreign fishing fleets (including all 
fishing gear that catches sea turtles) is having a significant impact 
on sea turtle populations. Sea turtles are highly migratory and these 
migrations (reproductive and developmental) may take them through 
international waters as well as the waters of many nations during their 
lifetime. Whenever longlining or other problematic fishing gear for 
turtles is deployed in areas inhabited by turtles, the potential for 
incidental capture exists. For these reasons, NOAA Fisheries is seeking 
solutions to reduce this bycatch. We are working diligently through all 
available channels to elevate this dialogue internationally and, 
through gear research, are hopeful that a technological solution will 
be found. We believe that technological solutions will sell themselves 
because employing an effective means of avoiding sea turtle-fisheries 
interactions would seem to be in everyone's interests. While the turtle 
excluder device (TED) trade measures have been shown to be effective in 
providing an incentive to adopt turtle safe gear, the Administration is 
not proposing such an approach for imports of longline caught seafood.

    Question 2. Shark Finning--What have we done?--Three years ago, we 
passed the Shark Finning Prohibition Act, which banned shark finning by 
U.S. fishermen. The final bill included language requiring the State 
Department to identify nations responsible for shark finning, and 
immediately start negotiations to go about banning this practice 
worldwide.

    Question 2a. We explicitly asked for a list of nations engaged in 
shark finning, but I don't see anything on this in Secretary Evans' 
report. Do we have this information?

    Question 2b. Secretary Evans' report to Congress under the Shark 
Finning Prohibition Act states that annually the U.S. imported shark 
fins from at least 10 nations. Are any of these nations actually 
involved in shark finning?

    Question 2c. What is the primary fishing method--longlining?

    Question 2d. In 1999 FAO adopted an ``International Plan of 
Action'' on sharks. But four years later, how close are we to banning 
the practice of shark finning--or preventing shark declines--
internationally?

    Question 2e. What kind of impact does a U.S.-only shark finning ban 
have on the future of shark populations worldwide?
    Answer. As required by Sec. 6 of the Shark Finning Prohibition Act 
(Act), the Department of Commerce has submitted annual reports 
describing efforts to carry out the Act, the first in February 2002 and 
the most recent in December 2002. We are currently preparing the report 
that is due on January 1, 2004.
    The Administration is committed to managing sharks on a sustainable 
basis in waters under our jurisdiction and to achieving the same goal 
internationally. Only a part of this concern is addressed by 
prohibiting shark finning, which we have done domestically, consistent 
with Sec. 3 of the Act. This is why we strongly supported the 
development in 1999 of the Food and Agriculture Organization's 
International Plan of Action for the Conservation and Management of 
Sharks (IPOA) and completed our corresponding U.S. National Plan of 
Action in early 2001.
    We have not been able to compile a reliable list of flag states 
whose vessels engage in shark finning, in large part because there is 
no single, official source for relevant data. It is probably true that 
a significant amount of shark finning, but by no means all, occurs in 
conjunction with longline fishing on the high seas. This is where most 
public attention is focused. However, the provisions of the Act 
relating to waters beyond U.S. jurisdiction are not limited to high 
seas areas, nor are they limited to longline fishing gear. It is likely 
that shark finning occurs within the jurisdictions of other countries 
and in conjunction with fishing gears other than longlines. Thus, it is 
a formidable task to determine with high confidence the incidence of 
shark finning in waters beyond our jurisdiction. Therefore, we are 
carrying out this task with appropriate care, given the implications 
set forth in Sec. 5 of the Act, that our information is accurate and 
reliable. Also, due to the complexity of the shark fin trade, fins are 
not necessarily produced by vessels of the country from which they are 
exported. Factors such as availability of product, labor, markets, 
degree of processing, overseas contacts and astute trading can all play 
a role in determining the country of export.
    There is no recognized international standard discouraging or 
prohibiting the finning of sharks, although, as indicated in the 
Department of Commerce's annual reports to Congress, we are striving to 
create one. With the direction and support provided by the Committee 
and the Congress, such a standard is beginning to emerge. The following 
countries and the European Union have adopted domestic measures that 
address shark finning in an effort to prohibit the practice: Australia, 
Brazil, Canada, Costa Rica, India, Nicaragua, Oman, and South Africa. 
In the case of Nicaragua, U.S. officials consulted regularly with 
authorities in Managua in drafting anti-finning legislation, and their 
final law is nearly identical to that of the United States. Mexico is 
in the process of developing comprehensive shark fishing regulations 
that may prohibit shark finning.
    There is a misconception that the IPOA provides for explicit 
prohibition of this practice-it does not. The relevant provision, in 
Paragraph 22 of that document, says that National Plans of Action 
``should aim to . . . minimize waste and discards from shark catches in 
accordance with article 7.2.2.(g) of the Code of Conduct for 
Responsible Fisheries (for example, requiring the retention of sharks 
from which fins are removed. . . .'' This language encourages full 
utilization and avoidance of wastage. Other provisions collectively 
call for the sustainable conservation and management of sharks, a 
standard to which we fully subscribe and the overarching reason we 
continue to encourage at every opportunity the development of National 
Plans of Action by nations that have not yet developed them and the 
full implementation of this generic standard as well as a prohibition 
on shark finning at the national, regional, and global levels.
    In addition, NOAA Fisheries has worked closely with partners in the 
U.S. Fish and Wildlife Service and the State Department to promote 
shark conservation in the Convention on International Trade in 
Endangered Species (CITES). This has included successful efforts to 
regulate international trade in the world's two largest sharks (basking 
shark and whale shark) and promote greater communication between FAO 
and CITES on the IPOA-Sharks implementation.
    The impact of the U.S. only shark finning ban on the future of 
shark populations worldwide is expected to be positive to the extent 
that other countries are joining the effort to ban shark finning (e.g., 
European Union, Brazil, Australia, Canada, Costa Rica, India, South 
Africa, and others).

    Question 3. Import Certification Scheme--U.S. fishermen are subject 
to all U.S. fishing laws in high seas areas, as well as the 
conservation requirements of the Marine Mammal Protection Act and the 
Endangered Species Act, even though they are fishing beyond the U.S. 
EEZ. Thus, U.S. fishermen are at a harvesting disadvantage as compared 
with largely unregulated high seas fleets, which are often not subject 
to harvest limits or required to minimize bycatch. At the same time, 
many countries are parties to international agreements and guidelines 
but are not effectively enforcing them with respect to their fishing 
fleets.
    Wouldn't it be a good first step to adopt an import certification 
program, modeled on our shrimp-turtle law, that requires imports to be 
harvested in compliance with applicable international fishing 
agreements and guidelines? This is actually far less than we did in the 
shrimp-turtle law, that required imports to meet turtle protection 
standards comparable to U.S. laws.
    Since so few strong international agreements have been reached that 
require countries to protect marine mammals and turtles from 
interactions with various types of fishing gear, what if we did a 
certification program just like the shrimp-turtle approach, but for all 
protected species and for all types of fisheries, and require that you 
can only export to the U.S. if you are in compliance with standards 
comparable to U.S. law?
    Answer. If an international standard regarding conservation of 
marine mammals and other species were developed, it is possible that a 
workable import certification scheme could be constructed with 
assistance from other countries. The Catch Documentation Scheme for 
Patagonian toothfish of the Commission for the Conservation of 
Antarctic Marine Living Resources (CCAMLR) is a perfect example, which 
thus far has not been the subject of any complaints taken to the World 
Trade Organization by any of the members. However, it should be noted 
that U.S. industry has expressed concerns over the recent proliferation 
of different fishery product import certificates which confuse customs 
authorities worldwide and complicate day-to-day operations.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                          Hon. John F. Turner

    Question 1. International Agreements on Sea Turtles--For the past 
three years, we've included report language in the CJS Appropriations 
bill that directs the State Department to negotiate strong 
international agreements to protect sea turtles. This is important, 
since U.S. fishermen have to comply with the Endangered Species Act--
wherever they fish. What has the Administration done to carry out this 
direction? Why haven't more efforts been placed on binding agreements, 
especially with countries in the Pacific Rim?

    Question 1a. What information do we have about the impacts of 
foreign fishing fleets on sea turtles? Aren't many turtles that migrate 
to U.S. waters or to high seas fisheries used by U.S. fishermen 
impacted by foreign fishing fleets, for example, in the very waters of 
the Pacific where the Hawaiian long-line fishing fleet is banned from 
fishing due to U.S. conservation laws?

    Question 1b. What kinds of other incentives, or disincentives, is 
the Administration offering to bring these countries to the table? What 
about trade measures?
    Answer. The Administration has made the issue of sea turtle 
conservation at the international level a high priority. We actively 
administer and enforce Public Law 101-162, relating to use of turtle 
excluder devices by shrimp trawl fleets in countries exporting shrimp 
to the United States. We are working to give full effect to the Inter-
American Sea Turtle Convention, a legally binding agreement focused on 
the wide range of issues affecting sea turtle populations in the 
western hemisphere. We are working to implement the Indian Ocean and 
Southeast Asia sea turtle MOU to address sea turtle conservation 
throughout that region. We are working through regional fisheries 
management organizations (RFMOs) to address issues related to 
incidental capture of sea turtles in commercial fisheries. For example, 
the Inter-American Tropical Tuna Commission (IATTC) has adopted 
measures to reduce incidental capture and mortality of sea turtles in 
purse-seine fisheries. The IATTC is considering additional measures for 
purse-seine fisheries and is in the initial stages of considering steps 
to address such incidental capture in longline fisheries.
    More can and must be done. Recently, considerable effort and 
resources have been devoted to incidental capture in longline 
fisheries, in both the Pacific and Atlantic Oceans. Before seeking to 
enter into negotiations for new legally binding agreements, however, we 
have some additional groundwork to do and we are actively engaged in 
that work. First, we need additional data on sea turtle bycatch. We 
need to know more about when and where sea turtle bycatch occurs 
geographically, seasonally, and within the water column (at what 
depth). Second, we need to work to develop further the gear 
modifications and fishing strategies that have been tested with very 
promising, but as yet inconclusive, results. Together, these efforts 
are critical to developing targeted solutions that will be technically 
feasible and result in real and permanent progress in reducing sea 
turtle mortality.
    In our view, the prospect of trade measures is of limited 
effectiveness because, unlike with shrimp trawl fleets, the United 
States is not the principal market for the fish caught by these 
longline fleets. Closing markets might send an effective political 
message, but the real and permanent progress we seek in reducing 
incidental mortality can only be advanced with the cooperation and 
participation of the fishing states with fleets engaged in longline 
fishing in the Pacific.
    Through our efforts over the past year we have been building that 
support, with notable success. In February, the FAO Committee on 
Fisheries adopted a proposal, co-sponsored by the United States, to 
convene a policy-level meeting to address sea turtle mortality in 
commercial fisheries, with a particular emphasis on the problem of 
longline bycatch. We are currently working with the FAO and with these 
fishing states to ensure that this meeting is successful and achieves 
tangible results. In addition, we should and will seek to identify, as 
a matter of priority, interim measures that can be implemented in the 
short term to reduce incidental mortality. We will also continue 
working within the various fisheries organization to advance this issue 
on as many parallel tracks as possible.

    Question 2. Shark Finning--What Have We Done?--Three years ago, we 
passed the Shark Finning Prohibition Act, which banned shark finning by 
U.S. fishermen. The final bill included language requiring the State 
Department to identify nations responsible for shark finning, and 
immediately start negotiations to go about banning this practice 
worldwide. We explicitly asked for a list of nations engaged in shark 
finning, but I don't see anything on this in Secretary Evans' report. 
Do we have this information?

    Question 2a. Secretary Evans' report to Congress under the Shark 
Finning Prohibition Act states that annually the U.S. imported shark 
fins from at least 10 nations. Are any of these nations actually 
involved in shark-finning?

    Question 2b. What is the primary fishing method--longlining?

    Question 2c. In 1999 FAO adopted an ``International Plan of 
Action'' on sharks. But four years later, how close are we to banning 
the practice of shark finning--or preventing shark declines--
internationally?

    Question 2d. What kind of impact does a U.S.-only sharkfinning ban 
have on the future of shark populations worldwide?
    Answer. As much of this question pertains specifically to the 
report to the Congress prepared by the Department of Commerce, National 
Marine Fisheries Service, and other technical issues under the purview 
of that agency, we note that the Department of State concurs with the 
response provided by Commerce to those parts of this question and will 
not repeat those answers here.
    We reiterate the commitment of this Department, along with the 
Department of Commerce, to implement the provisions of the 
International Plan of Action for the Conservation and Management of 
Sharks. As noted in the Commerce response, effective action to address 
and reverse the decline of many shark populations requires a 
comprehensive approach based on the need for a number of necessary 
measures to ensure conservation and management of sharks. Within this 
context, the effect of shark finning on the conservation and 
sustainable use of sharks is an important issue that requires further 
action. At the same time, there are other issues beyond the finning 
issue that must be addressed if we are to sustain and rebuild shark 
populations in many areas.

    Question 3. Import Certification Scheme--U.S. fishermen are subject 
to all U.S. fishing laws in high seas areas, as well as the 
conservation requirements of the Marine Mammal Protection Act and the 
Endangered Species Act, even though they are fishing beyond the U.S. 
EEZ. Thus, U.S. fishermen are at a harvesting disadvantage as compared 
with largely unregulated high seas fleets, which are often not subject 
to harvest limits or required to minimize bycatch. At the same time, 
many countries are parties to international agreements and guidelines 
but are not effectively enforcing them with respect to their fishing 
fleets.
    Wouldn't it be a good first step to adopt an import certification 
program, modeled on our shrimp-turtle law, that requires imports to be 
harvested in compliance with applicable international fishing 
agreements and guidelines? This is actually far less than we did in the 
shrimp-turtle law, that required imports to meet turtle protection 
standards comparable to U.S. laws.
    Since so few strong international agreements have been reached that 
require countries to protect marine mammals and turtles from 
interactions with various types of fishing gear, what if we did a 
certification program just like the shrimp-turtle approach, but for all 
protected species and for all types of fisheries, and require that you 
can only export to the U.S. if you are in compliance with standards 
comparable to U.S. law?
    Answer. The shrimp-sea turtle approach that you mention has been 
highly successful precisely because it was carefully crafted to take 
into account specific situations with respect to the operation of 
shrimp trawl fleets and global trade in shrimp from all sources of 
production. While such catch documentation schemes can and have been 
successful, we believe their continued success and ability to withstand 
WTO challenges depends on this attention to detail. Whether a single 
catch certification scheme could be developed that would cover all 
situations with all fisheries is a question that requires very careful 
consideration. That said, the Administration has worked to develop and 
implement other successful catch certification schemes including ones 
for toothfish under the Convention for the Conservation of Antarctic 
Living Marine Resources (CCAMLR), as well as for bluefin tuna, 
swordfish and bigeye tuna under the International Commission for the 
Conservation of Atlantic Tunas (ICCAT) and more recently in the Inter-
American Tropical Tuna Commission (IATTC). These schemes have the added 
advantage of being multilateral in nature and agreed among all parties 
to these international organizations. In our view, these tailored 
multilateral approaches provide the best approach to catch 
certification schemes that can withstand WTO scrutiny.

    Question 4. Import Bans under Pelly Amendment--Under the so-called 
``Pelly Amendment'' to the Fishermen's Protective Act (22 U.S.C. 1978), 
the President may prohibit any imports from a country if the Secretary 
of Commerce has certified that nationals of the foreign country 
conducted fishing, or takings or trade of endangered or threatened 
species in a manner that ``diminishes the effectiveness'' (e.g., 
violates or undermines) of international agreements. However, the U.S. 
has rarely used the Pelly import provision, although the Secretary of 
Commerce has made its finding in numerous cases.
    How often has the President fully exercised the ``Pelly Amendment'' 
to the Fishermen's Protective Act, and banned imports from countries 
that the Secretary of Commerce has found are violating international 
fishing or protected species agreements?
    Answer. Since its enactment in 1969, the Secretaries of Commerce or 
Interior have certified countries under the Pelly Amendment on 36 
occasions for diminishing the effectiveness of an international fishery 
conservation program or for diminishing the effectiveness of any 
conservation program for endangered or threatened species. In 1994, the 
President prohibited imports of certain fish and wildlife products from 
Taiwan for diminishing the effectiveness of the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora based 
upon certification by the Secretary of the Interior. On three occasions 
(former Soviet Union (1985) and Japan (1988 and 2000)), certifications 
under the Pelly Amendment by the Secretary of Commerce for diminishing 
the effectiveness of the International Whaling Commission (IWC) also 
resulted in certification under the Packwood Amendment to the Magnuson-
Stevens Fishery Conservation and Management Act. The Packwood Amendment 
requires the Secretary of Commerce to reduce allocations to fish in 
U.S. waters by not less than 50 percent. Such reductions were applied 
to the former Soviet Union in 1985 and to Japan in 1988, but not in 
2000 against Japan because that country was no longer fishing in U.S. 
waters.

    Question 5. Why hasn't the President fully exercised this 
provision?
    Answer. The authority to prohibit imports under the Pelly Amendment 
is discretionary. Generally speaking, Presidents have said they were 
not imposing import prohibitions under the Pelly Amendment because they 
saw other avenues as more effective in achieving desired results. 
Indeed, certified nations have often modified the behavior that led to 
Pelly certifications without the imposition of import prohibitions.

    Question 6. Pelly says that the President may prohibit any imports 
from a country if the Secretary of Commerce has certified that 
nationals of the foreign country have conducted fishing, or takings or 
trade of endangered or threatened species in a manner that ``diminishes 
the effectiveness'' of international agreements. So why haven't we 
taken action to ban imports of important products from these nations--
like rice from Japan--each time they kill whales because of the 
International Whaling Commission's ban on commercial whaling?
    Answer. The response provided to the second question also addresses 
the above question.

    Question 7. Norway recently sold whale meat to Iceland for the 
first time in 14 years, undermining the International Whaling 
Commission's ban on commercial whaling, and the ban on trade of such 
species under CITES. Does the Department of Commerce plan to certify 
this action under the Pelly Amendment?
    Answer. The decision whether to certify Norway for exporting whale 
meat to Iceland rests with the Secretary of Commerce and the Secretary 
of the Interior. Norway's export of whale meat to Iceland is currently 
under review by the Department of Commerce.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Ernest F. Hollings to 
                       Patrick J. Sullivan, Ph.D.

    Question. Import Certification Scheme--U.S. fishermen are subject 
to all U.S. fishing laws in high seas areas, as well as the 
conservation requirements of the Marine Mammal Protection Act and the 
Endangered Species Act, even though they are fishing beyond the U.S. 
EEZ. Thus, U.S. fishermen are at a harvesting disadvantage as compared 
with largely unregulated high seas fleets, which are often not subject 
to harvest limits or required to minimize bycatch. At the same time, 
many countries are parties to international agreements and guidelines 
but are not effectively enforcing them with respect to their fishing 
fleets.
    Wouldn't it be a good first step to adopt an import certification 
program, modeled on our shrimp-turtle law, that requires imports to be 
harvested in compliance with applicable international fishing 
agreements and guidelines? This is actually far less than we did in the 
shrimp-turtle law, that required imports to meet turtle protection 
standards comparable to U.S. laws.
    Since so few strong international agreements have been reached that 
require countries to protect marine mammals and turtles from 
interactions with various types of fishing gear, what if we did a 
certification program just like the shrimp-turtle approach, but for all 
protected species and for all types of fisheries, and require that you 
can only export to the U.S. if you are in compliance with standards 
comparable to U.S. law?
    Answer. Probably the best first step would be to demonstrate how to 
do this by example here at home. Good domestic resource management will 
result greater availability of resources as well as lower risk to the 
environment. Economically it makes sense to do this. If we manage our 
resources well, then we will have resources to harvest at a time when 
others will not, the price will go up as demand increases, and what 
U.S. fishermen will have to endure in the short run as a harvesting 
disadvantage will result in a windfall as the resource tables turn. 
When others see the advantages that result from good management 
measures they will follow suit. Imposing a certification scheme may 
work, but it is a stick not a carrot. If we go forward with a 
certification scheme, then we should try to learn from what worked and 
what did not with the present schemes especially here at home. For 
example, are successful schemes best developed and executed through 
government and law or through actions articulated by NGOs or private 
organizations? How broad a brush will be used in defining compliance? 
Too broad a brush will limit appropriate resource utilization 
practices. Too fine a brush will result in complicated legislation and 
will increase costs and enforcement concerns. My suggestion is that we 
work to straighten out our own backyards through the development of 
good science and policy as a precursor to straightening out the 
world's. We should be able to export successful management practices.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Rebecca Lent, Ph.D.

    Question 1. Dr. Lent, in your written statement you say that the 
U.S. is a leader in longline gear technology development and transfer 
as it relates to sea bird and sea turtle research. Now that the U.S. 
has developed technologies to alleviate bycatch by longline fleets, 
what steps are being taken to export those technologies?
    Answer. Preliminary results from cooperative research efforts on 
the Grand Banks have shown that larger circle hooks can significantly 
reduce sea turtle catch in the pelagic longline fishery (e.g., with 
mackerel bait, the number of loggerhead sea turtles caught was reduced 
by 65 percent in one trial). Unlike ``J'' hooks, which are often 
swallowed, circle hooks often become anchored in the mouth, and 
therefore hook extraction is easier and also safer for sea turtles (see 
attached file). De-hooking devices and methods have been developed for 
sea turtles that are too large to be boated, and those small enough be 
brought aboard (see attached file ``de-hooking etc.,'' which shows 
devices used to remove hooks and line from turtles caught on pelagic 
longlines.) Long handled LaForce line cutters and long handled Aquatic 
Release Corporation (ARC) de-hookers are used to remove gear on turtles 
not boated (see figure A). The Epperly Biopsy Pole is used with a 
stainless steel corer to take tissue samples for genetics. Short 
handled de-hookers are used to remove hooks from animals that are 
boated (see figure B). Miscellaneous tools have been developed to 
remove line, hooks, or the barb or eye of hooks on boated turtles (see 
figure C). A dip net is used to bring small (<50 kg) turtles aboard 
(see figure D). Mouth openers and gags are used on boated turtles to 
allow access to internal hooks (see figure E).
    NOAA Fisheries gear experts introduced the bycatch reduction 
technology described above to the international fishing community and 
resource managers at the International Fisheries Forum in Honolulu 
(2002), and at the NOAA-sponsored International Technical Expert 
Workshop on Marine Turtle Bycatch, in Seattle, WA (2003). As a result 
of these meetings, our efforts to transfer these technologies have 
increased, and requests for international technical assistance 
continue. NOAA Fisheries recently transferred circle hooks to Chile, 
and transferred circle hooks, de-hooking devices and line cutters to 
Brazil. We have received keen interest in both bycatch reduction 
technology and training from Mexico, Japan, Australia, New Zealand and 
Peru. We are also are providing training and de-hookers and circle 
hooks for field testing to Ecuador. Our scientists have provided 
technical advice to Costa Rica on implementing TED research principles 
using circle hooks. These technological transfers have been supported 
by the ongoing cooperative work of the pelagic longline industry, 
private sector gear specialists, and scientists from NOAA Fisheries. As 
new technological solutions are discovered, we will continue to work to 
export these technologies to other fishing nations.
    The situation in the case of seabirds is a bit different because, 
even as the FAO International Plan of Action was being adopted in 1999, 
there was an accepted ``toolbox'' of technological solutions that had 
proven utility in reducing the incidental catch of seabirds in longline 
fisheries in different geographical areas. The International Plan 
itself was a compilation of these solutions and an urging that the 
international community select from the toolbox those solutions that 
would work in a particular area. Our approach regarding the export of 
these solutions is to support vigorously the development of National 
Plans of Action on seabirds and participation in international meetings 
and workshops to promote the free transfer of technological solutions.

    Question 2. During oral testimony, it was said many times that the 
U.S. must lead by example to encourage other countries to comply with 
conservation efforts, yet our domestic fleets continue to suffer 
economic devastation while foreign vessels ignore most attempts at 
international fishing management. What is the Administration doing to 
level the playing field for our domestic fleets?
    Answer. History has shown that the U.S. Congress establishes living 
marine resource management law and policy for our country that often 
become the law in other countries. This requires us to lead by example 
most of the time. The Administration encourages other countries and the 
regional fisheries management organizations (RFMOs) in which they 
participate to follow these examples and implement these laws and 
policies with as little lag time as possible and to ensure that 
existing conservation rules are effectively enforced. In general terms, 
this is what we have done in negotiating the Code of Conduct for 
Responsible Fishing, the Compliance Agreement, the 4 International 
Plans of Action, and the United Nations Fish Stock Agreement at the 
global level; implementing these principles through RFMOs at the 
regional level; and encouraging their implementation through our 
various bilateral fisheries arrangements at the national level. As 
described above, we are making significant progress in sharing by-catch 
reduction technology and encouraging its use by other fleets.

                               Attachment

Course of Action to Promote International Agreements that Address the 
        Need to Reduce Sea Turtle Bycatch in Foreign Longline Fisheries

General
    1. The United States recognizes the critical need to reduce 
incidental capture of marine turtles in longline fisheries, to evaluate 
other sources of fishing mortality, and to take appropriate action to 
minimize turtle bycatch in international fisheries.
    2. The United States has taken steps to quantify marine turtle 
bycatch and to seek solutions to reduce the international problem of 
incidental capture of marine turtles. The United States supports the 
sharing of information on the incidental capture of sea turtles in all 
fishing gear. The United States recognizes data collection on marine 
turtle bycatch is critically important to understand the impacts these 
activities may have on turtle populations. The United States hopes that 
by sharing its domestic information, it will encourage and support 
existing bilateral efforts as well as facilitate new regional and 
global efforts to collect and share turtle bycatch data and encourage 
cooperative research.
    3. The United States is proceeding to identify and evaluate gear 
and/or fishing technique modifications that may serve as an alternative 
to fishery closures to reduce sea turtle bycatch in longline fisheries 
and should request and encourage the international cooperation 
necessary to achieve this goal.

Global
    4. The United States intends to provide a summary report to the 
Food and Agriculture Organization of the United Nations (FAO) for 
distribution to FAO members on the bycatch of marine turtles in U.S. 
longline fisheries and the findings of its research as well as 
recommendations to address the issue.\1\
---------------------------------------------------------------------------
    \1\ The United States provided this summary to the Twenty-fifth 
Session of the Committee on Fisheries, Rome, February 24-28, 2003.
---------------------------------------------------------------------------
    5. At the Twenty-Fourth Session of the FAO Committee on Fisheries 
(COFI), the United States distributed a concept paper for an 
international technical experts' meeting to evaluate existing 
information on turtle bycatch, to facilitate and standardize collection 
of data from those fisheries that are likely to interact with marine 
turtles, to exchange information on experimentation with longline gear 
relative to turtles and target species, and to identify and consider 
solutions to reduce turtle bycatch. There were, however, differing 
views on how to address the conservation problems of sea turtles. COFI 
agreed that an international technical meeting could be useful despite 
the lack of agreement on the specific scope of that meeting. The United 
States concluded that the international technical experts' meeting 
would be most productive if focused on problems associated with a 
specific gear type. A prospectus for a technical workshop to address 
longline bycatch of marine turtles is included in this Report to 
Congress.\2\ However, this does not preclude the need for other gear-
specific international workshops in the future.
---------------------------------------------------------------------------
    \2\ The Technical Workshop was held in Seattle, February 2003.
---------------------------------------------------------------------------
Regional
    6. The United States will initiate efforts through regional fishery 
management organizations and other regional fisheries and conservation 
bodies, as appropriate, e.g., the International Commission for the 
Conservation of Atlantic Tuna, the Asia Pacific Fisheries Commission, 
and the mechanisms to be established under the Inter-American 
Convention and the Convention on the Conservation and Management of 
Highly Migratory Fish Stocks in the Western and Central Pacific, to 
call attention to the international problem of sea turtle bycatch in 
fisheries, particularly longline fisheries, and promote international 
cooperative efforts to collect information on the incidence of sea 
turtle bycatch and gear and/or fishing technique modifications that may 
ameliorate the problem. We will promote our technical workshop as the 
forum that should receive and consider such information. The United 
States will also pursue potential co-sponsors for the technical 
workshop.

Bilateral
    7. The United States will use relevant bilateral relationships to 
encourage the collection and sharing of information and the eventual 
implementation of means of reducing sea turtle bycatch in fisheries, 
particularly longline fisheries. For example, we can follow up on 
Mexico's commitment to share observer data from its Pacific swordfish 
and shark fisheries and on Chile's 1999 undertaking to collect 
information on bycatch of sea turtle in its swordfish fishery. This 
topic will also be suggested for the agendas of bilateral meetings with 
Japan, Korea, Taiwan, Canada, the European Community, and other nations 
with fisheries of concern.
    8. The United States will demarche any flag states with a 
significant longline fleet, and Taiwan, to emphasize the international 
nature of this problem, to describe the steps the United States is 
taking to address it, and to request information relative to sea turtle 
bycatch in longline fishing according to a specification that will be 
developed. We should also make a similar demarche to the Executive 
Secretaries (or equivalent) of regional fisheries management 
organizations or arrangements in whose area of operation longline 
fishing occurs to request any relevant information held by those 
organizations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                       Admiral Thomas H. Collins

Western Pacific EEZ Boundaries
    Question. Admiral Collins, in your oral testimony, you stated that 
the U.S. Coast Guard has only one cutter dedicated to patrolling the 
Bering Sea U.S. EEZ boundary. What dedicated platforms are being used 
to patrol the extensive Western Pacific EEZ boundaries?
    Answer. Elimination of Exclusive Economic Zone (EEZ) encroachments 
is our top fisheries enforcement priority. In assignment of our cutter 
and aircraft resources, however, this priority must compete with our 
other fisheries enforcement priorities as well as our other CG 
missions. In the Bering Sea, where we have a consistent and significant 
threat in place, i.e., 20-30 foreign factory trawlers within five miles 
of our EEZ for approximately six months of the year, we dedicate a 
cutter to patrolling this area and augment these cutter patrols with 
occasional C-130 flights. The threat against our Western Pacific EEZ 
boundaries is not nearly as predictable or as constant. This makes 
enforcement of these boundaries no less important, but it does make 
dedicating a cutter to this area inefficient and ineffective. The Coast 
Guard patrols this wide area through occasional C-130 flights.
    The EEZs surrounding the Hawaiian Islands and the Western Pacific 
island territories comprises over 40 percent of the 3.36 million square 
mile U.S. EEZ. A multinational fleet of fishing vessels target highly 
migratory fish stocks, including tuna in and around these waters. These 
fleets migrate from year to year as the stocks are affected by Pacific 
El Nino events. The vast areas, distances, and changing nature of these 
fishing fleets make surveillance very resource-intensive. We are 
committed to protecting these and all of our EEZ boundaries. Continued 
support of the Coast Guard's Deepwater recapitalization efforts is 
critical to improving the prosecution of this mission. The Deepwater 
program will provide highly capable cutters and aircraft, including 
unmanned aerial vehicles, with the requisite speed and endurance to 
patrol these regions more efficiently.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Hon. John F. Turner

    Question 1. What sorts of actions can Congress take to assist 
efforts to make the international community take action and make real 
contributions to conservation efforts, rather than the empty rhetoric 
it currently offers?
    Answer. In recent several years, the United States has been at the 
forefront of efforts to negotiate and implement a new international 
legal framework governing the conservation and management of the 
world's living marine resources and give teeth to internationally 
agreed measures. Two key parts of this framework are the United Nations 
Agreement for Straddling Fish Stocks and Highly Migratory Fish Stocks 
(Fish Stocks Agreement) and the Agreement to Promote Compliance with 
International Conservation and Management Measures by Fishing Vessels 
on the High Seas (Compliance Agreement). These agreements entered into 
force in December 2001 and April 2003, respectively. Together, these 
agreements provide strong tools to address issues that have too long 
been left unattended and we are now working to implement those tools in 
regional fisheries management organizations such as ICCAT, IATTC, NAFO, 
CCAMLR, and others. Congressional support for these agreements, 
including rapid Senate action for advice and consent to ratification, 
has been vital to our efforts in this regard and will continue to be so 
in the future. This includes congressional support for full funding for 
U.S. payments to regional fisheries management organizations to which 
the United States is a party.
    This new international framework and agreements will only be 
effective to the extent that vessels and nations comply with them and 
implement faithfully their provisions. For this reason, the United 
States and other countries have been focusing recent efforts on 
controlling illegal, unreported and unregulated fishing. The United 
States along with other countries pushed for and achieved negotiation 
of an International Plan of Action (IPOA) to Prevent, Deter and 
Eliminate Illegal, Unreported and Unregulated Fishing. The IPOA calls 
on each country to prepare its own national plan of action on IUU 
fishing. The United States is in the final stages of preparing its 
national plan of action. The plan will contain recommendations for 
possible changes to U.S. legislation to strengthen both national and 
international efforts to control IUU fishing. We welcome an opportunity 
to work with the appropriate congressional offices as this work 
progresses.

    Question 2. What is the Administration doing to level the playing 
field for our domestic fishing fleets, particularly when our fleets are 
at a disadvantage as compared to the largely unregulated foreign high 
seas fleets, and the U.S. has some of the lowest tariffs in the world 
for fish imports.
    Answer. The Administration is working across the board at the 
global, regional, subregional and bilateral level to achieve equity and 
a level playing field for U.S. fishermen. In the Western and Central 
Pacific Ocean, for example, (including the waters around the state of 
Hawaii) U.S. fishermen operate at a high standard with respect to 
conservation and management measures, data collection, observer 
coverage, vessel monitoring systems, and other requirements. The 
recently negotiated Western and Central Pacific Fisheries Convention 
establishes similar requirements for all countries fishing in the 
region that are party to the agreement. Our goal is to ensure that all 
major fishing players join the convention and that all such states and 
entities operate under the same set of rules. The Administration takes 
the same approach in each regional fishery management organization to 
which the United States is a party and is actively and aggressively 
seeking ways to address instances where countries or vessels operate 
outside the agreed rules.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
